<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Murray, Cochran, Bond, and 
Brownback.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU
ACCOMPANIED BY:
        MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DIRECTOR, ARMY 
            NATIONAL GUARD
        LIEUTENANT GENERAL HARRY M. WYATT III, DIRECTOR, AIR NATIONAL 
            GUARD

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on the fiscal year 2011 budget of the 
National Guard and the Reserve components.
    And from the National Guard, we are pleased to have the 
Chief of the National Guard Bureau, General Craig McKinley; the 
Director of the Army National Guard, General Raymond Carpenter, 
who is testifying with us for the first time; and the Director 
of the Air National Guard, General Harry Wyatt.
    And from the Reserves, we welcome the Chief of the Army 
Reserve, General Jack Stultz; the Chief of the Naval Reserve, 
Admiral Dirk Debbink; the Commander of the Marine Corps 
Reserve, General John Kelly, who is also appearing before this 
subcommittee for the first time; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I thank all of you for joining us today, and the 
subcommittee reviews fiscal year 2011 budget.
    Over the last several years, the Guard and Reserves have 
made important changes as they transition from a strategic to 
an operational reserve. The Department has improved its 
resourcing of the Guard and Reserve, and the services have made 
significant strides in integrating the Reserve components in an 
effort to create one total force.
    The Guard and Reserve have also recovered from the 
recruiting and retention difficulties they confronted over the 
last several years. Although retaining personnel in certain 
high-demand career fields remain a challenge, the significant 
personnel shortages seen in years ago have been eliminated, and 
the Reserve components now have the opportunity to focus on 
refining their personnel mix to get the right person in the 
right position.
    And I wish to congratulate all of you.
    However, many challenges remain. The Guard and Reserve must 
continue to improve reintegration and family support programs. 
Suicide, divorce, and substance abuse are on the rise in the 
military, and the Reserve components are no exception. 
Reservists and their families lack the support network provided 
at Active Duty installations, so it is essential that we do 
everything we can to support Reserve families during 
deployments and as the reservists transition back to civilian 
life.
    Your Yellow Ribbon Program is a step in the right 
direction, but I encourage you to continue improving the 
program to better fit the needs of our servicemembers. And I 
look forward to hearing, today, what each component is doing to 
improve support to our Reserve families.
    The Guard and Reserves still face significant equipment 
shortfalls. For this reason, last year Congress provided $950 
million for the National Guard and Reserve equipment account to 
allow the Reserve components to purchase the additional 
equipment they need for predeployment training and operations 
at home and abroad. Congress has provided additional equipment 
funding for the Guard and Reserve in each of the last 30 years, 
because, year after year, the President's budget fails to 
sufficiently fund the Reserve components. Some critics decry 
the additional funds by this subcommittee as unnecessary 
earmarks, but I'm certain that the witnesses here today agree 
that, without this additional funding, our Reserve components 
would be woefully equipped.
    The success of the Guard and Reserve depends on the support 
of Reserve employers. The weak economy is placing additional 
strain on the employers, who must fill the jobs left by 
reservists when they deploy. As many reservists face their 
second, or even third, deployment, we must ask whether the 
current operational tempo is sustainable and what more we can 
do to ensure that we maintain the support of our business 
community in hiring and supporting Reserves.
    So, gentlemen, I look forward to the hearing, to hearing 
your perspective on these issues, and working with you this 
year in support of our guardsmen and reservists. And I thank 
you for your testimony this morning.
    And may I say that your full statements will be made part 
of the record.
    We'll begin our hearings with the panel from the National 
Guard, but first I'll turn it over to my vice chairman, Senator 
Cochran, for an opening remark he may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming this distinguished 
panel of witnesses before our subcommittee. And we look forward 
to working with them to identify ways we can make sure that the 
Guard and Reserve programs are funded at appropriate levels, 
and that they're able to carry out their duties and 
responsibilities under the law. Very important role. Gets more 
important as time has gone on. And Guard and Reserve personnel 
and leadership are depended on more and more to help protect 
the security interests of our great country.
    Chairman Inouye. Senator Bond, would you care to make your 
remarks?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. And I join 
with you and the ranking member, Senator Cochran, in welcoming 
the leadership of the National Guard today.
    And on behalf of the National Guard Caucus, Senator Leahy 
and I thank you for this tremendous support you've provided the 
Guard over the years.
    As you have indicated, had the subcommittee simply rubber-
stamped the budget proposed over the last few decades, the 
National Guard today would be a hollow force, if it were still 
a force. Instead, this subcommittee and the Congress, as a 
whole, have chosen, many times, to make up the shortfall in 
equipment budgets and manpower so that the Guard could continue 
to perform its missions. By investing in the Guard, we serve 
the national security interests of the country, ensure the 
protection of the homeland, at a fraction of the cost of the 
Active Duty, leveraging the incredible skills and experience of 
our citizen-soldiers and airmen.
    I will ask that--submit for the record a letter that 
Senator Leahy and I have prepared on behalf of the National 
Guard Caucus, asking the Secretary of the Air Force to 
reconsider the decision made with respect to the C-130 aircraft 
and they made--a decision made without consultation with the 
Guard.
    And I thank you very much.
    Chairman Inouye. Without objection, so ordered.
    Senator Bond. Thank you, sir.
    [The information follows:]
                                      United States Senate,
                                    Washington, DC, March 24, 2010.
The Honorable Michael B. Donley,
Secretary of the Air Force,
Washington, DC 20330-1670.
    Dear Secretary Donley: On behalf of the 96 member strong Senate 
National Guard Caucus, we are concerned and oppose the force structure 
cuts to the Air National Guard C-130 fleet. We are seriously troubled 
that the Air Force would consider taking aircraft from the Air National 
Guard to fill gaps in the Active Component. This most recent 
announcement is a troubling move in what appears to be a consistent 
trend since the 2005 BRAC to reduce the number of aircraft from the Air 
National Guard without substantive or even any consultation with Air 
National Guard leadership.
    The most disconcerting cuts come from the drawdown based on the 
Mobility Capabilities and Requirements Study 2016 (MCRS 16), which at 
the time of budget decisions, was still being developed. The 
programmatic decision resulting in these cuts was based from a draft 
study which now reflects what the budget had already announced. In a 
time of economic downturn and smaller defense budgets, we encourage the 
Department of Defense and the Air Force to adopt structures such as 
active associate wings to leverage the Air National Guard's lower 
operating and infrastructure costs and more experienced civilian 
airmen.
    We urge you to reconsider the C-130 Force Structure changes and 
seriously review alternative courses of action that will preserve our 
mobility capability for both of the Air National Guard's Federal and 
State missions.
            Sincerely,
                                     Senator Patrick Leahy,
                            Co-Chair, Senate National Guard Caucus.
                               Senator Christopher S. Bond,
                            Co-Chair, Senate National Guard Caucus.

    Chairman Inouye. This morning, we have two panels. The 
first panel consists of the Chief of the National Guard Bureau, 
the Director of the Army National Guard, and the Director of 
the Air National Guard.
    So, I'll call upon, first, General Craig McKinley.
    General McKinley.

            SUMMARY STATEMENT OF GENERAL CRAIG R. MC KINLEY

    General McKinley. Chairman Inouye, Vice Chairman Cochran, 
Senator Bond, it's an honor and privilege to be here today.
    I guess we won the coin toss, so the Guard goes first this 
year. We've kind of alternated the 4 years I've been here, so I 
think we'll try not to run out the clock on the Reserve Chiefs, 
who are really strong colleagues of ours. We operate as seven 
very close representatives representing the Reserve component 
force and the National Guard, and it's an honor to be here with 
you today.
    We've got about 460,000 members of the Army and the Air 
National Guard. And, as you said, Mr. Chairman, our strength is 
good, and our retention is even better.
    On my right, your left, is Bud Wyatt--Lieutenant General 
Bud Wyatt. Bud joined our team a year ago. He was former 
adjutant general in Oklahoma, so he knows not only the Federal 
piece of our business, but he has represented the State of 
Oklahoma exceedingly well.
    And on my left, your right, is Major General Ray Carpenter. 
Ray has been just a stalwart in standing in for the retirement 
of our former Director of the Army National Guard, Lieutenant 
General Clyde Vaughn. And, for almost a year now, Ray has 
managed the day-to-day operation of the Army Guard, working 
with United States Army. So, it's a pleasure for me to be ably 
assisted by these two fine gentlemen.
    The Department, for your interest, sir, is moving forward 
to identify a nominee for the position of the Director of the 
Army National Guard. It's a critical billet, and we have had 
the board--names have been recommended to both General Casey 
and Secretary McHugh. And so, they will be considering that. We 
hope, obviously, that that name gets over here and we move to 
confirm as quickly as possible.
    Senator Leahy, how are you, sir?
    We've submitted a copy of our posture statement to the 
subcommittee, and offer that as our formal testimony for the 
record. General Wyatt and General Carpenter will speak, in 
detail, about the budget request for the Army and the Air 
National Guard, as they work with our parent services in the 
budget process.
    As United States Armed Forces continue to conduct 
operations in Iraq, Afghanistan, and elsewhere around the 
world, units of the Army and Air National Guard are 
participating as total force partners in that effort. The 
National Guard has repeatedly proven itself to be a ready, 
accessible force. We have validated the total force concept by 
showing that the men and women in our formations are ready to 
answer the call, to be mobilized, to deploy overseas, return 
home, and then become prepared to do it again and again.
    The citizen-soldiers and airmen of your National Guard are 
adding value to America every day that they serve. The 
capabilities they bring to bear would not have been possible 
without the strong support of this subcommittee, and we thank 
you all very much for that support.
    The most critical part of that proven capability, however, 
is our National Guard men and women. Today's men and women 
volunteer to join, or stay, in the National Guard fully 
expecting to be deployed. This shift in expectation is a 
central aspect of the National Guard shift to being a fully 
operational force and no longer merely a strategic Reserve. 
Indeed, the soldiers and airmen of your National Guard now 
serve with that expectation, and are proud of it. They want to 
remain central players in the Nation's defense, and would 
indeed be resistant to any move to return to a role limited to 
strictly strategic Reserve.
    Overall, we can say that the budget request for fiscal year 
2011 meets the critical needs of the Army and Air National 
Guard in this era of persistent conflict overseas and ongoing 
threats to American lives and property here in the homeland.
    Of particular importance to us is the request for 
operations and maintenance funds. This money is critical. We 
use it to buy the fuel, the spare parts, building maintenance, 
and other things essential to being effective Reserve 
components of the Army and the Air Force, and we ask the 
subcommittee to fully fund that request.
    All of us in the National Guard are highly mindful and 
deeply grateful for the strong support of the National Guard 
which this subcommittee has shown to us in the past. In return, 
we try to be good stewards of the funds you appropriate for us, 
and use that money to make your National Guard as strong as it 
can be. We're particularly grateful for the additional funds 
which this subcommittee has provided through the National Guard 
and Reserve equipment account. We have used those funds to fill 
critical shortages in the Army National Guard and to provide 
technological modernization in our Air National Guard 
capabilities.
    We are especially grateful for the flexibility in which 
those funds are provided to us, allowing us to apply that money 
to our most critical equipment needs. And, as my predecessor 
Steve Blum was fond to say, ``Every dollar that is funded 
through the National Guard and Reserve equipment account is 
spent in that area.''
    One of the longest-running joint programs in the National 
Guard, one which employs both Army and Air National Guard 
capabilities, is the National Guard Counterdrug Program. This 
unique program provides a mechanism under which National Guard 
military experience can be employed to assist civilian law 
enforcement agencies to fight the corrosive effect of illegal 
drugs in American society. Funding for this program is included 
in the fiscal year 2011 budget request, and we ask for your 
full support of that request.
    As we've seen, parenthetically, with recent incidents along 
our Southwest border, the scourge of drugs migrating across 
that border creates a lot more concern on our part that this 
program still fills a very vital need.
    We are well aware that last year, as it has done in 
previous years, this subcommittee provided significant 
additional funds for that counterdrug program to fund 
capability enhancements. Nearly one-quarter of the capability 
of the National Guard Counterdrug Program exists today because 
of the additional funding provided in the past by Congress.
    In order to move quickly to your questions, I would now 
like to ask my Directors of the Air and Army National Guard to 
provide their perspectives. But, before I do that, I would just 
like to personally thank Senator Bond for his years of service 
to the Senate Guard Caucus.

                           PREPARED STATEMENT

    We can't thank you, sir, enough, and your staff, for being 
there, for listening to us, and for providing that great 
leadership. And we wish you a great deal of well-being back in 
the State of Missouri when this run is over. Thank you, Senator 
Bond.
    Bud?
    [The statement follows:]

            Prepared Statement of General Craig R. McKinley

                  INTRODUCTION AND EXECUTIVE OVERVIEW

    About 400 years ago, a few hardy souls boarded tall ships from the 
shores of their comfortable European homeland to travel to a North 
American wilderness. They risked their lives on the treacherous waters 
of the North Atlantic for a new land and a better life.
    Immediately, homeland security became a concern for these early 
settlers. In times of need, volunteers from tiny hamlets and towns 
picked up their muskets to rush to the defense of their homes and 
families.
    Out of this necessity, the first militia was organized in the 
Massachusetts Bay Colony in 1636. About 140 years later, these Citizen-
Soldiers had become a formidable force. At the Battle of Concord in 
1775, outnumbered musket-wielding militia defeated an ``invincible'' 
British force and the enduring reality of the Minuteman was born.
    The Minuteman image was immortalized in the statue that stands 
today by the North Bridge, which spans the Concord River. The Minuteman 
was sculpted in traditional militia mufti with one hand on the plow and 
the other grasping a musket. The Citizen is ready at a moment's notice 
to become the Soldier.
    That ethos continues, ever stronger today, abroad and at home. Our 
Citizen-Soldiers and Airmen are adding value to America.

                            RAPID EVOLUTION

The National Guard Abroad
    The depth provided by the National Guard is no longer the ``once in 
a lifetime'' use of a strategic reserve as envisioned during the Cold 
War. The National Guard has become an operational force that is an 
integral part of the Army and Air Force. It is populated by seasoned 
veterans with multiple deployments in support of operations in Iraq, 
Afghanistan, the Balkans, and many other locations around the world.
    Our most precious assets flow from our communities. At this time, 
nearly 60,000 Citizen-Soldiers and Airmen are deployed in support of 
overseas operations in Iraq, Afghanistan, the Balkans, and the Sinai.
    The National Guard has maintained a high operational tempo for more 
than 8 years in support of the operations in Iraq and Afghanistan. 
Through the admirable service of thousands of Guardsmen we have 
provided essential combat, logistics, and other support capabilities to 
these operations.
    Most recently, the National Guard provided critical Humanitarian 
Relief and Disaster Response support following the massive earthquake 
of January 2010 in Haiti. From providing initial medical evacuation to 
sustained logistics support and airborne communications, National Guard 
Soldiers and Airmen quickly delivered the specialized expertise 
required to support the Haitian people in their hour of need.
The National Guard at Home
    In addition to the thousands of National Guard Soldiers and Airmen 
currently activated for ongoing Federal missions overseas, the National 
Guard provides significant response to unexpected contingencies at 
home.
    On average, on any given day, 17 U.S. Governors call out their 
National Guard to help citizens in need. We responded in 2009 as we 
always have--immediately, effectively, appropriately, and in force. 
There's no reason to believe 2010 will be any different.
    Three significant events in 2009 were the record floods in North 
Dakota, the incredibly devastating ice storms in Kentucky, and the aid 
Hawaii quickly delivered to American Samoa after a tsunami smashed into 
the island.
    Rapid and full emergency response is another service that our 
Citizen-Soldiers and Airmen do well.
    At the peak of flood fighting efforts, the North Dakota Guard 
responded with more than 2,400 Citizen-Soldiers and Airmen aided by 
Guardsmen from six other states including Minnesota, Wisconsin, South 
Dakota, Montana, Missouri, and Iowa.
    The Guard assisted with levee patrols, evacuating residents, and 
sandbag operations. Our Soldiers and Airmen also provided traffic 
control points and presence patrols. They flew aviation support 
missions, including reconnaissance and ice salting to promote melting. 
They also delivered and operated water pumps, broke up ice jams, and 
performed other missions as required.
    In Kentucky, the entire Kentucky Army National Guard plus Guardsmen 
from Florida, Indiana, Ohio, Tennessee, and Wisconsin were called to 
duty, removing debris and running communications sites in addition to 
delivering essential supplies.
    Restoration of electric power to water plants, communications 
facilities, home generator support, operation of shelters in 24 
armories, and removing downed trees were the top priorities. Troops 
worked with state and local crews clearing roads and gaining access to 
damaged power transmission lines. Our National Guard men and women 
delivered more than 285,000 meals and a half million bottles of water 
every day to needy communities.
    An 8.4 magnitude earthquake struck the Samoa Islands region on 
September 29, which resulted in a destructive tsunami with 15-20 foot 
waves impacting the east side of American Samoa. Buildings suffered 
damage; up to 6,000 people were without power; there were 1,912 refuges 
in 14 shelters; and 32 confirmed fatalities.
    Within 24 hours, about 90 National Guard personnel from Hawaii's 
Civil Support Team and CBRNE Enhanced Response Force Package, a command 
and control element, and a mortuary affairs team flew to American Samoa 
to help in the recovery efforts.
    The National Guard is located in more than 3,300 communities around 
the nation providing an indispensable link between the military and the 
citizens of our great nation. We may be the only military that some of 
our citizens ever see.
    At the same time, more than 4,600 personnel are on duty in our 
daily ongoing domestic operations--state active duty, and Counterdrug 
and Air Sovereignty Alert missions. More than 390,000 are available to 
respond to any situation.

                               READINESS

Personnel
    Despite all the nation has asked of them in the overseas warfight 
as well as here at home, we are recruiting and retaining National Guard 
members in impressive numbers and with higher quality marks. Americans 
join and stay in the National Guard. But as successful as we have been 
to date, we need continued support for recruiting and retention 
efforts.
Equipment
    The National Guard must have modern equipment if we are to remain 
successful as defenders of the homeland at home and abroad. Army 
National Guard (ARNG) units deployed overseas have the most up-to-date 
equipment available and are second to none.
    However, a significant amount of equipment is currently unavailable 
to the ARNG due to continuing rotational deployments and emerging 
modernization requirements. Many states have expressed concern about 
the resulting shortfalls of equipment for training as well as for 
domestic emergency response operations.
    The Army has programmed $20.9 billion for ARNG equipment for fiscal 
year 2009 through fiscal year 2013 to procure new equipment and 
modernize equipment currently on hand. We appreciate that support and 
also the strong interest of Congress and Department of Defense (DOD) in 
closing the gap between our domestic requirements and the available 
equipment in our armories and motor pools.
    The Air Force is in the midst of modernizing and recapitalizing its 
major weapons platforms, and the Air National Guard (ANG) must be 
concurrently and proportionally recapitalized, particularly in order to 
avoid the near to mid-term ``age-out'' of the majority of its fighter 
force.
    Our primary concern is that 80 percent of our F-16s, the backbone 
of our Air Sovereignty Alert force, will begin reaching the end of 
their service life in 7 years.
    To that end, we support the Air Force's recapitalization plan, and 
believe that all roadmaps should be inclusive of the ANG as a hedge 
against this ``age-out.''
    We shouldn't be relegated to obsolete and incompatible equipment 
like we were during the Cold War. We have proven that the old way of 
doing business does not work in today's environment. The National Guard 
must remain an operational force, indeed a strategic force, and must be 
resourced as such, so we can assist the Army and Air Force as much as 
possible.
National Guard and Reserve Equipment Appropriation (NGREA)
    A significant success story over the past few years is how NGREA 
funding has helped the Guard fill equipment shortages. This is 
particularly true for shortages involving Critical Dual-Use (CDU) 
equipment, which are items that the Guard uses in both Federal and 
state missions. The equipment purchased through NGREA includes CDU, 
however no equipment is purchased solely for domestic use by the 
states. The use of NGREA has been instrumental in providing for the 
quality and quantity of ARNG equipment. It has also enabled the ANG to 
both support Overseas Contingency Operations (OCO) and to also provide 
assistance to domestic response.
    An important benefit of NGREA funding is transparency in 
accounting. In fact, every dollar can be tracked and accounted for in 
the process. With NGREA, we are able to show Congress exactly what 
equipment the Guard received for the money spent and where that 
equipment is located.
Training
    Along with preparations for Federal service, the National Guard 
prepares for possible use in domestic operations. To that end, in 
fiscal year 2009 the National Guard conducted four regional Vigilant 
Guard exercises and three combatant command/national level exercises to 
facilitate unity of effort. In fiscal year 2010, the NGB is building 
local, state, and national level exercise capability to support the 54 
states, territories, and the District of Columbia in preparing for 
larger scale exercises, National Special Security Events (NSSE), and 
real world events.
Agribusiness Development Teams
    Nowhere does today's 21st century Minuteman embody the Citizen-
Soldier promise better than in our Agribusiness Development Teams 
(ADTs) in Afghanistan, where it is so needed after 40 years of constant 
turmoil and war.
    We send Guardsmen, whose skills and livelihood are earned in 
agribusiness in the United States, to this war-torn country to help 
better their farming industry.
    The first team deployed from Missouri in 2007. Today, eight teams 
are dispersed throughout Afghanistan, doing incredible work promoting 
sustainable farming practices and stimulating Afghan agriculture.
    For the Guardsmen, that means engaging with local farmers and 
helping them address many of their challenges, such as water and 
infrastructure issues.
    Eighty percent of Afghanis depend on agriculture for their 
livelihood, so it's incredibly important that if we're going to attack 
all the challenges and ills that hinder Afghanistan, we help stabilize 
their agribusiness economy.
    The goal is not to teach how to farm but to expand those skills 
that Afghan farmers already have. They know how to farm. They need 
someone to help them with the more scientific aspects of agriculture.
    Before those crops get to market they need to be harvested or 
processed. Texas and Missouri ADTs developed clean and sanitary meat 
processing facilities powered by renewable energy sources. Also, 
mechanical engineers in the Guard were able to teach the Afghans how to 
build wind turbines and help produce power for these facilities. In the 
end, that's the goal--to find simple solutions to the challenges faced 
by Afghan farmers.
    Because of the ADTs, Afghanistan has entered into a bilateral 
relationship with Nebraska. There is a large Afghan population in 
Nebraska, and the University of Nebraska has a cultural center that has 
built a relationship that has endured for decades.

                        NGB AS A JOINT ACTIVITY

    In 2009, the National Guard made great progress in supporting DOD's 
efforts to both manage the Reserve Components as an operational force 
and establish the National Guard Bureau as a joint activity. The NGB, 
as part of the total operational force, has a greater role and 
increased responsibility for shaping the discussion and recommendations 
within DOD for issues related to Homeland Defense and Defense Support 
to Civilian Authorities.
    The National Guard has always recognized its unique role as 
America's first military responder. In the continued quest for serving 
our citizens, we have leveraged the concept of the Joint Staff, both at 
the national and at the state level, to ensure rapid, effective, 
coordinated responses to domestic emergencies. This capability is 
modular, scalable, and can maximize effectiveness by employing Army and 
Air Guard capabilities into a true joint response. This supports the 
Adjutants General with single procedures for communication, 
coordination, collaboration, and employment.
State Partnership Program
    The National Guard State Partnership Program (SPP) establishes 
enduring and mutually beneficial partnerships between foreign countries 
and American states through the National Guard. This program is an 
important component of the Defense Department's security cooperation 
strategy, the geographic combatant commanders' theater engagement 
programs, and U.S. Ambassadors' Mission Strategic Plans.
    A primary aim is to promote partnership among the many nations 
working with us to advance security, stability, and prosperity around 
the globe.
    Today, American states are partnered with more than 60 foreign 
nations to focus on military-to-military, military-to-civilian, and 
civil security activities.
    Created in 1993, the SPP has helped the United States, European, 
African, Southern, Pacific, and Central Commands engage the defense and 
military establishments of countries in every region of the globe.
    This valuable mutual security cooperation program will continue to 
expand in size and strategic importance.
Interagency and Intergovernmental Coordination and Cooperation
    The National Guard's dual mission requires a disciplined balance 
between persistent readiness to defeat threats to our nation and its 
vital interests, and constant availability to help our communities and 
states.
    To improve efficiency for all involved in domestic operations, the 
NGB is orchestrating an effort to maximize collaboration with partner 
organizations like the U.S. Coast Guard, U.S. Army Corps of Engineers, 
and the Federal Emergency Management Agency (FEMA). By working together 
with our partners, we will provide a more coordinated response for all 
catastrophes, natural or man-made.

                        FUTURE PLANS--OUR VISION

    The Guard must remain a community-based organization with a clear 
understanding of its dual role: to serve abroad in support of our 
national defense; and to serve the Governors and people of the states, 
territories, and the District of Columbia to which they belong. 
Recognizing the principles of states' rights and the tiered approach to 
domestic support to civil authorities, the Adjutants General (TAGs) 
will continue to provide a wide range of capabilities to their 
Governors and play a significant role in determining National Guard 
priorities and in shaping the future of the Guard.
    In an era of persistent conflict, we need a predictable rotational 
model and we must maintain proficiency and interoperability with the 
rest of the force. We must modernize at a proportional rate to the 
Active Component.
    At a steady state, we are going to have persistent requirements. 
There are tough resourcing decisions ahead, but I am optimistic we will 
continue our relevancy both on the domestic front and abroad while 
continuing to take the very best care of our Airmen, Soldiers, and 
their families.
    What the future holds for the National Guard Bureau is to cement 
its cross-functional relationships with other government and military 
agencies to answer any call, anywhere with the utmost collaboration and 
effectiveness. This is how we will continue adding value to America 
long into the future.
    The following pages show how the Army and Air National Guard and 
the Joint Staff are doing their part to build a balanced, flexible, and 
cohesive force for the future.

  MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DIRECTOR, ARMY NATIONAL 
                                 GUARD
                       MESSAGE FROM THE DIRECTOR

    Unique events, leadership transitions, and a change in vision 
defined another challenging and rewarding year for the Army National 
Guard (ARNG). The ARNG shifted its focus from quantity of assigned 
strength to quality of the force, a new vision for an experienced and 
accessible force. As a result, we have significantly increased the 
readiness of the Army National Guard. Our Soldiers are better trained 
and equipped to support overseas contingency operations and provide 
domestic support to our civilian authorities.
    The ARNG made notable progress with our Modular Force Conversion 
and Rebalance efforts. We have also implemented a number of innovative 
initiatives such as the:
  --Agribusiness Development Team;
  --Domestic All-Hazards Response Team (DART);
  --Muscatatuck Urban Training Center;
  --Battle Command Training Capability Program;
  --eXportable Combat Training Capability (XCTC);
  --Patriot Academy;
  --General Equivalency Diploma (GED) Plus;
  --Yellow Ribbon Reintegration Program; and
  --Community-Based Warrior Transition Program.
    Through these efforts, our Soldiers are educated, trained, 
equipped, and supported unlike any other time in our history. Our 
efforts to balance the lives of our operational units and individuals 
have given us the flexibility and effectiveness needed to keep America 
strong.

                               OPERATIONS

    Balancing domestic and overseas operations brings out the best in 
Army National Guard integrated missions. The concepts of ``critical 
dual-use equipment'' and ``Citizen-Soldier'' merge together to meet our 
international and domestic challenges. Building on our two pillars of 
strength--personnel readiness and equipment versatility--we conduct our 
integrated missions and accomplish our Soldier-centric goals.
Overseas Contingency Operations (OCO)
    Overseas Contingency Operations have significantly increased the 
operating and deployment tempo within the Army National Guard. Nearly 
60,000 Army and Air National Guard personnel are supporting 
expeditionary operations around the world, including Operations 
Enduring Freedom and Iraqi Freedom. Since 9/11, more than 316,000 Army 
National Guard Soldiers have been mobilized for Federal (Title 10) duty 
as of December 31, 2009, to support OCO around the world.
Domestic Operations
    The Army National Guard coordinates and integrates policies, 
procedures, and capabilities to ensure critical operations continue in 
the event of an emergency, or threat of an emergency, anywhere in the 
United States and its territories.
    In January 2009, the ARNG supported Federal and state agencies 
during the most attended Presidential Inauguration in U.S. history by 
providing over 10,000 National Guard Soldiers from 14 states. The 
Soldiers supported civil authorities by providing traffic control 
points, reaction forces, and aviation support.
    The ARNG answered calls to their respective Governors for search 
and rescue, power generation, logistical support, debris clearing, 
sandbagging, security, law enforcement support, food distribution, and 
shelter construction during recovery efforts. Most notably, in March 
2009 six states sent more than 5,500 Soldiers to support North Dakota 
during the Red River flooding. During this event, the ARNG provided 13 
helicopters with crews to fill a mission assignment from the Federal 
Emergency Management Agency (FEMA).
Domestic All-Hazards Response Team
    Initiated in fiscal year 2009, the Domestic All-Hazards Response 
Team (DART) formalizes the National Guard use of the ARNG Division 
Headquarters in response to all catastrophic events. When requested by 
the Adjutant General of an affected state, the DART response is 
coordinated through the Chief, National Guard Bureau. The Army National 
Guard has eight division headquarters. Three division headquarters 
serve as the DART Headquarters on an annual rotation--two divisions 
serving in the East and West and one reinforcing both regions.
    Approximately 50,000 troops are available east of the Mississippi 
and 30,000 west of the Mississippi for activation into Title 32 Status. 
The DART works within the existing Emergency Management Assistance 
Compact framework. The DART is also divided along FEMA Region 
boundaries and is well positioned for interagency response. The DART 
maximizes the modular structure of the 21st century Army and positions 
the nation to respond to any man-made or natural disaster (or to 
mobilize in preparation for such an occurrence).
    For more details on DART, please see the information paper at: 
www.ng.mil/features/ngps.
ARNG Aviation
            Operational Support Airlift Agency (OSAA)
    The Operational Support Airlift Agency is a Department of the Army 
field operating agency under the National Guard Bureau that supports 
114 aircraft worldwide and over 700 personnel. OSAA's fleet of 80 
fixed-wing aircraft represents the single largest fixed-wing 
organization in the Army today. Both at home and abroad in 2009, these 
aircraft:
  --Flew more than 56,000 hours;
  --Completed over 26,000 missions;
  --Transported nearly 20 million pounds of cargo;
  --Carried more than 100,000 passengers; and
  --Supported the U.S. Southern Command in Colombia, the Criminal 
        Investigation Task Force, Office of Military Commissions, and 
        United States Army South at Guantanamo Bay, Cuba.
Combat Aviation Brigade (CAB)
    By virtue of its basing locations throughout the homeland, ARNG 
Aviation provides immediate responsiveness to the Governors. 
Additionally, with certain unique design and equipment differences, the 
aviation force is a critical component of Defense Support to Civil 
Authorities.
    Six of the ARNG's eight CABs have a unique security and support 
(S&S) Aviation Battalion whose primary mission is homeland support. 
Each S&S battalion is equipped with the new UH-72 light utility 
helicopter with communications and mission equipment packages that are 
optimized for coordination and interoperability with civilian police, 
fire, and emergency responders. In addition, the ARNG aviation force 
provides the Army with a NORTHCOM-dedicated Theater Aviation Brigade 
for the vital Chemical, Biological, Radiological, Nuclear, and High-
yield Explosive (CBRNE) Consequence Management Force that will respond 
to any natural or man-made disaster in the homeland. The ARNG provides 
the total Army with 43 percent of its aviation force.
    For more details about the Combat Aviation Brigade, please see the 
information paper at: www.ng.mil/features/ngps.
Light Utility Helicopter (LUH) Update
    The UH-72A ``Lakota'' Light Utility Helicopter is a state-of-the-
art aircraft with twin engine reliability, a 21st century navigation/
communication system, and a proven record of commercial aviation 
service.
    The Army developed the UH-72 Lakota to meet immediate and future 
light utility aviation needs. The ARNG now has 36 UH-72A aircraft and 
eight UH-72A MEDEVAC aircraft for a total of 44 Lakotas. The Army plans 
to field 12 UH-72As to the Army National Guard over the next several 
years with a total of 200 new UH-72s to be fielded to the National 
Guard by fiscal year 2017.
    For more details about the Light Utility Helicopter, please see the 
information paper at: www.ng.mil/features/ngps.

                        PRESENT AND FUTURE VALUE

Modular Force Conversion and Rebalance
    By the end of fiscal year 2009, the ARNG completed the most 
comprehensive force structure change in its history. This 5-year effort 
saw more than 2,800 operating force units transform into modular 
designs while deploying 43,225 Soldiers to combat and support 
operations in Iraq, Afghanistan, and Kuwait. With this transformation, 
ARNG brigade combat teams are identical to Active Component Army 
brigades so they are compatible regardless of the mission. The ARNG 
continues to grow and adapt to fulfill all levels of the Federal and 
state missions in support of Homeland Security and Homeland Defense 
(HD), which includes supporting the warfighter.
    The historic fill rate for equipment for the ARNG has been about 70 
percent. Fill rates declined to approximately 40 percent of equipment 
available to the Governors in 2006 due to cross-leveling equipment to 
support immediate deployment requirements. Seventy-seven percent of the 
ARNG's Modified Table of Organization and Equipment (MTOE) requirement 
is currently on hand (as of the end of fiscal year 2009).
    Increasing our investment in several key areas is essential to 
maintaining our forward progress.
Agribusiness Development Teams
    An Agribusiness Development Team (ADT) is a self-contained 
volunteer unit composed of 58 National Guard Soldiers with backgrounds 
and expertise in various sectors of the agribusiness field. They 
provide training and advice to Afghan universities, provincial 
ministries, and local farmers to increase stability and improve 
opportunities for Afghanistan's reemerging agribusiness sector. Since 
2007, Agribusiness Development Teams from the following states have 
deployed to Afghanistan: Missouri, Indiana, Tennessee, Kansas, 
Nebraska, Texas, California, Kentucky, Oklahoma, and South Carolina.
    For more details about ADTs, please see the information paper at: 
www.ng.mil/features/ngps.

                PERSONNEL STRENGTH AND QUALITY PROGRAMS

    The overriding theme of the Army National Guard's recruiting and 
retention mission is to sustain a high quality force and continue to 
improve the quality of life for our Soldiers and their families.
    The ARNG recalibrated the fiscal year 2009 endstrength mission from 
371,000 to 358,200 resulting in a reduction of the recruiting accession 
mission to a target of 56,000. The endstrength goals focused on 
achieving historical quality marks in the military entrance exam (the 
Armed Forces Qualification Test) for high school graduates and an 
overall retention rate of 106 percent of the ARNG goal. Our sustained 
recruiting and retention successes are a testament to the outstanding 
work of our recruiting team and the inherent value of our organization.
    The ARNG is improving the quality of recruits through the Patriot 
Academy and the GED Plus programs.
Patriot Academy
    The basic concept for this program came from research that 
indicated 500,000 students dropped out of high school in 2006. Launched 
in June 2009, the Patriot Academy enables Soldiers to complete basic 
training and then perform Title 10 Active Duty for Operational Support 
while obtaining their high school diplomas, additional military 
training, and life skills training. The ARNG plans to graduate 500 
Soldiers annually.
    For more details about the Patriot Academy, please see the 
information paper at: www.ng.mil/features/ngps.
GED Plus
    The GED Plus program provides high school dropouts, 18 and older, 
basic training and a structured academic environment to earn their GED. 
To enroll, students must be fully qualified for enlistment and achieve 
the minimum Armed Forces Qualification Test score. In fiscal year 2007, 
some 700 Soldiers passed for a 73 percent success rate. In fiscal year 
2008, our success rate jumped to 95.6 percent with 2,457 students 
passing. The GED Testing team tested 2,283 GED Plus Soldiers in fiscal 
year 2009 with a passing rate of 96.6 percent. The team was noted as 
the best test site in the nation by Dantes staff. Also in fiscal year 
2009, the National Guard began construction on an $18 million GED Plus 
educational complex which will increase training capacity to more than 
7,500 students per year.
    As of May 31, 2009, the success rate continues to hover around 95 
percent, which is significantly higher than the 69 percent national 
average achieved by civilian GED programs. The improvement is due in 
part to grouping students by ability, sharing best practices, and 
implementing an instructional lab for specific student weaknesses.
    For more details on the GED Plus program, please see the 
information paper at: www.ng.mil/features/ngps.
Full-time Support
    The ARNG Full Time Support (FTS) program consists of both Active 
Guard and Reserve (AGR) Soldiers and Military Technicians and has a 
direct link to unit readiness. In this continuing era of persistent 
conflict, FTS personnel are major contributors across the full spectrum 
of ARNG missions, home and abroad, providing vital strategic depth and 
continuity of operations. The ARNG is now an Operational Force and its 
FTS is even more critical to unit readiness. Currently, there is no 
programmed growth for AGRs while Military Technicians are programmed to 
increase by 1,170 authorizations by fiscal year 2013.
    Ongoing manpower studies are determining changes in FTS 
requirements. Results will be submitted for validation and coordinated 
with the appropriate organizations for submission in the Program 
Objective Memorandum process as completed.
    For more details on FTS, please see the information paper at: 
www.ng.mil/features/ngps.
Medical Readiness
    With the Army National Guard's transition to an operational force, 
the Office of the Chief Surgeon team led medical readiness improvements 
in fiscal year 2009 by addressing its three primary goals: Support 
deployment of a healthy force; support deployment of the medical force-
units; and facilitate warriors in transition and family care-
beneficiaries.
    Medical readiness increased 13 percent between fiscal year 2008 and 
fiscal year 2009. This was a direct result of increased targeted 
funding and stronger liaison efforts between NGB and Army medical 
commands to meet funding, manning, and equipment requirements.
    Industrial Hygiene Base funding served to both identify and 
mitigate preventable health conditions prior to impacting the medical 
readiness of ARNG units by using three programs--Decade of Health, 
Hooah4Health (H4H), and blood pressure kiosks. These programs have 
yielded the following results:
  --Dental readiness increased 34 percent in fiscal year 2008 and 
        fiscal year 2009;
  --An estimated 1 million Soldiers checked their blood pressure at 
        kiosks nationwide; and
  --Over the past 5 years, more than 5,400 Soldier-students have 
        completed the Army's first interactive, web-based 
        correspondence course on the H4H site with a 97 percent pass 
        rate.
Soldier Family Support (SFS)
    The increased operating and deployment tempo of the Army National 
Guard has placed additional strain on Soldiers and their Families. In 
October 2007, the Army initiated the Army Family Covenant program and 
pledged to provide Soldiers and Families with a quality of life 
commensurate with their dedicated service and sacrifice to the nation. 
In fiscal year 2010, the ARNG received an additional $10 million to 
support and ensure long-term sustainability of SFS functions in support 
of mission requirements and our role as an operational force. The 
following SFS programs are currently well underway:
  --The Personnel Blast and Contaminant Tracker system records data for 
        all service members involved in blast incidents, even when 
        immediate physical symptoms are absent. If the exposure to a 
        blast or contaminant has long-term impacts to the service 
        member, data will be used for line-of-duty benefit evaluation. 
        The ``blast tracker'' can be expanded to all Army components as 
        well as to the other services.
  --The Resiliency Training Center, opened in Kansas in 2009, builds 
        resilience in our Soldiers and their families. The center 
        focuses on preventing high stress through proactive marriage 
        workshops and stress relief training before, during, and after 
        deployments.
  --The Community-Based Warrior Transition Units program provides high-
        quality healthcare, administrative processing, and transition 
        assistance for recuperating Reserve Component Soldiers while 
        living at home with their families. These Soldiers work at a 
        reserve center within their capabilities.
    For details about more medical programs, please see the information 
paper at: www.ng.mil/features/ngps.

                  FACILITIES AND MILITARY CONSTRUCTION

    Army National Guard facilities are critical to the readiness and 
capability of the National Guard. These are the locations where our 
Soldiers perform administration, conduct training, and store and 
maintain equipment. Additionally, many National Guard facilities are 
critical rallying points for communities when disaster strikes. Now a 
combat-proven operational force, the Army National Guard needs adequate 
facilities to fulfill its crucial role in defending America at home and 
abroad. The ARNG has over 3,000 readiness centers nationwide. 
Approximately 1,408 readiness centers are more than 50 years old and 
are located on five acres or less. Recognized as the hometown 
``Armory,'' these essential facilities may be ``the only military 
installation for hundreds of miles.'' For fiscal year 2010, 
appropriations for Army National Guard military construction are $582 
million.
    The Army National Guard received over $1.4 billion in military 
construction funds for fiscal year 2009 which included:
  --$736 million for 54 projects for the Military Construction Army 
        National Guard program;
  --$147 million for three emerging requirements projects;
  --$470 million to construct 14 projects for the base realignment and 
        closure (BRAC) program (ARNG executed 100 percent of these BRAC 
        projects);
  --$50 million for six construction projects as part of the American 
        Recovery and Reinvestment Act; and
  --$25 million of fiscal year 2008 funds to assist Mississippi and 
        Indiana with storm damage to their facilities.
    ARNG Military Construction funding for fiscal year 2010 includes 
$30 million from the National Guard and Reserve Initiative. These funds 
are intended to address critical unfunded requirements of the ARNG.
            Environmental Program
    Recent success in the ARNG's environmental program underscores its 
mission to excel in environmental stewardship which balances community 
needs with sustaining military readiness.
    Since the Army Compatible Use Buffer (ACUB) program began in 2003, 
military funding ($17.5 million) has combined with private funding ($90 
million) to protect 40,000 military-acres from encroachment at eight 
ARNG training centers.
    For more details about environmental programs, please see the 
information paper at: www.ng.mil/features/ngps.

                          EQUIPMENT READINESS

Equipment On-Hand (EOH) and Equipment Availability
    At the end of fiscal year 2009, the Army National Guard had 76 
percent of its equipment on-hand. Subtracting equipment that is 
mobilized and deployed to support Federal missions, the current 
equipment-on-hand percentage falls to 63 percent of requirements 
available to the Governors. EOH levels remained fairly flat in fiscal 
year 2009 as overall requirements increased by 2 percent and equipment 
inventories rose 3 percent. In many cases, particularly with vehicles, 
new trucks replaced older legacy vehicles. This kept the EOH relatively 
constant although capabilities increased due to modernization and an 
overall decrease in the age of the fleet.
Equipment Modernization and Readiness
    Beginning in fiscal year 2006, the Army significantly increased its 
investment in ARNG equipment, allocating approximately $25.1 billion 
for new procurement and recapitalization between fiscal year 2006 and 
fiscal year 2009. As a result of this investment, the Army National 
Guard received approximately 296,000 new items in fiscal year 2008 and 
another 433,000 in fiscal year 2009 at a combined value of $10.2 
billion. Additionally, $16.9 billion is currently programmed for Army 
National Guard equipment between fiscal year 2010 and fiscal year 2015.
    Despite these successes, the Guard needs to procure and field 
leading-edge battle command equipment, and improve fill levels for a 
number of Combat Service Support items such as water purification 
systems, generators, material handling equipment, field feeding 
systems, tactical ambulances, and aviation ground equipment. In 
addition, modernization of the Guard's truck and helicopter fleets, 
while absolutely critical to long-term success, will continue to be a 
challenge well beyond fiscal year 2015.
Ground and Air Operating Tempo
            Ground Operating Tempo
    The ground operating tempo (OPTEMPO) program is one of the keys to 
equipment readiness. The program consists of two parts: direct and 
indirect. Direct ground OPTEMPO pays for petroleum, repair parts, and 
depot-level repairables. Indirect OPTEMPO pays for expenses such as 
administrative and housekeeping supplies, organizational clothing and 
equipment, medical supplies, nuclear, biological and chemical supplies 
and equipment, and inactive duty training (IDT) travel which includes 
Command Inspection, staff travel, and cost of commercial 
transportation.
            Air Operating Tempo
    The air OPTEMPO program supports the ARNG flying hour program, 
which includes petroleum-oil-lubricants, repair parts, and depot-level 
repairables for the rotary wing helicopter fleet.
    In fiscal year 2009, air OPTEMPO funding for the Army National 
Guard totaled $271 million in base appropriation plus $40 million in 
supplemental for a total of $311 million. This funding provides for 
fuel and other necessities so that 5,722 ARNG aviators can remain 
current and proficient in their go-to-war aircraft. Achieving and 
maintaining desired readiness levels will ensure aircrew proficiency 
and risk mitigation, which helps to conserve resources. ARNG aviators 
must attain platoon level proficiency to ensure that they are 
adequately trained to restore readiness and depth for future 
operations.
Reset Process
    The Department of the Army programmed the ARNG for $202 million to 
fund repair parts and the personnel required to repair equipment used 
in Overseas Contingency Operations during fiscal year 2010. The ARNG is 
planning to Reset 21 brigade-sized elements as well as many units below 
brigade level. The Reset process also provides additional training for 
National Guard Soldiers as they repair this equipment. As in previous 
years, having the ARNG perform its own Field Reset allows for equipment 
to be returned to the states' control much faster and repaired in a 
much more expeditious manner.
Logistics-Depot Maintenance
    The Depot Maintenance Program is an integral part of ARNG 
sustainment activities. This program is based on a ``repair and return 
to user'' system as opposed to the direct exchange system used by the 
active Army component. In fiscal year 2010, depot surface maintenance 
program requirements increased by 14 percent. Funding for the ARNG's 
surface depot maintenance requirement was increased by 19 percent 
because of new requirements. In fiscal year 2010 the ARNG plans to 
overhaul 2,883 pieces of combat and tactical equipment.

                        TRAINING AND TECHNOLOGY

    During fiscal year 2009, the ARNG information technology (IT) 
resources supported the implementation of network security projects, 
mobilization support, wide area network modernization and redundancy, 
and emergency response projects. This allowed continued support to each 
United States Property and Fiscal Office, Joint Forces Headquarters--
State, and Army National Guard Headquarters primarily in the National 
Capital Region.
    For more details about IT programs, please see the information 
paper at: www.ng.mil/features/ngps.
eXportable Combat Training Capability
    Soldiers and units are better prepared for mobilization due to the 
advent of the eXportable Combat Training Capability (XCTC) program. 
XCTC is an innovative training program that reduces training overhead 
without sacrificing training quality, standards, or outcomes. This pre-
mobilization training program provides tough, realistic training to 
achieve company level certification and battalion battle staff 
proficiency. XCTC builds on fundamental tactics, techniques, and 
procedures by using advanced live, virtual, and constructive training 
technologies.
    For more details about the XCTC, please see the information paper 
at: www.ng.mil/features/ngps.
Muscatatuck Training Center
    The 974-acre Muscatatuck Training Center in Indiana provides a 
realistic training environment for urban warfare, civil support 
operations, and emergency response. Trainees include Army National 
Guard troops, firefighters, police officers, and other first 
responders. The center's concentrated urban infrastructure consists of 
68 major buildings including a school, hospital, dormitories, light 
industrial structures, single-family dwellings, a dining facility, and 
administrative buildings totaling about 850,000 square feet.

  LIEUTENANT GENERAL HARRY M. WYATT III, DIRECTOR, AIR NATIONAL GUARD
                       MESSAGE FROM THE DIRECTOR
               AMERICA'S EXCEPTIONAL FORCE, HOME AND AWAY

    The Air National Guard (ANG), the U.S. Air Force Reserve, and the 
Regular U.S. Air Force (RegAF) comprise our Total Air Force. The ANG 
anchors this Total Force team, providing trained and equipped units and 
personnel to protect domestic life and property; preserving peace, 
order, and public safety; and providing interoperable capabilities 
required for Overseas Contingency Operations. The ANG, therefore, is 
unique by virtue of serving as both a reserve component of the Total 
Air Force and as the air component of the National Guard.
    Upon its founding in 1947, the ANG served primarily as a strategic 
reserve for the U.S. Air Force. Increasingly and dramatically, the ANG 
has become more of an operational force, fulfilling U.S. Air Force 
routine and contingency commitments daily. Since 9/11, over 146,000 ANG 
members have deployed overseas.
    A snapshot of U.S. forces at any time shows Air Guard members in 
all corners of the globe supporting joint and coalition forces in 
mission areas such as:, Security; medical support; civil engineering; 
air refueling; strike; airlift; and intelligence, surveillance, and 
reconnaissance (ISR)
    Currently, over 7,000 ANG members are deployed in Iraq, 
Afghanistan, and other overseas regions. At 16 alert sites, three air 
defense sectors, and Northern Command, 1,200 ANG members vigilantly 
stand watch over America's skies. Amazingly, 75 percent of our deployed 
individuals are volunteers, and 60 percent are on their second or third 
rotations to combat zones. Percentages like these speak volumes about 
the quality and sense of duty of America's ANG force!
    The ANG supports state and local civil authorities with airlift, 
search and rescue, aerial firefighting, and aerial reconnaissance. In 
addition, we provide critical capabilities in medical triage and aerial 
evacuation, civil engineering, infrastructure protection, and hazardous 
materials response with our Civil Support Teams and our Chemical, 
Biological, Radiological, Nuclear, and High-yield Explosive (CBRNE) 
Enhanced Response Force Packages (CERFPs).
    In the past year, Air Guard members helped their fellow citizens 
battle floods, fight wildfires, mitigate the aftermath of ice storms, 
and provide relief from the devastating effects of a tsunami. Here are 
just a few examples of how the ANG provides exceptional expertise, 
experience, and capabilities to mitigate disasters and their 
consequences.
  --Kentucky, Arizona, and Missouri Guard members responded to 
        debilitating ice storms, which resulted in the largest National 
        Guard call-up in Kentucky's history.
  --North Dakota, South Dakota, and Minnesota ANG members provided 
        rescue relief and manpower in response to Midwest flooding.
  --The Hawaii ANG sent personnel from their CERFP, a command and 
        control element, and a mortuary affairs team to American Samoa 
        in response to an 8.4 magnitude earthquake-generated tsunami.
    Within the Total Force, the ANG provides extraordinary value in 
terms of meeting our national defense needs with cost efficiency and 
immediate availability. In our domestic role, the ANG provides 
capabilities to support local emergency responders with life and 
property saving capabilities and expertise not usually found elsewhere 
in the Total Force.

                         BEST VALUE FOR AMERICA

Building Adaptable Airmen and Priorities for the Future
    The outstanding men and women of the ANG continue to defend 
American interests around the world. Throughout 2009, the ANG projected 
global presence in a variety of missions in regions ranging from the 
Balkans to Southwest Asia, and from Eastern Europe to Latin America. We 
have provided much more than airpower, contributing our exceptional 
capabilities in security, medical, logistics, communications, civil 
support, and engineering, in order to support our nation's national 
security.
    Our unique community-based heritage has been the foundation of our 
strength since colonial times. While the strategic environment has 
continually changed throughout history, the ANG has proven itself an 
adaptive force, able to meet any new challenges. One reason for our 
success is that our members normally live in the same communities in 
which they serve during times of natural disasters or when called upon 
to respond to national emergencies. Our Guard members know the folks 
they support very well because they work together, their children 
attend the same schools, and they shop at the same businesses. Our 
fellow citizens know the local Guard members and their contributions, 
and their appreciation has been illustrated through countless welcome 
home parades and outpouring of support over the years.
    Throughout history, many of the issues our forebears faced are 
essentially the same issues we face today: aging capabilities and 
declining budgetary resources. The ANG has consistently provided the 
answer in an efficient, cost-effective, community-based force that is 
ready and responsive to domestic and national security needs.
    Our traditional, predominantly part-time force continually adapts 
and evolves toward new missions and capabilities. As a nation, we must 
ensure America's ANG continues to be completely interoperable with the 
RegAF to meet operational and strategic reserve surge requirements. To 
continue as America's best value and to meet our national security 
objectives, the ANG focuses priorities in three areas:
  --Developing adaptable Airmen for future senior leadership roles and 
        responsibilities;
  --Modernizing and recapitalizing our warfighting capabilities to 
        ensure we remain completely interoperable with RegAF; and
  --Evolving and shaping our force to maintain our value to the Air 
        Force mission.
Best Value in Personnel, Operations, and Infrastructure
    During the past year, the ANG has deployed 18,366 service members 
to 62 countries and every continent, including Antarctica. The ANG 
provides a trained, equipped, and ready force for a fraction of the 
cost. We provide a third of Total Air Force capabilities for less than 
7 percent of the Total Force budget. In all three areas--personnel, 
operations, and facilities--the ANG provides the ``Best Value for 
America.''
    A key to ANG efficiency is our part-time/full-time force structure 
mix. Our predominantly part-time (traditional) force can mobilize 
quickly when needed for state disaster response missions, homeland 
defense, or when we need to take the fight overseas.
    We have the ability to maintain a stable force with considerably 
fewer personnel moves than the RegAF, which is a critical factor in our 
cost-effectiveness. Traditional National Guard members cost nothing, 
unless on paid-duty status. ANG efficiencies compared to regular 
military components include:
  --Fewer ``pay days'' per year;
  --Lower medical costs;
  --Significantly lower training costs beyond initial qualification 
        training;
  --Virtually no costs for moving families and household goods to new 
        duty assignments every 3 or 4 years;
  --Fewer entitlements, such as basic allowance for housing; and
  --Lower base support costs in terms of services and facilities 
        including commissaries, base housing, base exchanges, and child 
        care facilities.
    The ANG is an operational reserve with surge potential of 2,200 
mobilized and 5,700 volunteering per day. If this force were full-time 
active duty (as is the RegAF), the military personnel budget would be 
$7.62 billion. ANG military personnel pay in fiscal year 2009, 
including military technician pay, was $4.77 billion for a yearly cost 
savings of $2.85 billion, or a daily cost savings of $7.8 million.
    Whether compared to another major command (MAJCOM), the RegAF, or 
even to the militaries of other countries, the ANG is an extraordinary 
value. In direct comparison with the militaries of France and Italy, 
for example, our ANG members cost $76,961 per member, while the bills 
of those countries respectively run to $128,791 and $110,787 per 
member. Further, cost per ANG member is less than a fifth of that of 
the RegAF. Comparisons such as these illustrate well the cost savings 
realized with an operational reserve possessing surge potential.
    Operational savings are due to the ANG's experienced force and lean 
operating methods. An examination of the ANG's F-16 maintenance by Rand 
Corporation last year highlighted the ability of our maintenance 
personnel to generate double the amount of flying hours in a one-to-one 
comparison of full-time equivalents.
    Savings from ANG infrastructure start with basing at civilian 
facilities. With some ANG base leases costing as little as one dollar 
annually, the ANG is able to realize even more cost savings for the 
Total Force through our supporting infrastructure. Three-fourths of ANG 
bases are located at civilian airports. In fact, our Joint Use 
Agreements with civilian airports provide access to approximately $12 
billion in infrastructure for less than $5 million annually.
    Significantly, the ANG is a dual-use force of people and equipment. 
As indispensable as the ANG is to the Air Force, it is equally 
indispensable to the National Guard's domestic response capability. The 
ANG leverages the vast majority of its equipment in this dual role, 
from the movement of time-sensitive cargo and passengers during a 
domestic crisis to providing critical capabilities needed to support 
Total Force requirements overseas.
Recruiting and Retention
    Our ability to conduct missions important to our states and nation 
rely on our people, which requires successfully recruiting and 
retaining our members. We are fortunate that our retention numbers have 
remained strong throughout 2009, at 90.8 percent, which beat our goal 
of 90 percent. This is a testament to the outstanding work of our 
recruiting and the inherent value of our organization.
    We focus our efforts in areas where we face challenges. Officer 
recruiting and other critical areas include healthcare, engineers, 
intelligence, mobility pilots, and chaplains. During 2009, we began 
linking recruiting and retention efforts to our strategic planning 
functions. This allowed the ANG to better position our force for new 
missions and align more effectively with shifts in the Air Force 
capabilities portfolio. Those new ANG members with prior service are 
particularly valuable for the ANG and constitute more than 50 percent 
of our recruits.
Developing Future Leadership in the Total Force
    In developing adaptable Airmen, we are focusing on initiatives to 
prepare our Airmen for future Total Force leadership. Developing this 
leadership capability requires both increased in-residence 
opportunities at all Developmental Education schools and increased 
opportunities for joint service. Additionally, command opportunities 
must be afforded in theater, commensurate with the presence of all 
forces deployed to the warfight.
    One of our recent initiatives involved redesigning our statutory 
tour program to provide more opportunities for developing critical 
command and staff experiences for personnel at the National Guard 
Bureau and in the field. Through this two-way flow, we improve insights 
and perspectives that will help develop adaptable Airmen.

                      PROTECTING AMERICA'S FUTURE

Modernization and Recapitalization
    The age of the ANG fleet continues to be of grave concern. Meeting 
future challenges at home and abroad will require modernization and 
recapitalization of both aircraft and equipment in the RegAF and the 
ANG. Concurrent and proportional equipping of the ANG within the Total 
Force ensures continued interoperability with the RegAF. America cannot 
afford to fall behind in air supremacy. Continued dominance depends on 
modernizing and recapitalizing planes and equipment, and adapting to 
the strategic environment while maintaining our technological 
advantages.
    Without concurrent recapitalization, the U.S. Air Force stands to 
lose 80 percent of its current Air Sovereignty Alert force for homeland 
defense in 7 years. Similarly, even as older KC-135 air refueling 
tankers retire, we nearly double the annual flight hours for the newer 
KC-135R/T, which hastens the aging process. Without suitable 
replacements, the current Combat and Mobility Air Forces face 
increasing maintenance and safety issues over the coming years, which 
will undoubtedly affect mission execution and accomplishment.
    It is essential to concurrently and proportionally maintain 
qualified pilots in the ANG who can provide operational surge 
capability to the Total Force in times of war, and lessen the burden of 
high operations tempo faced by the RegAF.
Dual-Use Capabilities
    The ANG provides the balance at home and abroad through fielding of 
``dual-use'' capabilities, a cornerstone of the ANG's cost effective 
contribution to the Total Force. We assist the RegAF as they respond to 
the needs of the Combatant Commanders. Comparable capabilities also 
protect the homeland and defend America's skies. As part of the Total 
Force mission, the ANG requires capabilities to defend against today's 
threats, and to assist our states, territories, and the District of 
Columbia in domestic missions, such as disaster response. We also 
continue to develop ways to take advantage of the cost effectiveness 
inherent in the ANG, such as maximizing associations and community 
basing.
Total Force Integration (TFI)
    Total Force Integration is the method and process by which Air 
Force components leverage the inherent strengths of their respective 
forces and blend their equipment and capabilities to achieve maximum 
effectiveness across the full spectrum of air operations. The ANG 
provides the best value by applying its component-specific efficiencies 
to Total Force operations and by taking on missions that are 
appropriate to its cultural and operational composition.
    The cost savings offered by the ANG are not derived solely from its 
part-time force construct. Significant cost-effectiveness is realized 
in the streamlined operations and limited infrastructure costs unique 
to the ANG, as well as initiatives that combine RegAF and ANG 
personnel, equipment, and aircraft at associate units. The associate 
unit constructs increase Total Force responsiveness to national needs 
by integrating RegAF and ANG-specific mission capabilities, and by 
combining the facilities, training, combat support, and logistical 
infrastructures that maximize combat capability. Three prime examples 
of this construct are the most recently created associate wings, all of 
which perform aerial refueling missions in KC-135 Stratotankers: 126th 
Air Refueling Wing (ARW) at Scott Air Force Base, Illinois; 157 ARW at 
Pease Air National Guard Base (ANGB), New Hampshire; and 117 ARW at 
Birmingham ANGB, Alabama.
Planning for Future Missions
    The ANG is working with the Adjutants General to update and refine 
recapitalization and modernization plans through the ANG Flight Plan, a 
field-driven process in coordination with our Strategic Planning System 
(SPS) that will help position ANG units for future missions. The SPS 
enables the ANG to systematically develop plans that make sense for our 
states and the nation and position the ANG to support the Total Force 
in the future.
            Intelligence, Surveillance, and Reconnaissance (ISR)
    The ANG sees opportunities to contribute further to the Total Force 
in mission areas such as ISR. Our military's increasing focus on 
special operations and analysis are two areas in which the ANG can help 
meet increasing demand.
    One such area is addressed by the RC-26, the ANG's only dedicated, 
light-manned ISR aircraft that supports Special Operations Forces. 
Within the domestic mission, the RC-26 is the ANG's premier aircraft 
for Incident Awareness and Assessment for National Special Security 
Events, counter narcotics, homeland security, and response to natural 
or man-made disasters. The ANG continues to seek Air Force recognition 
and assignment of a Major Command for this aircraft.
    The ANG also operates Remotely Piloted Aircraft (RPA) and has been 
involved in this rapidly emerging mission area since 2004. Today, five 
states operate nine RPAs in combat air patrols in theater, and we 
anticipate even greater involvement in the future. One of these units, 
the New York ANG's 174th Fighter Wing at Hancock Field ANGB in 
Syracuse, now operates the MQ-9 Reaper in support of operations in 
Afghanistan, sending commands to the RPA through satellite networks. 
This wing, which formerly had an F-16 flying mission, is the first Air 
Guard unit to operate MQ-9s and to open the Air Force's only MQ-9 
maintenance schoolhouse this year.
            Space and Cyberspace
    As we look to the future, the ANG is well positioned to assist Air 
Force missions by virtue of the continuity and civilian skills we 
provide. For example, our Air Guard members' civilian skills are well 
suited to help the Air Force meet various mission requirements in areas 
such as cyber security, where the ANG already has eight operational 
units dedicated to deterring attacks on our nation's cyber networks.
    In space operations, Air Force Space Command looks to the ANG to 
provide support in areas such as missile operations, Distributed 
Command and Control Missions, and space launch/range operations. ANG 
efficiencies and initiatives such as TFI help the Total Force mission 
requirements in areas such as missile warning associate squadrons.
            Building Partnership Capacity
    In the emerging mission areas of Irregular Warfare/Building 
Partners/Building Partnership Capacity, the ANG seeks to enhance its 
ability to meet domestic needs, as well as sufficient force structure 
to meet the demands of steady state deployments. We are engaged in 
Light Attack and Armed Reconnaissance (LAAR) testing and numerous Agile 
Combat Support mission areas. We plan to increase tactical and direct 
support airlift capacity, such as light mobility aircraft and rotary 
wing aircraft, as well as increase our ISR capacity and LAAR 
capabilities.
            Continuing Missions
    The ANG will retain some conventional mission sets, particularly 
those associated with Global Persistent Attack. For example, the ANG is 
well suited for missions requiring surge aircraft in the early stages 
of a large conflict because of our cost-effectiveness continuity-of-
experience. The ANG must also continue to participate in missions such 
as Rapid Global Mobility, which includes: Strategic airlift (C-5, C-
17); Intra-theater or tactical airlift (C-130, C-27); and Air refueling 
(KC-135, KC-10, and future platforms).
    ANG combat aircraft (A-10, F-15, and F-16) make up a third of the 
combat capability of our nation's Air Force. Additionally, the ANG 
defends America's air space by conducting the Air Sovereignty Alert 
(ASA) mission at 14 of 16 sites throughout the country. The F-16s used 
in this critical mission will reach their service life expectancy in 7 
years. While our maintainers continue to keep our fleet mission ready 
and capable, these ``legacy'' systems should be replaced as soon as 
practical for the Air Force to remain relevant and reliable.
    The ANG will continue to retain existing missions that provide 
surge capability, such as those involved in Global Persistent Attack. 
Our nation's Air Force Reserve Components are particularly well suited 
in this role, providing unmatched cost effectiveness. Many of our 
tactical airlift missions, as well as Agile Combat Support missions, 
such as medical support, services, security forces, civil engineers, 
transportation, and logistics support, provide dual-use capabilities 
that are an extraordinary value provided only by the ANG.
    Rebalancing the force and training for new missions will directly 
impact thousands of Air Guard members nationwide. With the continued 
support of Congress, the ANG will continue to develop and field the 
most capable, cost-efficient force for fiscal year 2011 and well into 
the future. The members of America's ANG will continue to serve with 
pride and distinction at home and abroad.
    The ANG is an exceptional force, both in terms of the cost-
effectiveness and in the quality and flexibility of our force. We 
continually strive to improve our capabilities and support the Total 
Force effort. We look forward to the future with great anticipation, 
secure in the knowledge that our nation's Air National Guard provides 
unsurpassed value for America.

    MAJOR GENERAL MICHAEL H. SUMRALL, ACTING DIRECTOR, JOINT STAFF, 
                         NATIONAL GUARD BUREAU
                       MESSAGE FROM THE DIRECTOR

    Today's prolonged worldwide irregular campaign against the forces 
of violent extremism requires global engagement across the spectrum of 
conflict. The challenge for the National Guard, as well as for the 
military as a whole, is to maintain the skills necessary to help 
struggling nations fight extremism while addressing the conditions that 
allow extremist groups to exist. The real challenge lies at the heart 
of what it means to be a successful, thriving democracy--the 
relationship among the populace, elected officials and government, and 
the military.
    Fortunately, the competitive advantage of the National Guard is its 
ability to build the bridges between civil and military authorities. We 
do this on a daily basis at home, and we are increasingly able to 
translate this capability to our Title 10 responsibilities abroad.
    In 2009, we made great strides in domestic planning efforts between 
U.S. Northern Command and National Guard Bureau (NGB). The National 
Guard has long been well prepared for commonly occurring natural 
disasters such as hurricanes, wildfires, winter storms, and flooding. 
Preparing for less likely but catastrophic events requires an even more 
inclusive approach to planning.
    In recent years, the National Guard has developed innovative 
capabilities such as the Weapons of Mass Destruction Civil Support 
Teams (WMD-CST) and Chemical, Biological, Radiological, Nuclear and 
High-yield Explosive (CBRNE) Enhanced Response Force Package (CERFP) to 
respond to CBRNE events.

                          DOMESTIC OPERATIONS

    Here are some examples of how the National Guard adds value to 
America:
Weapons of Mass Destruction Civil Support Teams (WMD-CST)
    The National Guard will add two new WMD-CST units, bringing the 
total to 57 units. Each unit consists of 22 full-time Army and Air 
Guard personnel. WMD-CSTs help each state's civil authorities in 
identifying CBRNE agents, assessing current and projected consequences, 
advising on response measures, and assisting with appropriate requests 
for additional support.
Chemical, Biological, Radiological, Nuclear and High-yield Explosive 
        Enhanced Response Force Package (CERFP)
    Seventeen CERFPs became fully operation capable in March 2009. This 
achievement helped to bridge the gap of a needed capability for a CBRNE 
response. These professionals train with Federal, state, and local 
agencies, and include the Marine Corps Chemical Biological Incident 
Response Forces (CBIRF) and FEMA Urban Search and Rescue. In addition, 
a number of teams deployed to support national special security events 
such as the State of Union Address, Presidential Inauguration, and 
Republican/Democratic National Conventions, and will deploy to many 
others as the knowledge of this capability grows within the domestic 
operations community.
Homeland Response Force (HRF)
    The National Guard has been directed by DOD to create 10 HRFs: two 
in fiscal year 2011 and eight in fiscal year 2012. The HRF will be made 
up of those early, life-saving capabilities including Search and 
Rescue, Decontamination, Emergency Medical, Security, and Command and 
Control (C\2\), with approximately 566 personnel per HRF. The 10 HRFs, 
17 CERFPs and 57 CSTs will provide the initial military response to a 
CBRNE incident.
CBRNE Consequence Management Response Force (CCMRF)
    Whether deliberate or inadvertent, CBRNE incidents are one of the 
greatest challenges facing our nation today. Accordingly, DOD developed 
the CCMRF concept: a task force of approximately 5,200 service members 
who operate under the authority of Title 10 of the U.S. Code. The CCMRF 
is designed to augment the consequence management efforts of state and 
local first responders, conventional National Guard forces, and Federal 
agencies by providing complementary and unique capabilities when the 
effects of a CBRNE incident exceed state capabilities. Restructured 
CCMRF 1 capabilities include CBRNE assessment, search/rescue, 
decontamination, emergency medical security, logistic support, and 
C\2\. CCMRF 2 and 3 each consist of a 1,200 personnel C\2\ element to 
provide additional command and control capability if required during a 
major incident.
Critical Infrastructure Program (CIP)
    National Guard Critical Infrastructure Protection (CIP) assessment 
teams conduct all-hazard vulnerability assessments of prioritized 
Defense Industrial Base (DIB) and Department of Homeland Security (DHS) 
Tier II sites in support of the Departments of Defense and Homeland 
Security.
    DIB CIP Teams are manned by a joint team consisting of nine 
traditional Air and Army National Guard members. The team consists of a 
team leader, mission analyst, electrical specialist, transportation 
specialist, water, heating, ventilating and air conditioning 
specialist, communications specialist, a petroleum, oil, and 
lubrication specialist, and security operations and emergency 
management. These teams conduct mission assurance assessments of 
prioritized Defense Industrial Base assets. DHS CIP Teams are manned by 
a joint team consisting of three traditional Air and Army National 
Guard members. These teams conduct assessments based on Department of 
Homeland Security criteria of DHS-selected critical assets.
    In fiscal year 2009, NGB CIP teams assessed over 200 industrial 
sites and critical U.S. Government infrastructure for vulnerabilities 
to attack. The teams anticipate assessing 200 more in fiscal year 2010.
    For more details on CIP, please see the information paper at: 
www.ng.mil/features/ngps.
National Guard Reaction Force (NGRF)
    A critical element in the first line of counter-terrorism defense, 
the NGRF is designed to respond to an incident ahead of Federal assets 
with the capability to be logistically self-sustaining for up to 72 
hours. Reaction Forces provide every state with a ready combat arms 
force capable of delivering, at the request of the Governor or 
President, an initial force package of 75-125 personnel who can respond 
within 8 hours. A follow-on force of up to 375 personnel can arrive 
within 24 hours. In fiscal year 2009, states and territories used their 
NGRFs to support the Presidential Inauguration and numerous other 
events and emergencies.
    For more details about the National Guard Reaction Force, please 
see the information paper at: www.ng.mil/features/ngps.
Joint Enabling Team
    The National Guard Bureau Joint Enabling Team (JET) provides 
critical NGB Joint Staff, Army, and Air National Guard expertise to 
support the state or territory during a crisis event. In essence, when 
a disaster strikes, NGB will assist with reporting and coordination of 
NGB support. JETs will be on site within 24 hours of decision to 
execute. JETs have satellite phones, laptops and printers, cell phones, 
communications gear, and any other equipment needed to ensure a 
successful mission. The Team arrives self-sufficient and sustaining. 
NGB can field up to four JETs simultaneously.
Joint Incident Awareness and Assessment Team (JIT)
    Incident Awareness and Assessment (IAA) is a key enabler that 
leverages traditional DOD and other governmental intelligence, 
surveillance, and reconnaissance (ISR) capabilities to support domestic 
operations while strictly adhering to all applicable legal frameworks. 
The JIT, a select, highly trained, fly-away team, assists the state 
Joint Force Headquarters (JFHQ-State) in crisis response with expertise 
in IAA planning, tasking, acquisition, processing, assessment, and 
dissemination to appropriate responders during an incident.
Counterdrug Programs
    The National Guard Counterdrug Program conducts a full spectrum 
campaign that bridges the gap between the Department of Defense and 
non-DOD institutions in the effort against illicit drugs and 
transnational threats to the homeland. The Counterdrug Program supports 
all levels of government, including DOD, law enforcement and community-
based counterdrug operations to anticipate, prevent, deter and defeat 
those threats in order to enhance national security and protect our 
society.
    The National Guard Bureau Counterdrug Program is part of the 
national drug control strategy. Initially authorized by the President 
and Congress in 1989, DOD provides funds on a yearly basis to state 
Governors who submit plans specifying the usage of each state's 
National Guard to support drug interdiction and counterdrug activities.
    The National Guard brings three unique qualities to the Counterdrug 
problem: Trained Citizen-Soldiers and Airmen with unique military 
skills and equipment; legal status as a state militia (exempt from 
posse comitatus); and ties to the more than 3,200 local communities 
where National Guardsmen and women live and serve.
    In fiscal year 2009, approximately 2,600 National Guard personnel 
provided counterdrug support to law enforcement agencies in seizing 
drugs, weapons, and other contraband. During fiscal year 2009, 
counterdrug academies in Iowa, Florida, Mississippi, and Pennsylvania 
trained a total of 97,092 students which included: 4,278 military 
personnel, 23,918 community coalition members, and 68,896 law 
enforcement students.
    The National Guard's anti-drug program ``Stay-On-Track'' (SOT) has 
reached over 160,000 youth since 2006. We expect to expand SOT and 
reach out to 120,000 students in fiscal year 2010.
    For more details about the National Guard's Counterdrug program, 
please see the information paper at: www.ng.mil/features/ngps.
National Guard Prioritized Capability Gaps
    Section 351 of the National Defense Authorization Act (NDAA) for 
fiscal year 2008 directs DOD to provide an assessment of the extent to 
which the National Guard possesses the equipment required to perform 
its responsibilities in response to an emergency or major disaster. The 
assessment is to:
  --Identify any equipment shortfall that is likely to affect the 
        ability of the National Guard to perform such responsibilities.
  --Evaluate the effect of any shortfall on the capacity of the 
        National Guard to perform such responsibilities in response to 
        an emergency or major disaster.
  --Identify the requirements and investment strategies for equipment 
        provided to the National Guard by the Department of Defense 
        that are necessary to plan for a reduction or elimination of 
        any such shortfall.
    In response to this requirement, NGB developed its own Capability 
Assessment and Development Process (CADP), which is modeled after 
Chairman, Joint Chiefs of Staff processes for analyzing mission 
functions and capabilities, and determining gaps/shortfalls and 
solutions. The CADP supports NGB's ability to assess current and future 
capability needs to respond to domestic events, and to articulate those 
needs in appropriate planning, programming, and budgeting forums.
    The National Guard Bureau conducted regional scenario-based 
exercises in 2008 that provided data for the National Guard CADP. 
Subsequent analyses enabled the National Guard Bureau to identity and 
prioritize several capability gaps and develop recommendations for:
  --Improving command and control (C\2\), communications, interagency 
        information sharing, and capacity to conduct domestic 
        operations.
  --Improving National Guard Chemical, Biological, Radiological, 
        Nuclear, and high-yield Explosive (CBRNE) disaster response 
        capabilities.
  --Increasing joint and interagency training and readiness.
    The National Guard Bureau is working through appropriate plans, 
programs, and budgetary processes in order to obtain the necessary 
resources to mitigate identified National Guard capability gaps and 
improve National Guard capabilities for Homeland Defense and Civil 
Support.

                     JOINT AND INTERAGENCY TRAINING

    The NGB is leading the total force in a ``Race to the Top'' that 
postures the National Guard as the most effective joint force for 
domestic military operations. This endeavor started with a training 
transformation (T\2\) in NGB's Joint Interagency Training Capability 
(JITC) programs. NGB advanced T\2\ from a vision to reality in fiscal 
year 2009 by investing in new joint training and education, and by 
integrating joint exercises and training capabilities with interagency 
partners. T\2\ will emphasize JITC programs in fiscal year 2010 and 
beyond that produce experienced leaders and staff officers who are 
joint-minded, innovative, and who can adapt to the operational contexts 
of an event. The final objective of T\2\ is a fully joint force of 
motivated people who are well-trained, well-educated, and exercised to 
accomplish their joint mission essential tasks (JMETs).
Joint Interagency Training Capability (JITC) programs
    Since its inception, JITC has prepared the National Guard by 
providing more than 30,000 man-days of individual, staff, and 
collective training in over 800 events. NGB plans to conduct over 200 
events in fiscal year 2011. Vital JITC programs include:

            Defense Support of Civil Authorities (DSCA) Training

    DSCA training uses simulations and linked Live-Virtual-Constructive 
environments to enhance training for homeland defense and emergency 
response missions.

            Joint Task Force (JTF) Commander Training Course

    This 5-day course provides current and future JTF commanders with 
an understanding of directives, current policies, guidance, and lessons 
learned regarding the complexities of commanding a JTF.

            Joint Staff Training Course

    This 6-month course blends distance learning with face-to-face 
sessions to train joint force staff personnel in all aspects of joint 
operations, planning, and execution to prepare them to act in concert 
with other joint, interagency, and intergovernmental organizations.

            Standardized CBRNE Collective Training

    This program trains CERFP, WMD-CST, and NGRF teams to provide an 
immediate response capability to support civil and military authorities 
following a CBRNE incident by forensically identifying the 
contamination; locating, extracting, decontaminating, and medically 
treating victims; and providing responders with security.

                             VIGILANT GUARD

    Each year, the National Guard conducts four regional Vigilant Guard 
(VG) exercises to help military first-responders unify their efforts to 
support civilian authorities. In 2009, regional VG exercises were 
hosted by Iowa, Montana, New York, and Puerto Rico, with many other 
states contributing. The NGB is also building a special Vigilant Guard 
exercise to support the 54 states and territories in preparing for 
larger scale or real-world events. Implementation will begin in fiscal 
year 2011.

Emergency Response and Training
    The National Guard's Joint Incident Site Communications Capability 
(JISCC) provides communications capabilities for the National Guard 
while conducting domestic operations and providing military support to 
civil authorities. With 85 deployed systems, JISCC is available for 
utilization anytime and anywhere. It provides interoperable 
communications and emergency satellite links to command and control 
centers to share information and tools needed to support collaboration 
with other Federal, state, and local responders including FEMA, the 
Department of Homeland Security (DHS), and state emergency management 
agencies.
    The success of JISCC's anytime and anywhere communications 
capability in supporting domestic operations has received recognition 
and support from the military departments. The NGB and Army and Air 
Force are assessing it for future development as a programmed and 
funded defense communications system. The JISCC system, in conjunction 
with a web-based application (Joint Information Exchange Environment), 
and a Command and Control Coordination Center (C\4\) are known 
collectively as the Joint CONUS Communications Support Environment 
(JCCSE).
    Together, JCCSE's three elements offer the states and territories, 
Combatant Commanders, and domestic operations partners a complete 
communications package for emergency management/response: Deployable 
communication equipment; situational awareness and common operating 
picture capability; and a center for coordinating emergency operations.
    Partial funding for sustainment of the three JCCSE elements has 
been recognized in the fiscal year 2010-15 defense budget.

                  SUPPORTING THE WARFIGHTER AND FAMILY

Financial Management Awareness Program
    In 2009, the National Guard Bureau established the Consumer 
Education and Financial Services Program. Working with defense, 
government, and civilian agencies, the program educates members of the 
National Guard and their families on financial responsibility and 
provides them with the necessary resources available to help them make 
sound financial decisions. Financial health is essential to the 
National Guard's preparedness and is an important quality-of-life 
issue. Continued collaboration among all agencies will ensure that 
every National Guard member and each family can understand and access 
the myriad of available financial resources.
    Websites: http://www.militaryhomefront.dod.mil/; http://
www.myarmyonesource.com; and http://www.jointservicessupport.org/.
    The Yellow Ribbon Reintegration Program (YRRP) provides 
information, services, referrals, and proactive outreach to Service 
members, families and employers throughout pre-deployment, deployment, 
and post-deployment. Through May 2009, the National Guard has already 
conducted 619 events involving 47,182 service members and 58,350 family 
members.

Youth Development
    Our Citizen-Soldiers who, in their civilian lives, are influential 
across the spectrum of business, education, and government make up the 
backbone of the National Guard Youth ChalleNGe program. The award-
winning community-based program leads, trains, and mentors at-risk 
youth to become productive citizens in America's future. ChalleNGe has 
32 sites in 28 states and Puerto Rico, offering a 5-month ``quasi-
military'' residential phase and a 1-year post-residential mentoring 
phase for unemployed, crime-free high school dropouts, ages 16-18.
    Since 1993, ChalleNGe has graduated over 90,000 students. Over 67 
percent have earned a GED or high school diploma and 12 percent enter 
the military. The program pays for itself by savings realized from 
keeping young people out of jail and off public assistance rolls. Based 
on a formula from a 1998 Vanderbilt University study, ChalleNGe saves 
approximately $175 million annually in juvenile corrections costs, 
while keeping youth off of Federal assistance.
    For more details on the National Guard Youth ChalleNGe program, 
please see the information paper at: www.ng.mil/features/ngps.

DOD STARBASE Program
    Thirty-four National Guard sites host the DOD STARBASE Program 
which reaches out to at-risk 5th grade students to improve their 
knowledge and interest in the science, technology, engineering, and 
math fields. The United States faces a workforce and educational crisis 
in these fields as American 15-year-olds rank near the bottom of 30 
countries in combined science and math test scores. The program exposes 
the students to advanced technology and positive role models found on 
military bases and installations.
    For more details on the DOD STARBASE program, please see the 
information paper at: www.ng.mil/features/ngps.

A Leader in Equal Opportunity
    The NGB Office of Equal Opportunity (NGB-EO) provides direction, 
administration, management, and policy implementation of National Guard 
(NG) military Equal Opportunity (EO) and technician Equal Employment 
Opportunity (EEO) and Civil Rights programs to both Army and Air Force. 
NGB-EO ensures the effective management of NG Affirmative Action 
Programs to achieve a military and civilian workforce structure that is 
reflective of the diversification of the 54 states, territories, and 
the District of Columbia.
    NGB-EO also oversees the implementation of programs that focus on 
the special needs of employees with disabilities. People with 
disabilities can be hired through the traditional competitive hiring 
process or if they qualify, noncompetitively through the use of 
accepted service appointing authorities. NGB-EO is responsible for 
providing educational awareness about Wounded Warriors, reasonable 
accommodations, and employment opportunities through various programs. 
As an employer, the National Guard recognizes that all employees with 
disabilities and wounded service members are essential to our workforce 
and have demonstrated excellence in executive, administrative, 
managerial, and technical fields.

                        STATE ADJUTANTS GENERAL

Alabama: Major General Abner C. Blalock Jr.
Alaska: Brigadier General Thomas H. Katkus
Arizona: Major General (AZ) Hugo E. Salazar
Arkansas: Major General William D. Wofford
California: Brigadier General Mary J. Kight
Colorado: Major General H. Michael Edwards
Connecticut: Major General Thaddeus J. Martin
Delaware: Major General Francis D. Vavala
District of Columbia: Major General Errol R. Schwartz, Commanding 
General
Florida: Major General Douglas Burnett
Georgia: Major General William T. Nesbitt
Guam: Major General Donald J. Goldhorn
Hawaii: Major General Robert G. F. Lee
Idaho: Major General (ID) Gary L. Sayler
Illinois: Major General William L. Enyart
Indiana: Major General R. Martin Umbarger
Iowa: Brigadier General Timothy E. Orr
Kansas: Major General Tod M. Bunting
Kentucky: Major General Edward W. Tonini
Louisiana: Major General Bennett C. Landreneau
Maine: Major General (Ret) John W. Libby
Maryland: Brigadier General (MD) James A. Adkins
Massachusetts: Major General (MA) Joseph C. Carter
Michigan: Major General Thomas G. Cutler
Minnesota: Major General Larry W. Shellito
Mississippi: Major General (MS) William L. Freeman, Jr.
Missouri: Brigadier General (MO) Stephen L. Danner
Montana: Brigadier General (MT) John E. Walsh
Nebraska: Brigadier General (NE) Judd H. Lyons
Nevada: Brigadier General William R. Burks
New Hampshire: Major General (NH) William N. Reddel III
New Jersey: Major General Glenn K. Rieth
New Mexico: Major General (NM) Kenny C. Montoya
New York: Brigadier General Patrick A. Murphy
North Carolina: Major General William E. Ingram, Jr.
North Dakota: Major General David A. Sprynczynatyk
Ohio: Major General Gregory L. Wayt
Oklahoma: Major General Myles L. Deering
Oregon: Major General Raymond F. Rees
Pennsylvania: Major General Jessica L. Wright
Puerto Rico: Major General (PR) Antonio J. Vicens-Gonzalez
Rhode Island: Major General Robert T. Bray
South Carolina: Major General (Ret) Stanhope S. Spears
South Dakota: Major General Steven R. Doohen
Tennessee: Major General (TN) Terry M. Haston
Texas: Major General Jose S. Mayorga Jr.
Utah: Major General Brian L. Tarbet
Vermont: Major General Michael D. Dubie
Virginia: Major General Robert B. Newman Jr.
Virgin Islands: Brigadier General (VI) Renaldo Rivera
Washington: Major General Timothy J. Lowenberg
West Virginia: Major General Allen E. Tackett
Wisconsin: Brigadier General (WI) Donald P. Dunbar
Wyoming: Major General Edward L. Wright

                              IN MEMORIAM

    A special dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom, and Operation Iraqi 
Freedom as of January 1, 2010.

SGT Christopher P. Abeyta, IL
CPT Clayton L. Adamkavicius, KY
PVT Algernon Adams, NC
SGT. Roger L. Adams Jr, NC
SGT Ryan C. Adams, WI
SFC Brent A. Adams, PA
SGT Leonard W. Adams, NC
SGT Spencer C. Akers, MI
SPC Segun F. Akintade, NY
PFC Wilson A. Algrim, MI
SPC Azhar Ali, NY
SGT Howard P. Allen, AZ
1LT Louis E. Allen, PA
SSG William A. Allers III, KY
SFC Victor A. Anderson, GA
SPC Michael Andrade, RI
SGT Jan M. Argonish, PA
SGT Travis M. Arndt, MT
SSG Daniel L. Arnold, PA
SSG Larry R. Arnold, MS
SGT Jesse A. Ault, VA
SPC Adrian L. Avila, AL
SGT Christopher J. Babin, LA
SFC Travis S. Bachman, KS
SSG Nathan J. Bailey, TN
SPC William L. Bailey, NE
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
SGT Juan C. Baldeosingh, NC
MSG Scott R. Ball, PA
1LT Debra A. Banaszak, IL
SGT Derek R. Banks, VA
1LT Gerard Baptiste, NY
SGT Michael C. Barkey, OH
1LT Leevi K. Barnard, NC
1LT Christopher W. Barnett, LA
SPC Bryan E. Barron, MS
SGT Michael Barry, KS
SSG Robert J. Basham, WI
SPC Todd M. Bates, OH
SSG Mark C. Baum, PA
SSG Tane T. Baum, OR
SFC John C. Beale, GA
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
SSgt Brock A. Beery, TN
CPL Joseph O. Behnke, NY
SGT Aubrey D. Bell, AL
SSG Keith A. Bennett, PA
SGT Darry Benson, NC
SPC Bradley J. Bergeron, LA
LTC Richard J. Berrettini, PA
SSG David R. Berry, KS
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SGT Robert L. Bittiker, NC
1SG John D. Blair, GA
SSG Richard A. Blakley, IN
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr., CA
SSG Darryl D. Booker, VA
COL Canfield Boone, IN
SPC Christopher K. Boone, TX
CPL Samuel M. Boswell, MD
SSG Collin J. Bowen, MD
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Paul F. Brooks, MO
SSG Cory W. Brooks, SD
SFC John G. Brown, AR
SGT Lerando Brown, MS
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Timothy D. Brown, MI
SGT Charles R. Browning, AZ
SFC Daniel A. Brozovich, PA
SSgt Andrew C. Brunn, NY
SPC Jacques E. Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy D. Buie, AR
SSG James D. Bullard, SC
SPC Alan J. Burgess, NH
SSG Jason E. Burkholder, OH
SGT Casey. Byers, IA
SGT Charles T. Caldwell, RI
MAJ Jeffrey R. Calero, NY
SPC Norman L. Cain III, IL
SSG Joseph Camara, MA
1LT Jaime L. Campbell, WA
LTC David C. Canegata III, VI
SGT Deyson K. Cariaga, HI
SPC Frederick A. Carlson, PA
SSG Nicholas R. Carnes, KY
SPC Jocelyn L. Carrasquillo, NC
MSG Scott M. Carney, IA
SGT James D. Carroll, TN
SPC Dane O. Carver, MI
SGT Frank T. Carvill, NJ
SFC Virgil R. Case, ID
CPT Christopher S. Cash, NC
SPC Stephen W. Castner, WI
SPC George W. Cauley, MN
SPC Jessica L. Cawvey, IL
CPL Bernard L. Ceo, MD
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris S. Chapin, VT
SGT Brock H. Chavers, GA
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SGT James M. Clay, AR
SPC Brian Clemens, IN
SSG Thomas W. Clemons, KY
SGT Russell L. Collier, AR
SFC Kurt J. Comeaux, LA
SPC Anthony S. Cometa, NV
SGT Brian R. Conner, MD
SFC Sean M. Cooley, MS
SSG Travis S. Cooper, MS
SPC Marcelino R. Corniel, CA
SGT Alex J. Cox, TX
SFC Daniel B. Crabtree, OH
MSG Clinton W. Cubert, KY
SSG Daniel M. Cuka, SD
SPC Carl F. Curran, PA
CPT Patrick D. Damon, ME
SGT Jessie Davila, KS
SPC Daryl A. Davis, FL
SSG Kevin D. Davis, OR
SPC Raphael S. Davis, MS
SSG David F. Day, MN
PFC John W. Dearing, MI
SGT Germaine L. Debro, NE
MSG Bernard L. Deghand, KS
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
CPT Bruno G. Desolenni, CA
PFC Nathaniel E. Detample, PA
CPL Scott G. Dimond, NH
SPC Joshua P. Dingler, GA
SGT Philip A. Dodson Jr., GA
SPC Ryan E. Doltz, NJ
SSgt Geronimo ``Jerome'' M. P. Dominguez, NY
1LT Mark H. Dooley, NY
SPC Thomas J. Dostie, ME
SSG George R. Draughn Jr., GA
SGT Duane J. Dreasky, MI
SPC Daniel P. Drevnik, MN
SPC Christopher M. Duffy, NJ
CPL Ciara M. Durkin, MA
SGT Arnold Duplantier II, CA
MSG Kevin A. Dupont, MA
Sgt Lance O. Eakes, NC
SPC Chad A. Edmundson, PA
SFC Amos C. Edwards Jr., GA
CW2 Corry A. Edwards, TX
SFC Mark O. Edwards, TN
2LT Michael I. Edwards, AK
SGT Michael Egan, PA
SGT Christian P. Engeldrum, NY
1LT William E. Emmert, TN
SGT Daniel M. Eshbaugh, OK
CPT Phillip T. Esposito, NY
SPC Michael S. Evans II, LA
SPC William L. Evans, PA
SSG Christopher L. Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
SGT Gregory D. Fejeran, GU
CPT Arthur L. Felder, AR
SGT Robin V. Fell, LA
SGT Christopher J. C. Fernandez, GU
SPC William V. Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien T. Ficek, WA
SGT Courtney D. Finch, KS
SGT Jeremy J. Fischer, NE
CPT Michael T. Fiscus, IN
SPC David M. Fisher, NY
SGT Paul F. Fisher, IA
CW3 William T. Flanigan, TN
CW3 John M. Flynn, NV
SSG Tommy I. Folks Jr., TX
SGT Joseph A. Ford, IN
SGT Joshua A. Ford, NE
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SSG Alex French IV, GA
SPC Carrie L. French, ID
SPC Armand L. Frickey, LA
SSG Joseph F. Fuerst III, FL
SFC Michael T. Fuga, AS \1\
SSG Carl R. Fuller, GA
SPC Marcus S. Futrell, GA
CSM Marilyn L. Gabbard, IA
SPC Joseph L. Gallegos, NM
SGT Jerry L. Ganey Jr., GA
SGT Seth K. Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
PFC Alva L. Gaylord, MO
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew V. Gibbs, GA
2LT Richard B. Gienau, IL
SSG Charles C. Gillican III, GA
SGT Terrell W. Gilmore, LA
SPC Lee M. Godbolt, LA
SGT Jaime Gonzalez, TX
CPL Nathan J. Goodiron, ND
SPC Richard A. Goward, MI
SGT Shawn A. Graham, TX
SFC Alejandro Granado, VA
SGT Jamie A. Gray, VT
SPC Anthony G. Green, NC
SGT Kevin D. Grieco, IL
SPC James T. Grijalva, IL
SGT Shakere T. Guy, CA
SGT Jonathon C. Haggin, GA
SFC Peter J. Hahn, LA
CSM Roger W. Haller, MD
SSG Jeffrey J. Hansen, NE
SGT Joshua R. Hanson, MN
SGT Joshua W. Harris, IL
SSG Asbury F. Hawn II, TN
SPC Michael R. Hayes, KY
CPT Bruce E. Hays, WY
SGT Paul M. Heltzel, LA
SPC Kyle M. Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SFC John M. Hennen, LA
SGT Gary M. Henry, IN
SPC Michael L. Hermanson, ND
SPC Brett M. Hershey, IN
MAJ Tad T. Hervas, MN
MSG Michael T. Hiester, IN
SGT Stephen C. High, SC
CPT Raymond D. Hill II, CA
SGT Shawn F. Hill, SC
SFC Matthew L. Hilton, MI
SGT Jeremy M. Hodge, OH
PFC Derek Holland, PA
SFC Robert L. Hollar Jr., GA
SPC Eric M. Holke, CA
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Manny Hornedo, NY
SPC Chester W. Hosford, MN
SGT Jessica M. Housby, IL
SPC Robert W. Hoyt, CT
SPC Jonathan A. Hughes, KY
SGT Buddy J. Hughie, OK
SGT Joseph D. Hunt, TN
MSG Julian Ingles Rios, PR
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia L. Jameson, NE
SGT Brahim J. Jeffcoat, PA
SPC William Jeffries, IN
MAJ Kevin M. Jenrette, GA
SPC David W. Johnson, OR
SPC Issac L. Johnson, GA
SGT Joshua A. Johnson, VT
SFC Charles J. Jones, KY
SSG David R. Jones Sr., GA
SFC Michael D. Jones, ME
SGT Ryan D. Jopek, WI
SPC Jeffrey W. Jordan, GA
SGT Anthony N. Kalladeen, NY
SPC Alain L. Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SSG Darrel D. Kasson, AZ
SPC Charles A. Kaufman, WI
SPC James C. Kearney, IA
SGT Michael J. Kelley, MA
SSG Dale J. Kelly, ME
COL Paul M. Kelly, VA
SSG Stephen C. Kennedy, TN
SSG Ricky A. Kieffer, MI
SSG Bradley D. King, IN
SGT James O. Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SPC Rhys W. Klasno, CA
SPC Chris Kleinwachter, ND
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SGT Brent W. Koch, MN
SSG Lance J. Koenig, ND
SGT Allen D. Kokesh Jr., SD
CW3 Patrick W. Kordsmeier, AR
SFC Edward C. Kramer, NC
SPC Kurt E. Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SGT Dustin D. Laird, TN
SFC Floyd E. Lake, VI
SPC Charles R. Lamb, IL
SPC David E. Lambert, VA
SGT Denise A. Lannaman, NY
SFC Issac S. Lawson, CA
CW4 Patrick D. Leach, SC
SGT Terrance D. Lee Sr., MS
SGT David L. Leimback, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Brian S. Leon Guerrerro, GU
SPC Timothy J. Lewis, VA
SSG Nathaniel B. Lindsey, OR
SGT Jesse M. Lhotka, MN
SSG Victoir P. Lieurance, TN
SFC Daniel R. Lightner Jr., PA
SPC Justin W. Linden, OR
SSG Tommy S. Little, AL
SPC Jeremy Loveless, AL
SSG David L. Loyd, TN
CPT Ronald G. Luce Jr., NC
CPT Robert Lucero, WY
2LT Scott B. Lundell, UT
SPC Audrey D. Lunsford, MS
PFC Jonathan L. Luscher, PA
SPC Derrick J. Lutters, CO
SPC Wai Phyo Lwin, NY
CPT Sean E. Lyerly, TX
SGT Stephen R. Maddies, TN
SPC Anthony L. Mangano, NY
SSG William F. Manuel, LA
SPC Joshua S. Marcum, AR
SPC Jeremy E. Maresh, PA
PFC Adam L. Marion, NC
PV2 Taylor D. Marks, OR
PFC Ryan A. Martin, OH
Sgt Anthony L. Mason, TX
SGT Nicholas C. Mason, VA
SGT John R. Massey, AR
SGT Randy J. Matheny, NE
SGT Patrick R. McCaffrey Sr., CA
SFC Randy D. McCaulley, PA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Bryan T. McDonough, MN
SGT John E. McGee, GA
SPC Jeremy W. McHalffey, AR
SFC Joseph A. McKay, NY
SPC Eric S. McKinley, OR
LTC Michael E. McLaughlin, PA
SPC Scott P. McLaughlin, VT
SGM Jeffrey A. McLochlin, IN
SSG Heath A. McMillan, NY
SSG Michael J. McMullen, MD
SPC Robert A. McNail, MS
MSG Robbie D. McNary, MT
SSG Jeremiah E. McNeal, VA
SPC Curtis R. Mehrer, ND
PV2 Bobby Mejia II, MI
SPC Mark W. Melcher, PA
SPC Jacob E. Melson, AK
SSG Joshua A. Melton, IL
SPC Kenneth A. Melton, MO
SPC Jonathan D. Menke, IN
SSG Chad M. Mercer, GA
SPC Chris S. Merchant, VT
SSG Dennis P. Merck, GA
SGM Michael C. Mettille, MN
SPC Michael G. Mihalakis, CA
SSG Brian K. Miller, IN
SPC John W. Miller, IA
SGT Kyle R. Miller, MN
CPT Lowell T. Miller II, MI
SPC Marco L. Miller, FL
PFC Mykel F. Miller, AZ
SFC Troy L. Miranda, AR
SGT Ryan J. Montgomery, KY
SPC Samson A. Mora, GU
SGT Raymundo P. Morales, GA
SGT Carl J. Morgain, PA
SPC Dennis B. Morgan, NE
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
LTC Charles E. Munier, WY
SPC Warren A. Murphy, LA
SGT David J. Murray, LA
SPC Nathan W. Nakis, OR
SFC Brian Naseman, OH
SPC Creig L. Nelson, LA
SGT Paul C. Neubauer, CA
SPC Joshua M. Neusche, MO
SGT Long N. Nguyen, OR
SPC Paul A. Nicholas, CA
SFC Scott E. Nisely, IA
SGT William J. Normandy, VT
PFC Francis C. Obaji, NY
SGT John B. Ogburn III, OR
SGT Nicholas J. Olivier, LA
SSG Todd D. Olson, WI
1LT Robert C. Oneto-Sikorski, MS
1SGT Julio C Ordonez, TX
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy R. Osbey, MS
SSG Ryan S. Ostrom, PA
SSG Michael C. Ottolini, CA
SSG Paul S. Pabla, IN
SGT Mark C. Palmateer, NY
PFC Kristian E. Parker, LA
SGT Richard K. Parker, ME
SSG Saburant Parker, MS
SGT Lawrence L. Parrish, MO
SSG Michael C. Parrott, CO
SGT Schulyer B. Patch, OK
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob L. Pfingsten, MN
SSG Joseph E. Phaneuf, CT
PFC Sammie E. Phillips, KY
SGT Edward O. Philpot, SC
SGT Ivory L. Phipps, IL
SSG Emanual Pickett, NC
CW2 Paul J. Pillen, SD
PFC Derek J. Plowman, AR
SGT Foster Pinkston, GA
SPC Matthew M. Pollini, MA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn R. Poulin Sr., ME
SFC Daniel J. Pratt, OH
SFC James D. Priestap, MI
2LT Mark J. Procopio, VT
SGT Joseph E. Proctor, IN
SSG Matthew A. Pucino, MD
SPC Robert S. Pugh, MS
SFC George A. Pugliese, PA
SSG Thomas D. Rabjohn, AZ
SPC Joseph A. Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose C. Rangel, CA
SGT Thomas C. Ray, NC
SSG Johnathan R. Reed, LA
SSG Aaron T. Reese, OH
SGT Gary L. Reese Jr., TN
SGT Luis R. Reyes, CO
SPC Jeremy L. Ridlen, IL
SPC James D. Riekena, WA
SGT Greg N. Riewer, MN
PFC Hernando Rios, NY
SSG Milton Rivera-Vargas, PR
CPL John T. Rivero, FL
SSG William T. Robbins, AR
SSG Christopher L. Robinson, MS
CPL Jeremiah W. Robinson, AZ
SPC Simone A. Robinson, IL
SGT Nelson D. Rodriguez Ramirez, MA
SSG Alan L. Rogers, UT
SFC Daniel Romero, CO
SGT Brian M. Romines, IL
SFC Robert E. Rooney, NH
SPC David L. Roustum, NY
SGT Roger D. Rowe, TN
CW3 Brady J. Rudolf, OK
SGT David A. Ruhren, VA
CW4 William Ruth, MD
SPC Lyle W. Rymer II, AR
SPC Corey J. Rystad, MN
SSG Lukasz D. Saczek, IL
SFC Rudy A. Salcido, CA
SGT Paul A. Saylor, GA
SSG Daniel R. Scheile, CA
SPC Ronald A. Schmidt, KS
SFC Richard L. Schild, SD
SGT Jacob S. Schmuecker, NE
SPC Jeremiah W. Schmunk, WA
PFC Benjamin C. Schuster, NY
SGT Andrew Seabrooks, NY
SPC Dennis L. Sellen, CA
SGT Bernard L. Sembly, LA
SPC Daniel L. Sesker, IA
SGT Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie L. Shelley Sr., GA
SGT James A. Sherrill, KY
1LT Andrew C. Shields, SC
SPC Bradley N. Shilling, MI
PFC Ashley Sietsema, IL
SGT Alfred B. Siler, TN
SGT Alfredo B. Silva, CA
SGT Isiah J. Sinclair, LA
SPC Roshan (Sean) R. Singh, NY
SPC Channing G. Singletary, GA
SPC Aaron J. Sissel, IA
SSG Bradley J. Skelton, MO
1LT Brian D. Slavenas, IL
SGT Eric W. Slebodnik, PA
SPC Erich S. Smallwood, AR
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Gerrick D. Smith, IL
SGT Michael A. Smith, AR
SSG Paul G. Smith, IL
SPC Norman K. Snyder, IN
SGT Mike T. Sonoda Jr., CA
Lt Col Kevin H. Sonnenberg, OH
SGT Matthew R. Soper, MI
SGT Kampha B. Sourivong, IA
1LT Jared W. Southworth, IL
SFC Theodore A. Spatol, WY
SFC William C. Spillers, MS
SSG Chris N. Staats, TX
SPC David S. Stelmat, NH
SGT Patrick D. Stewart, NV
SGT Jonnie L. Stiles, CO
SGT Michael J. Stokely, GA
Maj Gregory Stone, ID
SPC Samuel D. Stone, WA
MSG John T. Stone, VT
SPC Brandon L. Stout, MI
SPC Chrystal G. Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis J. Straub Jr., PA
SGT Matthew F. Straughter, MO
SGT Scott Stream, IL
SGT Thomas J. Strickland, GA
WO1 Adrian B. Stump, OR
CW4 Milton E. Suggs, LA
SFC Severin W. Summers III, MS
SSG Daniel A. Suplee, FL
SSG Michael Sutter, IL
SGT Robert W. Sweeney III, LA
SPC Christopher M. Talbert, IL
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SPC Deon L. Taylor, NY
CPT Michael V. Taylor, AR
SGT Shannon D. Taylor, TN
SGT Joshua A. Terando, IL
MSG Thomas R. Thigpen Sr., GA
SGT John F. Thomas, GA
MSG Sean M. Thomas, PA
SGT Paul W. Thomason III, TN
CPL Michael E. Thompson, OK
1LT Jason G. Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric L. Toth, KY
SSG Robin L. Towns Sr., MD
SPC Seth R. Trahan, LA
SPC Quoc Binh Tran, CA
SSG Philip L. Travis, GA
CW4 Chester W. Troxel, AK
SGT Robert W. Tucker, TN
SGT Gregory L. Tull, IA
SPC Nicholas D. Turcotte, MN
1LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo F. Urbina, NY
SGT Michael A. Uvanni, NY
1LT Robert Vallejo II, TX
SGT Gene Vance Jr., WV
SGT Travis A. Vanzoest, ND
SGT Daniel R. Varnado, MS
SSG Jason A. Vazquez, IL
1LT Michael W. Vega, CA
SSG David M. Veverka, PA
SPC Anthony M. K. Vinnedge, OH
SPC Chad J. Vollmer, MI
PFC Kenneth Gri Vonronn, NY
SPC Jason E. von Zerneck, NY
SSG Michael S. Voss, NC
PFC Brandon J. Wadman, FL
SSG Gregory A. Wagner, SD
SGT Andrew P. Wallace, WI
SGT Daniel W. Wallace, KY
PFC Cwislyn K. Walter, HI
SFC Charles H. Warren, GA
1SG William T. Warren, AR
SFC Mark C. Warren, OR
SPC Glenn J. Watkins, CA
MSG Davy N. Weaver, GA
SGT Matthew A. Webber, MI
SFC Kyle B. Wehrly, IL
SGT Robert M. Weinger, IL
SSG David J. Weisenburg, OR
SPC Michael J. Wendling, WI
SPC Cody Lee L. Wentz, ND
SGT Earl D. Werner, WI
SPC Jeffrey M. Wershow, FL
SPC James D. Wertish, MN
SGT Marshall A. Westbrook, NM
SPC Lee A. Wiegand, PA
SPC Carlos E. Wilcox IV, MN
LTC James L. Wiley, OR
1LT Charles L. Wilkins III, OH
SGT David B. Williams, NC
2LT Derwin I. Williams, IL
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SSG Delmar White, KY
SGT Elijah Tai Wah Wong, AZ
SPC John E. Wood, KS
SFC Ronald T. Wood, UT
SGT Roy A. Wood, FL
SFC William B. Woods Jr., VA
SSG James Wosika, MN
SPC Brian A. Wright, IL
SGT Thomas G. Wright, MI
SGT Joshua V. Youmans, MI
SPC Christopher D. Young, CA

    \1\ American Samoa

    Chairman Inouye. Before I call upon General Wyatt, may I 
recognize Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I will hold my time 
until the questions.
    But, I just cannot help but note what General McKinley said 
about Senator Bond. One of the great joys of the last few years 
here in the Senate has been being cochair with Senator Bond--
Governor Bond--on the National Guard Caucus. I have enjoyed our 
bipartisan cooperation, and that cooperation is one of the 
reasons why you have four stars on your shoulder, General. You 
earned them, of course, but we made it possible to have that 
slot there. Mr. Chairman, I think we have four very good 
friends sitting up here right now who are on both sides of the 
aisle.
    Kit, I know this is going to be your last hearing of this 
nature before the subcommittee, and I just wanted to say how 
much I've appreciated both the friendship and working with you.
    Chairman Inouye. I can't imagine not hearing from Senator 
Bond in years to come.
    Your voice----
    Senator Bond. I notice that's with a smile, Mr. Chairman--
you're not looking sad.
    Thank you.
    Chairman Inouye. May I now call upon General Wyatt.

       SUMMARY STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT III

    General Wyatt. Mr. Chairman, Mr. Vice Chairman, Senator 
Leahy, Senator Bond, on behalf of the 106,700 extraordinary men 
and women who serve in America's Air National Guard, thank you 
for inviting me today, and thank you for the continued strong 
support that this subcommittee has provided our servicemembers.
    Many of our folks continue to volunteer at unprecedented 
rates for worldwide contingencies and to protect our domestic 
security through air sovereignty alert missions and in 
responding to natural and manmade disasters.
    A shining example of the quality of individuals that we 
have is a young man who is seated behind me. And with the 
permission of the subcommittee, I would like to introduce to 
you Staff Sergeant Kenneth Walker.
    Sergeant Walker, if you'd please stand.
    Sergeant Walker is a tactical air control party journeyman. 
He's assigned to the 116th Air Support Operations Squadron as a 
flight supervisor at Camp Murray, Washington. He, in 1998, 
enlisted in the United States Air Force as an operations 
resource specialist, and joined the 9th Bomber Squadron in 
Abilene, Texas. In 2004, he joined the Army National Guard and 
began training with the 19th Special Forces Group in Buckley, 
Washington. In 2006, Sergeant Walker joined the Air National 
Guard at Camp Murray, Washington, and began his training as a 
tactical air control party noncommissioned officer (NCO). 
Sergeant Walker recently returned from his fifth deployment, 
this time as a tactical air controller personnel, where he 
directed close air support in support of the 3d Brigade Combat 
Team, 1st Infantry Division, Kunar Province, in Afghanistan. On 
this latest deployment his supported Army unit awarded him with 
the Army Commendation Medal with Valor Device for his 
successful efforts to save American lives under fire. He led 19 
combat air support missions for nine named operations, spent 
more than 135 hours outside the wire on combat patrol. He 
successfully prosecuted 18 precision strikes on enemy 
positions, with more than 48,000 pounds of ordnance on target. 
His courage and initiative resulted in 33 enemy casualties and 
an additional 16 enemy-wounded personnel.
    Sergeant Walker is a traditional guardsman. He is employed 
for the Oregon Youth Authority, which is a maximum security 
correctional facility for young adults who represent an 
unacceptable risk to the community.
    Sergeant Walker is one of the many 106,700 members of the 
Guard to which we take great pride.
    It's interesting that Sergeant Walker will be facing a 
decision to reenlist, here, pretty soon. In the Air National 
Guard, he is eligible for a reenlistment bonus, because of the 
fact that his job specialty is high-operations tempo and is one 
that is in great demand. He's entitled to a reenlistment bonus 
that pays him $15,000, but only if he reenlists for 6 years. 
Were he on Active Duty, he would quality for a $90,000 bonus 
and reenlist for 3 years. I say that to point out the need to 
continue our recruiting and retention budget so that we can 
continue attracting ladies and gentlemen like this young man.
    Sergeant Walker. Thanks.
    Chairman Inouye. The subcommittee thanks you and salutes 
you, Sergeant.
    General Wyatt. In order to ensure our continued success in 
our State and Federal missions, I've identified my enduring 
priorities for 2010 as, first of all, modernize our warfighting 
capabilities; second, secure the homefront and defend the 
Nation; and third, develop adaptable airmen. All equally 
important.
    In supporting these priorities, we evolve and shape our 
force and maintain our outstanding value. Our Nation's Air 
National Guard provides a trained, equipped, and ready force, 
accessible and available--that comprises about one-third of the 
total force capabilities for less than 7 percent of the total 
force budget.
    Mr. Chairman, I'm grateful to be here, and I look forward 
to answering any questions you and the subcommittee may have of 
me.
    Thank you, sir.
    Chairman Inouye. I thank you very much.
    Now may I call upon General Wyatt.

        SUMMARY STATEMENT OF MAJOR GENERAL RAYMOND W. CARPENTER

    General Carpenter. Mr. Chairman, Mr. Vice Chairman, 
Senators, it's my pleasure and honor to be here to represent 
the 360,000 soldiers in the Army National Guard today.
    And I would like to take a point of privilege and introduce 
one of those soldiers to you.
    Sergeant Campbell, would you please stand?
    He is a Maryland National Guardsman, and he is a senior 
tactical satellite communications systems specialist. He 
deployed in 2005-2006 with the 42d Infantry Division, 16th 
Armored Cavalry Brigade, and was deployed near Kirkuk, in Iraq. 
In that role, he provided the essential communication link to 
the warfighter in that area, and had a successful tour there, 
and returned home.
    He has been in the Army National Guard for 9 years. That 
means that he reenlisted about 3 years ago. When I asked him, 
``How come he reenlisted in the Army National Guard?'', he said 
because he didn't think he had any other alternative, that that 
was something that he absolutely wanted to do.
    And so, I think that it's important for us to recognize 
that Sergeant Campbell represents many of those soldiers who 
make those decisions on a daily basis, of whether they stay in 
the National Guard, or not. And to date, our reenlistment rate 
is over 120 percent, which is a huge kudo to what the soldiers 
inside of our formations see as, first of all, a patriotic, 
meaningful service, and something that they want to continue.
    And so, Sergeant Campbell is in the midst of completing his 
degree in electrical engineering, and we look forward to his 
continued service in our Army National Guard.
    Chairman Inouye. Sergeant Campbell, we thank you for your 
service, and we salute you, sir.
    General Carpenter. As I mentioned, there are over 360,000 
citizen-soldiers in our Army National Guard, as we speak today. 
And of those 360,000, over 60,000 are either mobilized, 
deployed, and on point for this Nation. The sacrifice of these 
soldiers, their families, and employers is something we must 
not only acknowledge, but certainly appreciate.
    The National Guard of today is a far cry from the one I 
joined. The last 8 years have seen the Guard transform to an 
operational force. The enablers for the Army National Guard, 
one of the greatest forces for good, in my opinion, have been 
provided and sustained by the congressional initiatives, many 
of which we will discuss today.
    They begin with incentive and soldier programs, support 
programs, that allow us to recruit and retain the best and the 
brightest, of which Sergeant Campbell represents. You have 
supported the resourcing for equipment that has supported the 
modernization of our fleets inside the Army Guard. We now have 
equipped our units to 83 percent of critical dual-use 
equipment, that being the equipment that's available for use by 
the Governors as available for use for the overseas mission. 
Sixty-six percent of that equipment inventory is now on hand, 
in the States, and available for the Governors, should they 
need or have to use it tonight.
    The National Guard and Reserve equipment account, as 
General McKinley mentioned, has been especially supportive in 
our pursuit of equipping the force. Last year, you appropriated 
almost $800 million for the Army National Guard in that 
account. And over the last 6 years, you have appropriated 
almost $5 billion for our use. Thanks to the National Guard/
Reserve equipment account, we will retire the M-35, the 
venerable ``deuce-and-a-half,'' this coming year. That truck 
has been in the inventory for almost 40 years, and we will 
replace them with the new family of modern tactical vehicles.
    Facilities and infrastructure are especially important in 
the homeland mission and supporting readiness for the overseas 
fight. We have 1,400 readiness centers, armories, that are over 
50 years old. The President's budget includes $873 million for 
construction for the Army National Guard. It is a high water 
mark in that business, as far as the President's budget is 
concerned; something we'd like to see sustained in order for us 
to do the modernization for those particular armories and 
readiness centers.
    I also want to highlight the $30 million appropriated last 
year in the Guard and Reserve initiative, a military 
construction NGREA-like account. That appropriation has already 
made a difference in construction of key facilities that we 
would not have otherwise been able to build.
    I solicit your support in the budget for the growth of the 
non-dual-status technician program. As you may know, those 
technicians are the ones that do not deploy, because they are 
not in the National Guard, and they maintain the home fires, 
they do the pay accounts, the equipment accounts, those kinds 
of things, in the absence of the dual-status technician. And, 
as General McKinley mentioned, I would also ask that the O&M 
accounts presented in the President's budget be approved, 
intact.
    Finally, I would like to acknowledge the support across the 
Army for the operational force. That support has been 
demonstrated in the budget process and programming process for 
the operational National Guard through fiscal year 2014, and 
it's actually a great story of the Army team, the Army Guard 
and the Army Reserve as one team on the battlefield, and one 
team in the budget process.
    Again, I'd like to acknowledge the critical role you all 
have played in building and sustaining the best National Guard 
in my career, and I look forward to your questions.
    Chairman Inouye. I thank you very much, General Carpenter.
    In recognition of the good work and leadership of the 
Senate National Guard Caucus, may I call upon Senator Bond 
first.
    Senator Bond. Thank you very much, Mr. Chairman.
    And thank you, General McKinley, for your very kind words.
    And, Mr. Chairman and Senator Cochran, it's been a great 
honor to work with you, but it's been a real pleasure to work 
with my friend Pat Leahy. And when we get something that is of 
importance to the Guard, I can count on Pat Leahy taking the 
leadership on his side while I try to do the same on my side. 
Of all the things I'm going to miss around here, this is one of 
them. I'd better say something about missing working with my 
chairman on the Transportation/Housing and Urban Development 
subcommittee, too. But, those things I will miss.
    But, back to the work at hand. I think we all agree with 
General McKinley's statement, and the statement of Generals 
Wyatt and Carpenter, about the importance of the men and women 
of our National Guard and Reserve. And that's why we were so 
honored to be able to recognize and thank Sergeant Walker and 
Sergeant Campbell, on behalf of all the men and women.
    You truly are, not only a vital component of our Nation's 
total force, but you are our heroes for what you do at home and 
abroad, and we offer you a heartfelt thanks.
    And now it's our job, not only to provide the support for 
you--and I think General Wyatt had a little idea how we might 
provide a little more support--but also to support, not only 
the personnel, but the equipment, to make sure that you are 
able to do the job.
    And I think one of the greatest achievements of this 
subcommittee has been its leadership in bringing about 
significant addition of dual-use equipment. At Katrina, when 
that hit--I've told the story here many times--we sent one of 
three engineer battalions to Louisiana. They said, ``They're 
doing a great job, send another one.'' I said, ``Well, we've 
had to send 'em in tennis shoes and pickup trucks, because we 
only have one of our three battalions equipped.'' But, we have 
gone from 33 percent to--according to your posture statement--
to now 76 percent for the Army Guard.
    Unfortunately, on the air side, the situation is dire. And 
I think that we ought to agree that if you call it Air Guard, 
you ought to have aircraft. Aircraft are a paramount piece of 
equipment for the Guard to fulfill its mission. But, 
unfortunately, the Air Force, under pressure from the Pentagon, 
has been pursuing a strategy that will result in a significant 
drawdown of Air Guard aircraft. Unless Congress acts, the end 
result will be the eventual decline of our air dominance and 
the evisceration of the Guard.
    And, Senator Leahy, I've submitted for the record our 
letter to Secretary Donley.
    The Air Force has stated that it is in the midst of 
modernizing and recapitalizing its weapons systems and that the 
Air Guard must be concurrently and proportionally 
recapitalized. But, the problem is, there's nothing available 
with which to be concurrent and proportional. And the even 
greater problem is that they do not seem, still, to be willing 
to consult with, and talk with, the Air Guard.
    By the time the F-35 might be ready, we will already have 
lost multiple Air Guard units. Furthermore, at well over $100 
million per plane, according to the Cost Analysis Program 
Evaluation Office, I'm concerned the F-35 will be too expensive 
to be procured in sufficient quantities to recapitalize the Air 
Force and the Air Guard.
    Now, the Air Force has signaled its willingness to drawn 
down on the lift capability of the Guard, shifting 12 C-130s 
from Air Guard bases nationwide to replace older Active 
component models. The same scheme would also eliminate the only 
flying unit in the Puerto Rican Air Guard unit. Everyone prays 
for its response to and support of Haiti. That's no way to 
thank them for their selfless service.
    I refer to this as a backdoor BRAC of the Air National 
Guard. If the Air Force would leverage further low operating 
cost, experience, and effectiveness of the Air Guard, then it 
would have more resources for a much needed recapitalization of 
the total force.
    General McKinley, recent reporting indicates that the Air 
Force fighter gap is smaller than previously identified. I'm 
concerned about what you think about the total force fighter 
gap, its impact on the ANT, and how could that fighter gap have 
been made smaller with a final admission that the Joint Strike 
Fighter--and I will omit calling it what I normally call it--
will slip, and the fact that no new fighters have been 
purchased in well over a decade.

                            ANG AGING FLEET

    General McKinley. Senator Bond, obviously, from the facts 
in your question, equipment is the lifeblood of a military 
organization--there is no doubt about it. Whether it's Army, 
Navy, Air Force, Marine Corps--for our Guard Army and Air Force 
equipment. And I've been before this subcommittee for 4 years; 
this is my fourth testimony and my first as the Chief of the 
National Guard Bureau. My perspective is that, on the Air Guard 
side--and I'll let General Wyatt comment specifically about 
what he has done within the Air Force to try to alleviate 
potential loss of aircraft from some of our units, which 
actually started in the 2005 BRAC. But, as we all know, by 
2011, those BRAC actions must be completed, and therefore, 
we're in the process of finalizing what aircraft will move and 
go to different places. But, it is creating some tension at 
those home units.
    The conditions have changed in those 4 years, Senator Bond, 
in terms of how we plan and program. I would emphasize--and I 
certainly don't need to explain to this subcommittee--that the 
services provide the equipment for the National Guard. The Air 
National Guard does not purchase aircraft; the aircraft are 
provided by the United States Air Force. And for over 60 years, 
there have been enough aircraft to flow or trickle down to the 
Air National Guard so that they can continue to maintain their 
units. And we are presently at approximately 88 flying units. 
We actually have three units that, without any kind of 
intervention, probably will not have equipment by the end of 
fiscal year 2012, which is a big concern to all of us, because 
we know the value of these units, we know the experience of the 
pilots and the maintenance people; you know those, certainly, 
better than I do.
    So, where do we stand? The Air Force and the Department has 
said that we can reevaluate the amount of flying life left on 
the legacy fighters. Those are the F-16 and F-15 aircraft. So, 
if they reevaluate it and extend the life of the aircraft, they 
can be used longer.
    They also, obviously, have invested a great deal of capital 
in the development of the F-35, and their planning assumptions 
are that they will build more F-35s--go from 48 to 80 per year 
in their budget--and that's a significant change over when I 
first talked to you about what is the Air Guard's Plan B.
    So, with that consideration, and the fact that the United 
States Air Force and the Department has not entertained any 4.5 
new aircraft, there's also a new feature on the table now that 
would allow for service-life extensions of our Block 40 and 50 
aircraft. My concern--and I've expressed this to the Chief of 
Staff of the Air Force--is that most of our units fly the Block 
30 F-16. Those are older F-16s that are very capable today, 
but, without a significant amount of modernization money, will 
become less relevant and, potentially, less safe to fly over a 
period of time.
    So, those are the new dynamics that we face as we work 
within our services to make sure we reequip the Air National 
Guard.
    Senator Bond. Let me add--because I'd like you and General 
Wyatt to comment on this--the Navy is concerned about the F-35s 
being ready and available, and even whether they can fly off of 
carriers. They are looking at purchasing some 4.5 generation. 
And while they're talking about a Service Life Extension 
Program, or SLEP, it costs almost as much as one-half of 
purchasing a new airplane to get a SLEP, and you have much less 
capability than one-half the life of a new airplane. And I am 
curious why, with the tremendous production delays, the 
performance questions, and the huge cost overrun--which can do 
nothing but continue to build--there isn't a consideration of 
getting the 4.5 or, some would say, the 4.8 generations--15s, 
16s, and 18s. And I'd appreciate it if either you or General 
Wyatt would comment on that.
    General Wyatt. Senator, I would suggest that we now have 
some information available to us that we didn't have when we 
met, 1 year ago, at this time. There have been, obviously, 
decisions made regarding the F-35 program through RMD 700.
    We continue to work with the United States Air Force on 
alternatives and options to address the fighter bathtub, which, 
unlike last year, we are now in sync with the United States Air 
Force, as far as how many jets we're talking about and the risk 
out over the next few years.
    As you're well aware, though, the risk is greater for the 
Air National Guard, because Air National Guard has a 
preponderance of the older airplanes, the F-16 pre-Block 40s, 
the Block 30s. And so, our problem is near term, especially 
when we talk about the fact that, of the 18 Air Sovereignty 
Alert sites around the country, 16 of those are manned by the 
Air National Guard. And of those 16, 9 and sometimes 10 of 
those Alert sites are manned by these older Block 30 F-16s. So, 
it is a primary concern of mine that we address a plan to make 
sure that we have the capability, in the near term, as we wait 
for the fielding of the F-35, whenever that may be.
    We continue to work options with the Air Force, but one of 
the options that the Air Force is not working, at the current 
time, is the fourth generation 4.5/4.8. That's not one of the 
options that we are considering. That's not to say that, should 
circumstances change between now and the next time we have an 
opportunity to come before this subcommittee, that that might 
not be a consideration of the Air Force, but, at the current 
time, that's not part of the plan.
    We have offered up and continue working with the Air Force 
to address this fighter bathtub, considering things such as the 
previously mentioned Service Life Extension Program. It is 
expensive. It does extend the life-frame of our Block 30s, if 
the decision were made to do that, for 4\1/2\ to 5 years. But, 
it, so far, has not been programmed to be done.
    We've talked about the concurrent--and you mentioned it 
earlier--concurrent and proportional bed-down of the F-35 in 
the Air National Guard, whenever it is eventually fielded. And 
there are some reports, that the Air Force is required to file 
here pretty soon, as a result of NDAA 2010, wherein the Air 
Force will address, specifically, the question of, What is the 
intent of the Air Force regarding concurrent and proportional 
bed-down of fifth-generation aircraft in the Air National 
Guard? Those reports have not been filed, so I don't feel at 
liberty to speculate on what they might say, but would suggest 
the subcommittee take a look at those when they come in.
    We've talked about a possibility of leveling the squadron 
size across the combat air forces--Active, Guard, and Reserve--
from 24 to 18 aircraft, and flow those legacy airplanes to the 
Guard, primarily in the form of Block 40 and 50 F-16s, some A-
10s, perhaps some F-15Es, that could result in the flow of 
about 180 jets to the Air National Guard and the Air Force 
Reserve to address the problem with the age-out of the Block 
30s.
    And we've talked about, when the F-35 is eventually 
fielded, to initially field that in numbers of 18 aircraft, as 
opposed to 24, so that you can spread the fielding out among 
all three components, and better service the United States Air 
Force.
    We continue to talk about the possible need, because of the 
delay in getting the F-35 in the inventory, of increased 
acquisition numbers, from 80 to 110; an expensive proposition, 
as you have previously pointed out.
    We also look at transitioning some of these fighter units 
to remotely piloted aircraft, and then maybe some other 
nonflying missions. But, in the end, we face that latter 
circumstance.
    Senator Bond. Well, General, I don't want to impose any 
more. I have one followup question on that. Maybe I'm getting 
old and cynical, but to think that the Air Guard is going to 
get the Joint Strike Fighter when that comes off the line--
whenever it comes off the line--at the same time the Actives 
get it, is something I just--I am from the Show Me State, and I 
will only believe it when I see it--when, very shortly, 80 
percent of the Guard's F-16s will hit the end of their service 
life. What will the total shortfall be that would have to be 
filled in with SLEPs of the existing Block 30s, with whatever 
is left over from the Active Air Force; 15s, 16s, F-4s, 
Cessnas, or whatever it is that they're going to fill it in 
with? What's the total number in that bathtub, before you start 
looking at all the options you have to pursue?
    General McKinley. Senator Bond, I asked that of the Air 
Force today. And outside this future years defense programs 
(FYDP), the Air Force is predicting 135 aircraft, a gap. That's 
outside the 2012-17 FYDP. That's from the United States Air 
Force.
    Senator Bond. All right.
    General McKinley. But, for the Air National Guard, as I 
look at our portfolio, closest wolf to the sled right now, we 
have about 10 Block 30 F-16 units. Those are the ones that will 
require attention the quickest, and will require General Wyatt, 
in the United States Air Force, to come up with a solution to 
either extend the life of those airplanes, to keep them flying 
longer, if it's relevant and safe--I'm very concerned about the 
safety of the aircrew in these older legacy fighters--or, we 
have to find alternative missions. Because the last thing that 
I want to see is a wing of aircraft leave, and leave 1,200 
people at a location with nothing to do. That's just not in the 
interest of the American citizen.
    Senator Bond. Finally, the number of Block 30s in those 10 
units, what is the number of airplanes that--and do you know 
the date--the service-life date range when they would be past 
service?
    General Wyatt. Yes, sir. Most of our Air National Guard 
wings are 18 aircraft, so those 10 wings would equate to that 
180 airplanes. And we are now in sync with the Air Force on the 
estimations of when the service life will expire, and we're 
looking at somewhere right around the 2017 timeframe when most 
of those Block 30s will hit the age out. Now, some will age out 
a little bit before then, and some will age out a little bit 
after that. But, as far as combat capability in a squadron-size 
formation, we're looking at about 10 wings.
    Senator Bond. Thank you very much.
    And, Mr. Chairman, I apologize, I have a bunch more 
questions I'll submit for the record, but I thank you very much 
for your kindness.
    Chairman Inouye. Thank you.
    Senator Leahy.

                        NATIONAL GUARD EQUIPMENT

    Senator Leahy. Well, thank you.
    And, again, I thank Senator Bond for his work all these 
years on the National Guard Caucus. I must say, Kit, as I've 
told you before, it was very helpful to have someone beside me 
who was a former Governor because you brought a perspective 
which was very, very helpful.
    General McKinley, it is nice to see you here, as always. 
I've enjoyed the times you've visited us in Vermont. And I've 
enjoyed being here with you. I was very proud to be there the 
day you were awarded your fourth star, and to be there with 
your family; a very nice family, I might add.
    What I worry about is how the Army and Air Guard still fall 
short of the equipment and the aircraft they need. I've 
introduced legislation, along with Senator Bond, to establish a 
dedicated budget line for the Army and the Air National Guard. 
Would you agree we ought to do that?
    General McKinley. In my opening comments, Senator Leahy, I 
said that we really do depend on our services for our equipment 
and our operations and maintenance, as do the other Reserve 
Chiefs; there's no doubt about it. And it's tough engagement, 
and as we build a budget, to convince the Air Force and the 
Army of our needs. I especially have found, since I've become 
the Chief of the National Guard Bureau, that many of our 
domestic requirements fall below the lines, quite frankly, on 
many of our Active Duty budgets, simply because there's not 
enough investment capital to take care of both the home game 
and away.
    My bottom line, sir, is, through the support of committees 
like this, we've been able to mitigate the effects of loss of 
purchasing power and equipage through the budgetary process. If 
it gets tighter, which everybody forecasts it to be over the 
next 3 to 5 years, with budgetary pressure, I'm afraid that 
both my colleagues on left and right are going to find it more 
difficult to equip the units in the fashion that they need to 
sustain the capability of both Army and Air Guard units.
    What that leads us to, Senator Leahy--I've got to tell you, 
I've got to stay within the Department bounds, here, but we 
will run into a budgetary crisis in reequipping the National 
Guard as soon as the budgetary pressure starts to set in. And, 
as you could tell from Senator Bond's question, we may already 
be there with the Air National Guard.
    Senator Leahy. Of course, Senator Bond and I have the 
privilege of not being within departmental guidelines and we 
can do what we want to do. We answer to the voters in our own 
State.
    I'm not trying to set up a conflict between the Guard and 
the Regular Army or Air Force. I just want less time to be 
spent on conflicts inside the Pentagon and more time spent 
concentrating on your mission.
    Senator Bond mentioned people calling for help, in Katrina 
and elsewhere. You're forced to reply, ``We're happy to send 
help, but all our equipment is overseas.'' I think there has to 
be--you understand this--a balance here. We're all aware of the 
number of people from all of the State Guards that are 
overseas, either in Iraq or Afghanistan. We have the largest 
deployment of the Vermont Guard that we've had since World War 
II. I mean, this is very, very significant--thousands of people 
from a little State like ours. We're very proud of all these 
men and women. They have been extraordinarily well trained. 
When I go to Iraq or Afghanistan, and I talk to the commanders 
on the field, they make no differentiation between the Guard 
and the Regular Army or Air Force today, because they're all 
integrated, they're all working together. And many times, I 
know, when I've gone from one part of the theater to the other, 
I'm very often on a Guard plane or helicopter.
    General Carpenter, you'd be proud of the pilots that you 
have flying those helicopters.
    But the problems at home continue just the same. God forbid 
that we have another major earthquake on the west coast, but we 
remember what happened when the major one that struck 
California. Had it not been for the Guard, that disaster could 
have been even worse than it was. Or what happens in wildfires, 
what happens in rescue missions, what happens in floods, and 
the whole litany? We know that the Guard is not just homeland 
security. And we know that, in all likelihood, they're going to 
be called up to go overseas more in the future. We have got to 
find a way to get both into the budget.
    General Carpenter, I mentioned the Army Guard equipment 
shortfall. The situation has improved, but I believe the 
Guard's at only 77 percent of equipment levels. Does the fiscal 
year 2011 budget request more? Where are we going to be over 
the next couple of years?
    General Carpenter. Sir, as I mentioned in my opening 
statement, the equipment that we have coming to the Army 
National Guard is unprecedented. The modernization piece, as I 
mentioned, is going to allow us to retire the venerable 
``deuce-and-a-half,'' this next year. And we retired the UH-1 
helicopter, here, this past year.
    And so, a couple of years ago, we started into this process 
of transparency. Prior to that point, all we saw was the 
dollars that got appropriated, and we were guessing, or hoping, 
that the equipment came out the other end and showed up in the 
vehicle storage areas.
    The Army and the Army Guard and the Army Reserve have made 
great progress in that, to the point where I think we can give 
you pretty much an 80-percent affirmative that what you 
appropriate in Congress for the Guard, as far as equipment is 
concerned, is going to show up, with a time lag, obviously, 
inside the Army National Guard.
    If the promises made to keep the Army National Guard as an 
operational force are carried out through the next POM, the 
program objective memorandum, we'll continue to improve, sir. 
But, as General McKinley mentioned, the issue here is going to 
be pressure on the budget. And as those pressures come to bear, 
those POM dollars, those projected programs, are likely to 
change; and our concern, obviously is, is that it's a 
proportional change between the Army Guard and the Army. And I 
guess that's something yet to be seen.
    Senator Leahy. I think perhaps you and I should talk 
further about this later on, but I am concerned.

                                 C-130

    And, Mr. Chairman, my last question is about a letter that 
Senator Bond and I sent this morning to Secretary Donley. I 
address this question to General McKinley. We asked Secretary 
Donley to reconsider the decision to move C-130 airframes out 
of the Air National Guard into the Active component. Of course, 
I have not yet heard back from him. I'm not asking you to 
indicate what he might say, but I worry that we are robbing 
Peter to pay Paul. It seemed like the Air Force, while they 
said they were studying the C-130 issue, offered the fiscal 
year 2011 budget that went ahead and cut Air Guard C-130 force 
structure. I hear that military airlift throughout the world is 
stretched to the maximum. Certainly, I hear that message when I 
go to other parts of the world. Were you consulted by the Air 
Force leadership before the decision was made to draw down the 
Air Guard C-130 force structure? And, if so, what did you 
recommend?
    General McKinley. I personally was not consulted. I have 
brought the matter to the Chief of Staff of the Air Force's 
attention, and he was very willing to discuss it with me. He, 
in turn, has asked his staff to revisit this issue. Not only 
did it affect our Air National Guard C-130s, General Stenner 
and some of his Air Force Reserve C-130s were included, too. 
And, Senator Leahy, as I said in my opening remarks, some of 
this is post-BRAC movement of aircraft. But, the analysis and 
the assumptions made to reduce the C-130Es, the oldest of our 
Air Force C-130s, has led some to believe, in the Air Force, 
from what I understand after I've talked to General Wyatt, that 
those aircraft need to be retired, that funds need to be used 
for other purposes.
    I certainly want to work with the United States Air Force 
to make sure that the analysis and the assumptions that they 
drew, which were part of a mobility capabilities requirements 
study (MCRS) for mobility aircraft, which included all of our 
lift aircraft, was done with the appropriate considerations to 
protecting of our homeland, for supporting our Army in direct 
support mission. And so, I'm asking the Chief of Staff to take 
a look at this slide deck.
    Senator Leahy. Well, I'm going to be very interested in 
hearing the response. I've been on more C-130s than I'd like to 
think about. As one pilot told me, ``It's the only aircraft 
pressurized to keep this noise inside.'' I can see some nodding 
heads in the back. I've been on these in all parts of the 
world; in fact, even once with Chairman Inouye. And virtually 
every time, they are being flown by a Guard unit. So, I'll be 
anxious to hear the response from the Secretary. And you and I 
will probably discuss this further.
    Thank you for your courtesy, Mr. Chairman, in giving me 
this time.
    Chairman Inouye. Thank you very much.

                                SUICIDE

    General Carpenter, I will be submitting questions on the 
upgrade of Blackhawks and your shortfall on equipment. But, may 
I ask one question? Last year, your suicide rates went up 75 
percent. And you have responded to that. Is the program 
sufficient?
    General Carpenter. Sir, we are alarmed by the suicide rates 
we're seeing inside the Army National Guard, also. January was 
the highest ever, in terms of the number of suicide rates we've 
experienced; above last year. That declined in February, to the 
point where currently we have experienced 24 suspected suicides 
in fiscal year 2010, against a number of 22 last year.
    Senator Brownback, I think, is probably very familiar with 
the initiatives that are being made by Kansas and the adjutant 
general of Kansas, in terms of the resiliency program. In 
addition to that, the Army at large is seriously engaged with 
the Vice Chief of Staff of the Army, in terms of dealing with 
the suicide rates.
    Obviously, this is for the most part, a function of stress 
on our forces. Although in the Army Guard we have a little bit 
of an anomaly, because you find that almost one-half of the 
suicides we're experiencing are from soldiers who haven't even 
deployed. And so, there's more to this than just the 
mobilization and deployment piece.
    But, the issue--the bottom line issue, as the Army has 
viewed it--and I agree with them, and I think most do--is, it 
is preparing people for situations that are almost 
overwhelming, in many cases. And we see that in our young 
people. We see that inside our soldiers. We see that in the 
families. And so, we've got to build a resiliency out there to 
be able to sustain those tough times and to be able to not look 
at suicide as a viable option.
    And so, we are engaged with the Army on their Soldier 
Fitness Program. We are engaged with Kansas and General 
Bunting, in terms of the Flash Forward Program. And, frankly, 
we are trying to gather all the resources we can find to come 
to bear on this problem. And it's very serious.
    General McKinley. Senator Inouye, I'd like to thank General 
Casey and General Chiarelli for doing so much in the United 
States Army to address this situation. I'd also like to thank 
the State of Kansas for partnering. These types of programs are 
essential so that we can continue to take care of deploying 
airmen and soldiers. I think all of us are very concerned about 
the rapid rise in suicide and attempted suicide. And only 
through resiliency dollars--and thanks to this subcommittee for 
realizing that these programs require money to be successful--
have we been able to get our arms around this very, very 
serious problem.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman.
    I am curious to know, General Carpenter, about the 
transition that is taking place into making the Army not just a 
National Guard force with traditional responsibilities, but 
actually an operational force, ready to go to the field--
possibly combat right away. How well is the Army National Guard 
adjusting, in your opinion, to this transition? Is it too much 
for you to handle? Should we take another look at this and 
maybe take a step back and modify what we're trying to do? 
What's your assessment of the success of this?
    General Carpenter. Sir, as I mentioned in my opening 
statement, the National Guard that we have right now is far 
different from the one I joined, you know, a lot of years ago. 
And as we went into the--what was then the global war on 
terrorism, after 9/11, we had soldiers who had joined the Army 
National Guard, not expecting to be deployed. And those great 
soldiers deployed, some of them being from the 155th, and they 
went and did their duty, and they were proud of what they had 
done. They came back home, and they came to grips with the idea 
that maybe that wasn't quite what they had in mind, didn't fit 
into their lifestyle; their employers and their families said, 
``You know, this isn't quite what we signed up for,'' and they 
made decisions to leave our formations. And that caused the 
recruiting crisis we saw in the Army National Guard in 2005. 
And General Vaughn, my predecessor, was key in turning that 
around.
    Since that time, we have had a different look at how we 
recruit people into the Army National Guard. The people we 
recruit in to our formations now, as was mentioned, are 
expecting to deploy. It's not if they're going to deploy, it is 
when they're going to deploy. And they have come to grips with 
that idea. And I think that, for the most part, we have an Army 
National Guard that is, at least in terms of mindset, an 
operational organization.
    What we've got to do is, we've got to make sure that we 
provide the enablers, the resourcing, for those young soldiers 
to go out and do what they're supposed to do.

                           OPERATIONAL FORCE

    Operational, at least in my definition, is manning the 
force, equipping the force, and then training the force, and 
then, finally, having access to that force. And the access 
discussion is one we have regularly in the Pentagon.
    But, my response is that we are exceeding the recruiting 
goals, we are exceeding the retention goals. We are stressed, 
we are sending soldiers more frequently than what we would 
like. But, frankly, sir, I've got to tell you, we are doing 
very well in this operational force.
    General Campbell, who's the FORSCOM Commander, his comment 
on the operational National Guard and operational Reserve is 
that it is a national treasure, one which we abandon at our own 
peril.
    So, sir, the enablers, I think, are the key piece.
    Senator Cochran. Well, that's very impressive, and we 
appreciate your leadership in helping achieve these results.
    General Wyatt, I was going to ask you the same question. 
What's your response?
    General Wyatt. Senator, the way the Air Force has used its 
Reserve component since about 1990 has been as an operational 
force. And we have been fortunate to enjoy the support of the 
United States Air Force in making sure that we train to the 
same standards, have the opportunities to deploy. And our 
deployment record speaks for itself. We are accessible, we are 
available.
    And again, the Air Guard is kind of like the Army National 
Guard; not the Air Guard that I joined, back in 1977. We've 
come a long way. But, in spite of the operations tempo, we 
continue to man our force at over 100 percent of our end 
strength. As we speak today, I believe our numbers are about 
1,400 airmen over end strength, gradually coming back down to 
our target. But, our retention rate has exceeded the 
requirements. We have the highest retention rate of any of the 
Reserve components, at close to 91 percent. People want to join 
our formations, and they want to stay in our formations.
    Our concern continues to be the modernization of our 
equipment to make sure that we provide the combat capability 
that this country needs in the Reserve component. Similar 
challenges that, I'm sure, General Stenner faces with the Air 
Force Reserve.
    But, we continue to work those issues with the Air Force. 
In those areas where we need some additional help with our 
modernization, both for the warfight and for the domestic 
mission overseas, this subcommittee has been extremely 
supportive with the NGREA accounts, and it keeps us relevant 
and in the fight.
    We do have this issue that Senator Bond has brought to the 
attention of the subcommittee today. We continue to work 
through that. But, it is a resilient force, continues to be 
available anytime we're called, and readily accessible.
    Senator Cochran. Well, we appreciate your leadership very 
much. Thank you for your service.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thank you, to all of you, for the service that you 
provide and for the tremendous work you're doing and all those 
who stand behind you.
    And I especially want to recognize Staff Sergeant Kenneth 
Walker, behind you there. I wasn't here when you were 
introduced earlier, because I was at a Veterans Affairs 
Committee hearing. But, we're delighted you're at Camp Murray, 
and know it's a great place, and appreciate all your service to 
our country. So, welcome to you.
    I wanted to ask, today--we all know the economy is really 
struggling, and our folks are coming home from Iraq and 
Afghanistan to a lot of hardships that make it extremely 
difficult for them. In the State of Washington, our National 
Guard unemployment is over 14 percent, versus what our State 
is, at 9\1/2\ percent unemployment. And in the last 3 years--
Senator Inouye asked about the issue of suicide--we've seen 
seven suicides, with five of those tied to the guardsmen's 
financial situation. Twenty-one hundred Washington National 
Guardsmen live at or below the poverty line, as a result of 
employment when they come home. And I am really concerned, and 
increasingly concerned, about our soldiers' mental and 
emotional well-being as they return home from their service 
into the financial instability that their families are facing, 
and wanted to ask all of you what the National Guard is doing, 
really across the country, to help these National Guard 
soldiers, and their families, when they return home from 
deployment to this financial hardship they're facing today.
    General McKinley. Senator Murray, thank you for your 
question. And I just returned from Washington State, had a 
great briefing from the adjutant general, Tom Lowenberg, about 
these very serious concerns that he has. I will tell you that 
our deploying soldiers and airmen are facing challenges that 
none of us, on this panel certainly, ever did in our military 
careers. The stresses, the strains, the financial difficulties, 
the times we live in, the stress on the family, the fact that 
we've had continuous rotations, obviously have created an 
environment where many of our young soldiers and airmen 
struggle to make ends meet.
    General Carpenter has got several programs he would like to 
cover with this, but I would like to say that we benchmarked 
off some of the other Reserve component forces. General Stultz, 
who will follow us, has done some outstanding work with the 
Army Reserve in trying to address those needs.
    But, Ray, if you'll cover the Army Guard, and, Bud, what 
you've done on the Air side, please.

                                FAMILIES

    General Carpenter. First of all, I know you know the 81st 
Brigade from Washington is back home, and they probably----
    Senator Murray. Yeah.
    General Carpenter [continuing]. Are exactly the population 
you're talking about, in terms of what they're experiencing, in 
terms of coming back off from a mobilization, and the job 
market that they face.
    As we looked at it--you are exactly on point, Senator--the 
unemployment rate for the Army National Guardsmen who come back 
is about 3 points above what we expect. As General McKinley 
mentioned, we have partnered with General Stultz in a number of 
initiatives; ``Helmets to Hardhats,'' for instance, is one that 
he has championed. He has also, and we have across the States, 
signed employment partnerships with Indiana, Chicago, 
California. And the whole effort, here, is to find guardsmen 
and reservists who are in exactly the plight that you've just 
described, and find a way for them to find a job and again 
return to some sort of meaningful lifestyle after deployment.
    It's not easy, and, frankly, the economic times have 
presented even a larger challenge than we had 3 or 4 years ago. 
But, that doesn't mean we shouldn't start into it and get about 
this business.
    Beyond that, we have a significant number of soldiers who 
are on what we call ADOS, additional duty operational support, 
which puts them on orders to support other units that are 
mobilizing and deploying. And with the qualifications of the 
soldiers you have in Washington, to the extent that they're 
willing to be part of that program, there are some 
opportunities there.
    Taking care of the soldiers is the Yellow Ribbon Program, 
which I know you're very familiar with. The State of 
Washington, and General Lowenberg and his staff out there, have 
done great work, in terms of getting to those soldiers and 
families that need help, that deserve the help.
    As I say, there's more to this war than just crossing the 
berm for Baghdad. We have soldiers who deserve care, and 
absolutely are entitled to the care, after they come home. And 
whether it happens to be emotional issues or whether it happens 
to be job issues----
    Senator Murray. Well, and we're redeploying them again. And 
are you concerned about the readiness factor, if they come 
home, they're unemployed, their families are in financial 
hardships, they get called up again? How's readiness----
    General Carpenter. Absolutely.
    Senator Murray [continuing]. Affected?
    General Carpenter. Eighty percent of our force is what we 
call a traditional Guard force. That means that they have an 
employer out there--they're doing something else besides being 
full-time in the National Guard. And if we didn't have the 
employer support that we've got out there today, we wouldn't 
have a National Guard. So, we are very mindful of that. And it 
is a readiness issue. Unlike the--our Active component 
counterparts, we have to have that support for us to be able to 
sustain and for us to ask the soldiers in the 81st Brigade to 
go back again.
    Senator Murray. Yeah.
    General Wyatt.
    General Wyatt. Senator Murray, we continue to leverage the 
strengths and the best practices, as General McKinley's 
indicated, from some of our brothers and sisters in the Reserve 
component. We enjoy the opportunity to partner with the Army 
National Guard, through the leadership of the adjutants general 
in the respective States, territories, and the District of 
Columbia, to leverage those resources that the Army National 
Guard provides, and then those that the Air National Guard 
provides.
    We have, at each of our wings--we are a wingcentric 
organization, and our outreach to our airmen is primarily 
through the wing leadership, obviously under the supervision 
and direction and command of the adjutant general. But, we have 
a wing--wing family support coordinators at each of our 88 wing 
locations. In addition to that, we're in the process of 
contracting for what we call behavioral health professionals 
that will address the mental health issues that you talked 
about just a few moments ago. These individuals will be 
provided to the adjutants general to be placed within their 
States, at his or her direction. They are also available to 
service the needs of any of the other Reserve components who 
may happen to be within the boundaries of that State. It's not 
just exclusively a service provided to the National Guard; it 
is made available to all members of the military.
    We are also embarking upon a process to make sure that the 
available resources out there are efficiently used and that the 
communication with our individual wing members is such that 
they know the programs are there, they know the avenues through 
which they can access those programs, whether they be provided 
by the National Guard, Army Reserve, Air Force Reserve, or 
Active Duty. And we are working with the Active Duty to 
strengthen the access to Active Duty programs that usually 
surface at Active Duty bases, but also being made available to 
our Air Force, Reserve, and Guardsmen.
    Senator Murray. Okay. I think we really need to focus on 
this, because I do believe it's a readiness issue, and I see 
those families struggling, and it's a tough time for everybody.

                           HEALTH ASSESSMENTS

    General McKinley, it's my understanding that some of the 
returning National Guard members are not honest on their 
postdeployment health assessments, simply because they don't 
want to be delayed going home. Totally understandable. I wanted 
to ask you if it would be beneficial to require the 
postdeployment health assessment at their home station instead 
of the demobilization site, to make sure that they can get 
assistance at home, in order to properly assess their mental 
health status.
    General McKinley. Ma'am, I think anything that we can do to 
help soldiers return home quickly, get back into their normal 
life cycle, and then give them the care that they need and 
deserve from their deployment, would be helpful.
    General Carpenter, have you heard that the Army is looking 
at doing any of this?
    General Carpenter. We have a ongoing study with the Army 
right now. Retired General Franks is looking at the Medical 
Evaluation Board process, something that hasn't been looked at 
for almost 30 years inside the Reserve component. Part of that 
has to do with how we handle soldiers as they go through the 
demobilization process. And you are, again, absolutely right on 
the money, Senator, in terms of the people who want to get home 
and be with their families, as opposed to spend time at 
whatever installation they're being----
    Senator Murray. And they're afraid----
    General Carpenter [continuing]. Processed----
    Senator Murray. And I hear it all the time, they're afraid 
to say something is wrong, because they don't want to sit 
there, miles and thousands of miles away from family. So----
    General Carpenter. Yes, Senator. And the initiative that's 
being considered, at this point, is for the soldier to be 
honest with whatever emotional or physical problems they might 
have, be allowed to go home, be with their families, and then 
allow them to return to get the necessary treatment, whether it 
happens to be at the installation or whether it happens to be 
elsewhere. Because if they don't do that, and somehow or other 
we have to treat them through other programs, they are 
disadvantaged, in terms of the benefits that they get. And so, 
we in the Army Guard, and in conjunction with the Army, are 
looking at that and trying----
    Senator Murray. Okay.
    General Carpenter [continuing]. To use that perhaps----
    Senator Murray. I think that's----
    General Carpenter [continuing]. As a solution.
    Senator Murray [continuing]. Important to do. I mean, I 
understand how much easier it is to keep track of people at one 
place, but readiness is an issue, again. And if we don't get 
them home and with their families, and get them the care they 
need, then we're going to be in trouble in the future, and 
certainly they are.
    General McKinley. Ma'am, I'll bring it up with General 
Casey when I see him later today.
    Senator Murray. Okay, very good.
    Finally, my last quick question. In the State of 
Washington, we're very interested in adding a Stryker Brigade 
Combat Team to the Army National Guard, and wanted to ask you 
how an additional Stryker brigade would be beneficial to the 
Army National Guard.
    General McKinley. Well, we certainly had great success with 
our Pennsylvania Stryker formation that went over to Iraq. 
We're very pleased at the results. Obviously, again, Ma'am, 
General Casey and his leadership team, in concert with the 
leadership team of the Army National Guard, working with the 
Governors and working with the States, will decide the future 
acquisition strategy of Stryker.
    But, if you're asking our personal opinion, I think, 
representing the organization in a whole, we would welcome the 
opportunity to see additional Stryker brigades in the National 
Guard. And I'm sure my counterparts behind me would agree, too.
    It's a great, great platform, that we have found works 
extremely successfully in the combat theater, and we think it 
has applications here at home, also.
    Senator Murray. Okay, very good, thank you.
    And thank you, again, to all of you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And, gentlemen, I thank you very much for the testimony 
this morning. And we're grateful for your service to our 
Nation, and, through you, may we thank the men and women of 
your command for their service to our Nation. We appreciate it 
very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to General Craig R. McKinley

            Questions Submitted by Chairman Daniel K. Inouye

                     ARMY AND AIR GUARD--EQUIPMENT

    Question. General McKinley, the equipment levels of the Army and 
Air Guard have improved significantly in the last 3 years, in large 
part due to additional equipment funding provided by Congress. The Army 
Guard now has 77 percent of its equipment requirements, up from 40 
percent in fiscal year 2006. Do you believe that the Army and Air Force 
have adequately budgeted for Guard equipment requirements through the 
remainder of the future year defense plan?
    Answer. The Army National Guard (ARNG) believes $3.5 billion to 
$4.5 billion is required each year of the future year defense plan to 
sustain at its current operational capability as an operational 
reserve. The current funding profile has a steady decline starting in 
fiscal year 2009 through fiscal year 2011. Additional funding is 
required to increase the modernization level to maintain not only 
modernization parody with the Active Component, but also to sustain and 
improve existing equipping interoperability.
    Between fiscal year 2006 and fiscal year 2010, Headquarters 
Department of the Army invested approximately $29 billion in funding 
for procurement and modernization of ARNG equipment. While overall 
growth in equipment readiness and Equipment on Hand increases have been 
modest during this period, the ARNG's ability to respond to domestic 
incidents has increased dramatically. Equipment on Hand levels for 
Critical Dual Use items improved from 66 percent in fiscal year 2007 to 
84 percent by the end of fiscal year 2009. Furthermore, the ARNG is 
projected to reach 87 percent of Critical Dual Use Equipment on Hand by 
fiscal year 2011.
    The Air Force continues to budget the Air National Guard as an 
operational force; however, the modernization and recapitalization 
challenges the Air Force is facing continues to affect equipment 
readiness across all components. We are working with the Air Force and 
its major commands to find solutions to recapitalization of the ANG's 
equipment used in domestic and overseas contingency operations. 
Equipment readiness presents greater challenges as long-term costs in 
operating and maintaining older aircraft continue to rise due to more 
frequent repairs, fluctuations in fuel prices, and manpower 
requirements. The cost of aircraft maintenance continues to rise 
significantly as we struggle to extend the life of our aging fleet. 
This infrastructure of equipment is not just fighters; it includes 
tankers, air traffic control, command and control, security, and, 
communications--the entire system supporting and protecting our 
nation's last line of defense.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. The majority of the Army National Guard (ARNG) equipping 
shortfalls exist in modernization of Aviation platforms, Force 
Protection, Communication and Transportation equipment. Specifically 
the ARNG is concerned with the modernization of UH-60A to UH-60L 
models, the Medium Truck fleet, High Mobility Multi-purpose Wheeled 
Vehicles (or HMMWVs), Chemical Protection Shelters, and High Frequency 
Radios.
    Modernization of UH-60A to UH-60L models.--While the ARNG currently 
has sufficient quantities of UH-60 aircraft on hand, much of the fleet 
needs modernization. Failure to upgrade or replace these aircraft at a 
rate that outpaces obsolescence will degrade the ARNG's domestic and 
war fighting mission capabilities. The current UH-60 A-A-L program 
production rate is less than the established HQDA rate. This reduced 
production exacerbates the effort to modernize the existing UH-60 
fleet.
    Medium Truck Fleet.--The ARNG has an fiscal year 2016 Family Medium 
Tactical Vehicle (FMTV) requirement of 31,568 Medium Trucks with 24,417 
on-hand and only 12,009 of the 24,417 are modern. The ARNG is on path 
to divest all existing M800 Series Trucks by fiscal year 2012. Our 
legacy M939 Medium Tactical vehicles are projected to remain in the 
ARNG's inventory until fiscal year 2025. These M939 Series vehicles 
have an average age of 23 years and are becoming more difficult to 
sustain. The current Presidential budget for fiscal year 2011 will 
produce an additional 9,000 FMTVs and increase our modernization to 63 
percent.
    HMMWVs.--The ARNG has a fiscal year 2016 requirement for 44,286 
HMMWVs. After all new programmed procurement and Recapped assets are 
delivered to existing inventory, the ARNG will have 100 percent of the 
HMMWV requirement. After new production ends, the ARNG will still have 
legacy HMMWVs in the inventory that are in excess of 20 years old. It 
is estimated that 12,127 legacy HMMWVs will require Recapitalization 
before the end of their use. The programmed Recap program will update 
7,800 HMMWVs and will leave a shortfall of over 4,000 vehicles 
requiring a Recapitalization.
    Chemical Biological Protective Shelter System (CBPSS).--The ARNG 
has a fiscal year 2016 requirement for 291 systems. CBPSS is on 
contract with First Article Testing being conducted in May 2010 through 
March 2011. Pending success, full production is projected to begin in 
the second quarter of fiscal year 2011.
    High Frequency Radios.--The ARNG has a fiscal year 2016 requirement 
for 559 Global Broadcast System (GBS)/Receiver Suite: AN/TSR-8 
Satellite Communications Systems, with 35 on-hand. With projected 
fiscal year 2011 deliveries, the ARNG will have a shortfall of 515 
Global Broadcast System.
    The Air National Guard continues to face challenges within the 
Domestic Response framework with equipping Security Forces, command and 
control personnel, imagery analysts, engineers and medical personnel. 
There is a need for tactical vehicles for Security Forces to provide 
enhanced capability to conduct operations such as checkpoints, road 
closures, traffic control points, civil disturbance operations, town 
patrol, and similar ``on the street'' missions. Our security forces 
require weapons and accessories, upgraded mobility bags and enhanced 
security and traffic control kits. Direct imagery analysis suites or 
needed to provide direct imagery analysis support to first responders. 
Additional CBRNE Enhanced Response Force Packages are critical to 
support the Homeland Response Force teams. Explosive Ordnance Disposal 
(EOD) equipment is required by 17 ANG units to respond to hazardous 
chemical, biological, radiological, and nuclear incidents throughout 
the United States and abroad. We have a need for deployable power teams 
during disaster relief operations to provide stable power support, 
advice and technical assistance in all aspects of emergency electrical 
power and distribution systems. Other top equipment needs critical to 
Domestic Support are Disaster Relief Bed-down Sets, and Mobile Short 
Range Command and Control equipment.

               FAMILY SUPPORT AND YELLOW RIBBON PROGRAMS

    Question. General McKinley, one of the greatest priorities of this 
Committee is to ensure that service members and their families receive 
the support services they need. This is especially true for the 
families of the nearly 725,000 Guard and Reserve members that have been 
activated since September, 2001. Outreach efforts such as the Yellow 
Ribbon Reintegration Program are particularly important for guardsmen 
and families who are geographically dispersed across the country. Are 
family support programs fully funded in the fiscal year 2011 budget 
request? Are there programs, from your perspective, that could be 
improved?
    Answer. The National Guard Family Program is currently fully funded 
based on our fiscal year 2011 budget request. The National Guard Bureau 
continues to work through the Army and Air National Guard branches to 
ensure we are achieving maximum efficiencies from our funding. While we 
believe our Family Program does a very good job, we are always striving 
to do better. The continued support of Congress is greatly appreciated 
and will ensure our future success.
    Question. Gentlemen, the Yellow Ribbon Reintegration Program was 
established to provide outreach services and to support the members and 
families of the National Guard and Reserve. Can you please comment on 
the reintegration efforts for your component and whether or not your 
needs are being met?
    Answer. The National Guard has done a tremendous job ensuring that 
our service members and their Families are receiving the benefits of 
the Yellow Ribbon Reintegration Program (YRRP). From October 1, 2009 to 
September 4, 2010 the National Guard has hosted 1,298 events and 
activities in 270 different locations. These events and activities have 
supported 96,276 Army National Guard service members, 3,470 Air 
National Guard Service members, and 401 service members from other 
Reserve components. Additionally, 56,297 spouses, 9,446 parents, and 
21,391 child/youth have been supported through the National Guard 
Yellow Ribbon Reintegration Program during this period.
    As you can see from the statistics provided the National Guard has 
a robust Yellow Ribbon Reintegration Program. We are learning however, 
that in keeping with the intent of the YRRP legislation that we may 
potentially be providing the education, assistance, and resource 
information through the YRRP process too early and possibly for not 
nearly long enough. Feedback from our Commanders, program managers at 
the State level, and even some attendees at YRRP events and activities 
indicates that some of the major issues that are addressed as part of 
the YRRP process (psychological and physical issues, substance abuse, 
and possible suicide ideology, to name a few) do not actually manifest 
themselves until long after the Service member has attended their last 
YRRP event, which is currently the 90-day post deployment event.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                         MILITARY CONSTRUCTION

    Question. Can you explain how the National Guard Bureau prioritizes 
its military construction projects both in a current budget year and in 
the Future Years Defense Plan?
    Answer. This process starts with the submission by each of the 54 
States/Territories and the District of Columbia of prioritized lists of 
major military construction (Milcon) projects. Projects with Regional 
or National significance are included in the list.
    The projects are ranked against each other according to established 
criteria related to project characteristics. Those criteria are the 
following: Support of force modernization; joint use project; resolves 
existing health and safety or environmental problem; equitable 
distribution of projects (funding not received in previous years); 
replacement of facilities in poor condition; the Adjutant General (TAG) 
priority rating.
    The criteria are reviewed annually based on National Guard Bureau 
priorities. The Army and Air National Guard projects compete with other 
Army and Air Force Projects for funding. Entry into the Future Years 
Defense Plan, (FYDP), is the goal of the Infrastructure Requirements 
Plan and the amount of funding provided from the Army and Air Force.
    Question. What direction do you provide to State Guard Bureaus as 
they prepare their lists of priorities?
    Answer. Each year the States receive a guidance memo from the 
National Guard Bureau (NGB) along with any updates to our regulation on 
program development. The criteria are reviewed annually considering 
Army and NGB priorities. Those criteria are the following: Support of 
force modernization; joint use project; resolves existing health and 
safety or environmental problem; equitable distribution of projects; 
replacement of facilities in poor condition; and the Adjutant General 
Priority Rating.
    Question. What process do you use to prioritize and rank the 
requests from State Guard Bureaus into a nationwide list of military 
construction projects?
    Answer. The Army National Guard continues to use the Infrastructure 
Requirements Plan (IRP). This process starts with the submission by 
each of the 54 States/Territories/the District of Columbia of the top 
#1 and #2 major military construction (Milcon) projects. These are 
ranked against each other according to established criteria related to 
project characteristics. Those criteria are as follows: Support of 
force modernization; joint use project; resolves existing health and 
safety or environmental problem; equitable distribution of projects; 
replacement of facilities in poor condition; and the Adjutant General 
Priority Rating.
    This National Guard project list is provided to the Army as part of 
the budget process.
    Question. When, how, and why was this process established?
    Answer. Beginning in 1996, Congress was concerned about how the 
Army National Guard prioritized their Military Construction Projects. 
The National Guard took the opportunity and did a comprehensive review 
of its planning process. As a result, now has the Infrastructure 
Requirements Plan (IRP), a process which has served well for the past 
14 years.
    Question. It is my understanding that Army National Guard 
facilities are an average of 41 years old, 24 percent are over 70 years 
old, and the military construction requirements for Army Guard 
facilities has been estimated to be around $1.5 billion per year over 
the next 20 years to bring these facilities up to current standards. Is 
the Army National Guard's request for fiscal year 2011 sufficient to 
address the Army Guard's infrastructure needs?
    Answer. The current Future Years Defense Program contains only a 
fraction of what is necessary in both military construction (Milcon) 
and Operations and Maintenance (O&M) Restoration and Modernization to 
adequately refurbish these facilities to a standard that enables a 21st 
Century Army National Guard Operational Reserve. The Army Guard's 
request for Milcon is $873 million in fiscal year 2011 decreasing to 
$354 million in fiscal year 2015.
    The Army National Guard's plant replacement value for the over 
26,000 plus facilities is estimated to be more than $40 billion where 
40 percent of ARNG Facilities are greater than 50 years old. It would 
take in excess of $16 billion over the next 10 years to recapitalize 
just the aging facilities ($1.6 billion a year). A significant portion 
of the National Guard facilities inventory is readiness centers.
    Over 3,000 readiness centers, approximately 1,247 of them are 
greater than 50 years old and most will require recapitalization in the 
next decade. We will have a better understanding of our infrastructure 
investments needs once the National Readiness center study directed by 
the Senate Report 111-201 is completed. We plan to address our critical 
readiness center requirements with the required funding and more 
importantly stop the increasing decline of our facilities inventory 
condition and deficits to continue to meet mission readiness.
    Question. What is the average age of California Army National Guard 
facilities?
    Answer. The average age of California Army National Guard 
facilities is 48 years old.
    Question. Under the current FYDP and general facility replacement 
schedules, what will the nationwide average age of a National Guard 
facility be in 2020, 2030, and 2040?
    Answer. The following criteria and assumptions are applied to 
calculate ARNG responses:
  --Start point real property inventory used was September 2010 and 
        included active, semi-active, excess, caretaker, closed, and 
        surplus status facilities.
  --Inventory excluded TBA and disposed status facilities.
  --Inventory included both DOD and State owned and leased facilities.
  --Inventory included all facilities: buildings, structures and linear 
        structures.
  --Inventory included ARNG facilities on over 100 enclaves for which 
        the ARNG is responsible.
  --Assumed that the one for one disposal to offset additional new 
        construction remains in effect through 2040. Therefore no 
        additional disposal beyond the amount constructed is 
        considered.
  --Based on sizes of new construction versus facilities being disposed 
        assumed each newly constructed building is offset by two older 
        buildings.
  --ARNG will construct about 50 new facilities each year.
  --Facilities older than 50 years are not leaving the inventory 
        because they are eligible for historic status.
  --Facilities being constructed each year are replacing facilities 
        that are 50 years old.
  --These assumptions result in the overriding assumptions that under 
        the current FYDP and general facility replacement schedules, 
        each year 50 new facilities will replace 100 buildings that are 
        50 years old. This will reduce the total number of facilities 
        by 50/year and reduce the total number of years by 5,000 each 
        year. Based on these realistic assumptions given the number of 
        facilities (over 95,000) they make no measurable difference.
    Question. Under the current FYDP and general facility replacement 
schedules, what will the average age of a California National Guard 
facility be in 2020, 2030, and 2040?
    Answer. Under the current FYDP and general facility replacement 
schedules, the average age of California Army National Guard facilities 
will be 58 years in 2020, 68 years in 2030, and 78 years in 2040.

                         BLACKHAWK HELICOPTERS

    Question. California has a significant amount of high altitude 
terrain and heavy historical utilization of UH-60 and HH-60 Blackhawk 
helicopters in emergency response missions. What factors will the 
National Guard Bureau take into account when making the decision on 
where to assign additional modernized UH-60 L and M Blackhawk 
helicopters in the Army National Guard and HH-60 Blackhawks in the Air 
National Guard?
    Answer. Many factors are considered when stationing modernized 
helicopters in both the Army National Guard and Air National Guard. A 
major factor is the Army Force Generation Model that assigns units to 
deploy overseas for Federal missions. Other factors include 
availability of aircraft in a state and region by type and state of 
modernization, the terrain of the region and suitability of other 
ground and air assets to support operations.
    Question. Specifically, will you consider unique geographical 
constraints and historical utilization rates in emergency response 
missions when determining assignments? If not, why not?
    Answer. The National Guard does consider geography and the threat 
of natural disasters when stationing units. Historical utilization 
rates are considered and are balanced against the increased capacity of 
modernized aircraft.
    Question. What other factors will the National Guard Bureau take 
into account and how do you determine and prioritize/rank those 
factors?
    Answer. National Guard Bureau first considers the availability of a 
unit for the Warfight when fielding modernized aircraft in order to 
reduce sustainment and logistical support requirements when units that 
are stationed across multiple states merge together on a deployment. 
The next scheduled deployment is considered to ensure a unit has enough 
time to train on modernized aircraft between fielding of the equipment 
and deployment. Other factors such as terrain, availability of other 
aircraft and historical flood, fire, hurricane and other natural 
disasters is also considered.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. Tight budgets are going to force us to make the best 
possible use of government and military facilities. Kansas recently 
announced it is closing several armories due to budget constraints, and 
several State budgets are experiencing shortfalls. The Federal budget 
for facilities also is limited and likely to shrink in the future. 
Because of these constraints, it might be useful to consider shared-use 
facilities for Guardsmen, and other public safety-related state and 
Federal personnel.
    Have you considered a shared-use facilities concept? Are you aware 
of any short-term steps that might be taken to create shared-use 
facilities or any legal or policy barriers that would need to be 
addressed to make the concept work?
    Answer. The National Guard has considered shared-use facilities and 
has constructed many installations in conjunction with State or Federal 
agencies, including other components of the Armed Forces. We are taking 
short-term steps to identify Federal shared use facilities through 
Joint Service Reserve Component Review Boards. State shared used 
facilities are presenting more of a problem, as many States lack the 
budget for major construction at this time. In addition to State-share 
requirements, incompatibility issues with Anti-Terrorism/Force 
Protection criteria and other Federal regulations make sharing 
facilities with the States difficult. We feel that the report language 
to accompany the fiscal year 2011 National Defense Authorization Act 
(NDAA) directed Readiness Center Study will illustrate additional 
opportunities for shared use facilities.
    Question. Up to now, the various resiliency programs have existed 
on seed money provided through various accounts in Congress. I am 
concerned that these programs may not survive as budgets get tighter.
    What steps are you taking to capture the best practices from the 
various resiliency programs and make them available to Guardsmen and 
women around the country, and will you be able to institutionalize 
these resiliency programs as other priorities compete for space in the 
budget?
    Answer. The National Guard Bureau continues to work to develop more 
efficient and effective resiliency programs. One major success of the 
National Guard has been the The Yellow Ribbon Reintegration Program 
(YRRP). This program has worked extremely well for the Army and Air 
National Guard. Through May 2009, the National Guard has already 
conducted 619 events involving 47,182 service members and 58,350 family 
members. These attendees have had access to information, services, 
referrals, and proactive outreach to Services members, families, and 
employers throughout pre-deployment, deployment, and post-deployment.
    The YRRP is made available to all members of the Army and Air 
National Guard when they deploy. Additionally, the National Guard makes 
every attempt to ensure that all Service branches within our States, 
Territories and the District are included, whenever possible, in our 
Yellow Ribbon Reintegration Program process throughout all phases of 
the deployment cycle.
                                 ______
                                 
      Questions Submitted to Lieutenant General Harry M. Wyatt III

            Questions Submitted by Chairman Daniel K. Inouye

                  AIR NATIONAL GUARD FIGHTER SHORTFALL

    Question. General Wyatt, in the statement submitted for the record, 
you observed that ``80 percent of our F-16s will begin reaching the end 
of their service life in 7 years.'' Retiring these aircraft will 
significantly reduce the fighter aircraft that the Air National Guard 
has dedicated to the Combat Aviation and Air Sovereignty Alert 
missions. How serious a problem is the fighter shortfall facing the Air 
National Guard and what steps are being taken to reduce the associated 
risk?
    Answer. The ANG faces a substantial fighter force shortfall in the 
near term which becomes critical by fiscal year 2016-17. By fiscal year 
2017 up to six ANG F-16 units may reach the end of their service life. 
To address this risk, the Air Force is funding and executing full-scale 
fatigue tests on aging F-16 aircraft to determine the feasibility of a 
service life extension program (SLEP).
    Question. General Wyatt, what force management options could be 
taken if the F-16 fleet sees significant aircraft retirements before 
replacement aircraft are available?
    Answer. If recapitalization does not occur in a timely manner and 
the Air National Guard (ANG) experiences significant aircraft 
retirements without replacement, the only option available for units 
without aircraft is to retrain, relocate, or retire their experienced 
ANG personnel. A preferable alternative to ``retrain, relocate, or 
retire'' is concurrent and balanced recapitalization. Addressing the 
needs of the ANG during recapitalization efforts ensures the ANG and 
its highly efficient, knowledgeable, and cost efficient forces remain 
available for Combatant Commander tasking at Home and Abroad.

                     C-130 FORCE STRUCTURE CHANGES

    Question. General Wyatt, in fiscal year 2011 the Air National Guard 
will lose 18 aircraft through a combination of retiring 6 C-130Es and 
transferring 12 C-130Hs to the active component. To minimize the 
adverse impact, the plan is to remove one or two aircraft from multiple 
sites and reduce the size of the squadrons. The exception is a unit in 
Puerto Rico that will lose its last C-130Es next year. What is driving 
this change in your force structure and what are the consequences for 
the Air National Guard?
    Answer. Continuing budget pressures, the rising cost of maintaining 
and operating older weapons systems and the need to recapitalize aging 
tactical airlift assets are behind the programmatic actions in the 
fiscal year 2011 budget request. The reduction in airlift assets will 
result in fewer assets available to carry out both the Federal and 
State missions in response to any event or conflict. We are working 
with the Air Force and the Adjutants General to minimize the impact of 
the force structure changes.
    Question. The Air Guard unit at the Luis Munoz International 
Airport in Puerto Rico loses its last 6 aircraft (C-130Es) in fiscal 
year 2011. The Air Force has not yet decided what new mission the unit 
will receive.
    General Wyatt, we understand that the Air Force was concerned about 
having too much of the C-130 force in the Guard and Reserves. Can you 
shed some light on the problem being solved with the proposed shift of 
aircraft to the active component?
    Answer. Recent air force studies have suggested that there is an 
issue with the ratio of C-130's in the Guard and Reserves to those 
based in active duty units. The study suggests that the ability to 
access reserve component aircraft is limited, and could be fixed by 
basing more C-130's in the Active Duty. It is my belief that the ANG C-
130 community has proven over the last decade through volunteerism and 
mobilization that access to ANG iron is not an issue. Although our 
fleet size has been reduced by 20 percent due to BRAC and Air Force 
programmatic changes, we continue to increase our level of effort to 
the total airlift requirements of our nation. This level of ANG C-130 
fleet effort cannot be measured strictly by the number of tails 
currently deployed to Afghanistan and Iraq as studies have suggested, 
but should also include the total level of effort that our ANG C-130 
fleet shoulders on a daily basis. I would remind everyone that the 
first C-130 aircraft to respond to the gulf area after Hurricane 
Katrina was an ANG C-130. This is the norm, not the exception.
    Question. General Wyatt, the Puerto Rico ANG C-130 unit is 
scheduled to lose all of its aircraft in fiscal year 2011. Have you and 
the Air Force identified a new mission for this unit?
    Answer. We continue to work with the Air Force basing process to 
identify the future mission for our outstanding unit in Puerto Rico. We 
have made a strong case that our ANG unit in Puerto Rico possesses many 
unique abilities, including language and cultural skills that should be 
leveraged by the Air Force. We also conclude that the location of 
Puerto Rico is unique and valuable as our only permanent airlift unit 
location in the Caribbean.

              AIR NATIONAL GUARD--RECRUITING AND RETENTION

    Question. General Wyatt, in the last 4 years the Air Guard has 
undergone significant force structure adjustments. Most of these 
adjustments have been completed but there are still a few bases without 
long term missions. How has the restructuring affected recruiting and 
retention across the Guard and in particular at the units that still 
lack a future mission?
    Answer. Air National Guard recruiting and retention remains strong. 
The challenge as we move forward is to strike a delicate balance of 
remaining close to end strength while strengthening ``effective'' 
recruiting. We have been very successful with quickly matching missions 
for a majority of our units in transition and have been diligently 
working with the Air Force on the few units we have had trouble 
matching with follow-on missions.
    Question. General Wyatt, are you concerned that a decision on the 
new missions will not be reached in time to include funding in the 
fiscal year 2012 budget? What is holding up the decision?
    Answer. Our BRAC experiences have enabled us to rapidly match the 
right mission to the right unit. We will continue working with HAF to 
ensure the timely decisions and appropriate funding requests.
    The Executive Steering Group (ESG)--Strategic Basing Process is 
still a relatively new process and continues to be refined to increase 
efficiency. The ANG is fully integrated in the process and continues to 
work with HAF. While often time intensive, this deliberate process 
ensures the necessary vetting and review of basing actions.
                                 ______
                                 
              Question Submitted by Senator Sam Brownback

    Question. For the last few years, the Air National Guard has been 
working on a program to demonstrate the capabilities of the AT-6 light 
attack aircraft. During this time, the concept of a light attack 
aircraft has gained traction in various parts of the Department of 
Defense. In fact, the Air Force announced that it intends to purchase 
several light attack, armed reconnaissance (LAAR) aircraft beginning in 
fiscal year 2012.
    Has the active duty Air Force--or anyone else from across DOD, 
contacted the Air National Guard about lessons learned from the 
demonstration program? Alternatively, have you reached out to 
interested parties at DOD--to include the active duty component of the 
Air Force, the Navy, SOCOM and JFCOM--about the importance of the AT-6 
demonstration program and its relevance to the development of a LAAR-
type aircraft?
    Answer. The Air National Guard has been working closely with the 
Air Force on light attack efforts so that all involved are informed on 
the progress, results, and lessons learned from the various efforts. 
The AT-6 demonstration is a congressionally mandated demonstration that 
will provide platform-agnostic lessons learned that can be applied to 
any light attack effort or future acquisition programs. The Air Force 
has received inquiries about AT-6 Demo effort from the JFCOM/CC, EUCOM 
staff, and most recently, the Director of the Iraq Training and 
Advisory Mission. Air Guardsmen working the AT-6 demonstration at the 
ANG Test Center in Tucson and at the National Guard Bureau have 
actively kept SAF and HAF, JFCOM, and the OSD special capabilities 
office aware of program status and future plans. The first formal phase 
of the AT-6 demonstration flights in an operationally representative 
environment just started in late March and will conclude on April 22. 
We invited Navy personnel working the IMMINENT FURY program to observe 
the testing occurring at Nellis AFB April 12-22, and Air Force 
personnel will also be involved with the Nellis effort. We will 
actively share the results of that first phase, and the second phase of 
flights planned for August and September, with all organizations in DOD 
involved with Light Attack. We have also initiated contact with the 
offices at AFMC that will be responsible for any future light attack 
aircraft procurements to ensure they receive and understand the results 
of the AT-6 demonstration so they may be incorporated into any future 
full and open competitions.
                                 ______
                                 
       Questions Submitted to Major General Raymond M. Carpenter

            Questions Submitted by Chairman Daniel K. Inouye

                       UH-60 BLACK HAWK UPGRADES

    Question. General Carpenter, one of the Army Guard's top priorities 
is to modernize the oldest UH-60 Black Hawks to the latest 
configuration. The budget contains funds to upgrade 35 of these 
helicopters. How many of those conversions would directly benefit the 
National Guard?
    Answer. Current information indicates that 30 of the 35 A-A-L 
conversions in the budget will be coming to the Army National Guard. 
The Army UH-60 ``A to A to L'' upgrade program is a critical element 
for the timely modernization of the ARNG UH/HH-60 fleet, which 
comprises the largest and most heavily used part of the ARNG rotary-
wing inventory.
    The ARNG is quickly approaching its full authorization of 849 UH/
HH-60 aircraft. When that occurs, almost 500 of those will be the older 
and outdated ``A'' models that average over 30 years of age. At the 
presently programmed rate of future buys of ``M'' models and ``L'' 
model conversions, the Army Guard will not be able to divest of the 
final ``A'' models until well into the 2020's. Future ``A-A-L'' 
conversions are currently planned a rate of 38 per year.
    Question. General Carpenter, the dependence on helicopters in Iraq 
and Afghanistan has created a strain on our depots because of all the 
repairs needed on aircraft returning from overseas. Do you know if our 
depots have adequate capacity to accelerate the Black Hawk 
modernization program?
    Answer. These efforts are performed at the Corpus Christi Army 
Depot (CCAD). In regards to CCAD's capacity, the Depot could ``expand/
increase'' its capacity beyond the current production for the UH-60 A-
A-L RECAP of 38 aircraft per year; however, there is no existing 
requirement to do so.
    Any increase above the current requirement would entail a ramp up 
to properly set the conditions for success. Additional resources, to 
include staffing, tools, spare parts, facilities, and funding; could be 
needed depending on the number of additional aircraft to be addressed 
per year.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now may I call upon the second panel, 
Lieutenant General Jack Stultz, Chief of the Army Reserve; Vice 
Admiral Dirk Debbink, Chief, Navy Reserve; Lieutenant General 
John F. Kelly, Commander, Marine Forces Reserve and Marine 
Forces North; Lieutenant General Charles E. Stenner, Jr., 
Chief, Air Force Reserve.
    Gentlemen, thank you for joining us this morning. And may I 
assure you that your full statements will be made part of the 
record.
    And may I now call upon General Stultz, Chief of the Army 
Reserve.
    General Stultz. Mr. Chairman and Vice Chairman Cochran, it 
is an honor to be here and, first and foremost, to say thank 
you for all of the support that you've given the well over 
207,000 soldiers that currently populate the Army Reserve.
    I know we're going to be pressed for time, and I don't want 
to take a long and drawn-out opening statement.
    I do want to recognize two soldiers that I did bring with 
me today, because I think they epitomize what Ray Carpenter 
talked about, that's referred to as a national treasure, and 
that is what we call ``warrior citizens.'' You used to be 
called ``citizen soldiers,'' and when I came into this job as 
the Chief of the Reserve, we changed the term to ``warrior 
citizen.'' And I took a little flak about that, because people 
said, ``That's a little harsh.'' And I said, ``I don't think 
so, because our soldiers, today, in uniform are warriors. They 
are an operational force. They're making, in a lot of cases, 
the ultimate sacrifice.'' We have lost a number of our Reserve 
component soldiers, sailors, airmen, and marines in combat.
    And so, these two soldiers that I want to introduce 
epitomize that national treasure that we've got. The first one 
is Second Lieutenant Rachel Milton. Second Lieutenant Milton 
joined the Army Reserve after 9/11, to serve her country, and 
she became a private in the Army Reserve. She deployed to Iraq 
as a specialist, E-4 medic, where she was working inside Abu 
Ghraib prison, treating prisoners, both inside the prison and 
in the grounds. But also, during her other time, she was out 
doing convoy security, where she was a .50 cal gunner in a 
Humvee, providing security to convoys moving in and around that 
area of Iraq. And, additionally, was part of a four-person team 
who flew back and forth into the Green Zone during the Saddam 
Hussein trial to provide medical support to him and others that 
were participating in that trial. Came back home from her 
deployment to Iraq, went back to school, got her bachelor's 
degree in nursing, became a nurse at a hospital in New York 
City; in 2 years, has already been promoted to charge nurse and 
is now getting ready to enter her master's program. That's the 
return on investment we get; where we take a young person who 
is a patriot, put them into the Army Reserve, or the other 
Reserve components, and let them develop on their own, and let 
them become leaders, and then let them go back to their 
communities and give back. So, now, here in the Army Reserve, 
I've got an officer, I've got a trained nurse, I've got a 
combat veteran standing before you. A true hero.
    The other individual is Sergeant David Foltz. Sergeant 
Foltz is an engineer. Sergeant Foltz deployed in 2003-2004, in 
support of the war, and then went back again in 2006-2007. Part 
of an engineer unit that was out in the Anbar Province during a 
very, very contested time, which I'm sure General Kelley is 
very familiar with, doing route clearance. His battalion 
clearing a number of improvised explosive devices (IEDs) that 
saved thousands of soldiers and marines' lives as they cleared 
them, but, in that battalion, lost six of their own soldiers, 
and 25 percent of their unit received the Purple Heart 
throughout that battalion. Came back home, works for me in the 
Army Reserve now as a civilian, giving back not only in terms 
of his technical skills, but giving back in terms of his 
leadership as a noncommissioned officer; that which 
distinguishes our Army from any other army in the world, the 
backbone of our Army.
    This is why I'm here today, sir, to say we need your 
continued support and the continued support of Congress, for 
these great young men and women who are in our ranks who are 
truly national treasures.
    I'll look forward to your questions, sir. Thank you.

                           PREPARED STATEMENT

    Chairman Inouye. We thank you for your service to our 
Nation, and we salute you.
    General, finish with your----
    General Stultz. Yes, sir.
    As I said, I look forward to your questions.
    [The statement follows:]

          Prepared Statement of Lieutenant General Jack Stultz

    Against the backdrop of the second longest war in our nation's 
history and the longest ever fought by an all-volunteer force, the Army 
Reserve continues to be a positive return on investment for America. 
The fiscal year 2009 $8.2 billion Army Reserve appropriation 
represented only 4 percent of the total Army budget, yet we supply the 
Army seven to eight brigade-size elements. Since September 11, 2001, 
the Army Reserve mobilized 179,782 Soldiers, and now has 29,000 
deployed in support of Army missions. We supply the Army with 87 
percent of its Civil Affairs capability, 65 percent of its 
Psychological Operations, and 59 percent of its Medical support--to 
highlight a few of our top contributing specialized functions. Compared 
to the cost of expanding the full-time force, the small investment in 
the Army Reserve provides security at home and fights terrorism abroad. 
We respond to domestic disasters and participate in security 
cooperation operations while protecting national interests around the 
globe. In support of contingency operations, we foster stability in 
underdeveloped nations where conditions are ripe for terrorists to gain 
a foothold.
    The events of September 11, 2001 forever changed the way in which 
the Army Reserve provides combat support and combat service support to 
the Army and to the Joint Forces. Operational demands for Army Reserve 
support have been heavy and enduring. Operations in Afghanistan soon 
led to urgent calls for logistical, engineer, military police, medical, 
and civil affairs capability. The Army Reserve has the largest share of 
these capabilities and was soon meeting Combatant Commanders' urgent 
requests. Theater requests have grown larger since operations began in 
Iraq in 2003. Every year through 2006, Combatant Commanders anticipated 
needing fewer troops, but mission demands forced them to keep 
requesting more troops and support capabilities. In 2007, the ``surge'' 
in Iraq reversed that country's descent into civil war, but sustaining 
that renewed commitment into 2008 represented yet further strain on the 
Army Reserve, its units and Soldiers, and their Families. As of October 
2009, the beginning of the Iraq drawdown hints there may be some 
operational relief ahead, but new requests from Afghanistan for forces 
has triggered another presidential strategic re-assessment. The reality 
is, current operations are consuming Army Reserve readiness as fast as 
we can build it, but Congress' support for the Army Reserve in recent 
years has gone far toward both meeting current demands and reshaping 
the Army Reserve for future national security requirements.
    As sustained operational demands on the Army Reserve became heavier 
after 9/11, it became ever apparent we could no longer function as a 
part-time strategic reserve. Based on the operational requirements 
outlined for the Army Reserve in the 2010 Quadrennial Defense Review, 
and while fighting two wars, we completed our transition from a 
strategic reserve to an operational force last year--to the extent we 
can--given today's resourcing and mission demands. An operational Army 
Reserve is a good return on investment for America because now we are 
in a stronger position to provide the Army with predictable, trained, 
equipped, and ready forces to meet global and contingency requirements. 
What remains is an ongoing effort to sustain an operational posture, 
with a fully functioning Army Force Generation model--that receives 
full funding.
    Thanks to Congress' leadership, we have made great progress in a 
number of initiatives required to complete Army Reserve transformation. 
We have re-organized operational commands to better support theater 
requirements, opened new training centers, and restructured training 
commands to support the total force. Through Base Realignment and 
Closure, we have closed scattered facilities in favor of more 
efficient, multi-service reserve centers. Through the Army Reserve 
Enterprise process, we are restructuring our strategic and operational 
efforts to maximize productivity, efficiency, and responsiveness in 
four Enterprise areas: Human Capital, Materiel, Readiness, and Services 
and Infrastructure.
    We have identified ``Five Imperatives'' to facilitate Army Reserve 
continued transformation to a stronger and more capable operational 
force. They are Shaping the Force, Operationalizing the Army Reserve, 
Building the Army Reserve Enterprise, Executing BRAC, and Sustaining 
the Force.

Shaping the Force
    As we look ahead, we know that building the right force is crucial 
for success. In 2010, we will leverage human capital management 
strategies to better shape the force into a more affordable and 
effective Army Reserve capable of supporting national security 
objectives and our combatant commanders' war-fighting needs. We are 
developing a more precise human capital strategy to meet our nation's 
future military needs by ensuring the right people, with the right 
skills, in the right units, are in place at the right time.
    In today's competitive recruitment environment, incentives matter 
because they allow the Army Reserve to sustain and shape the force. We 
achieved our fiscal year 2009 end strength due to the hard work and 
dedication of our recruiters and our Soldiers. We also attribute this 
success to the recruiting and retention initiatives that support the 
Army Reserve's manning strategy. These include the Army Reserve 
Recruiter Assistant Program that promotes strength from within by 
recognizing and rewarding those Soldiers, Family members, and 
Department of the Army Civilians working for the Army Reserve who bring 
talent to the team. The second is enlistment bonuses, which help us 
recruit the critically short/high demand Military Occupational 
Specialties. In fiscal year 2009, our focused incentives increased Army 
Reserve End Strength. As we met the objective, it became evident that 
not all of our new Soldiers possessed the skill sets needed to support 
the Army Reserve structure while also fulfilling our wartime 
requirements.
    Successful recruiting added an abundance of Soldiers in the lowest 
three pay grades, but recruiting new Soldiers as privates and second 
lieutenants cannot fill the thousands of mid-grade noncommissioned and 
commissioned officer vacancies that currently exist. Despite excellent 
retention results, these shortages continue.
    Our recruitment efforts will focus on more prior-service recruits 
who are slightly older and bring more experience than most first-term 
Soldiers. These experienced Soldiers can fill shortages among mid-level 
commissioned and noncommissioned officers. Targeted incentives have 
been crucial to rebuilding our end strength and addressing critical 
shortages in some grades and job specialties. Continuing these 
incentives allows the Army Reserve to shape the force to better meet 
the requirements of our national security strategy and to give 
Soldiers, Families, and Employers stability and predictability.
    Ensuring a Continuum of Service (COS) is a human capital objective 
that seeks to inspire Soldiers to a lifetime of service. Active (full-
time) and reserve (part-time) military service are two elements of 
valuable service to the nation. Continuum of Service provides Active 
and Reserve Components some of the means necessary to offer Soldiers 
career options while maintaining capability for the operational force. 
COS also recognizes the tremendous cost of accessing and training each 
service member and seeks to avoid unnecessary replication of those 
costs. To reach our objective, it is our intention to work with Army to 
propose recommended changes to current statutes and policies that will 
ease restrictions on statutes limiting Reserve Component Soldiers from 
serving on active duty.

Operationalizing the Army Reserve
    Our status as an operational force means that the Army Reserve is 
no longer a force in waiting--we are an operational force in being. We 
can continue providing that positive return on investment to the nation 
when the Army Reserve is given the proper resources to succeed.
    The Army Reserve plays a vital operational role in overseas 
contingency operations and will for the foreseeable future. 179,782 
Army Reserve Soldiers have mobilized since 9/11 in support of Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF); 45,000 have 
mobilized more than once. In 2009, the Army Reserve mobilized 34,472 
Soldiers to support Combatant Commanders' requests for forces. We 
execute a readiness strategy to deploy highly ready units and Soldiers 
to support OIF and OEF requirements. This readiness strategy 
synchronizes those strategic planning and resourcing actions necessary 
to generate sufficient manning, training, and equipping levels to meet 
combatant commander mission requirements. The Army Force Generation 
process allows for a structured progression of increased unit readiness 
over time, and provides the Army recurring access to Army Reserve 
trained, ready, and cohesive units, which translates to predictability 
for Soldiers, their Families, and Employers. In effect, ARFORGEN drives 
the battle rhythm of the Army Reserve.
    ARFORGEN works for the Army Reserve. It has enduring qualities that 
have been apparent in providing support to emergencies such as 
Hurricane Katrina and the Haiti earthquake relief efforts, for training 
Soldiers in Afghanistan, to supporting the African Contingency 
Operations Training and Assistance Program with training and equipment 
for selected militaries engaged in humanitarian or peace operations. 
The Army Reserve seeks continued support from Congress to be an 
effective responder to missions such as these.
    Within the transformation process, we realigned our force structure 
to meet the Army's global mission requirements in both the Operational 
and Generating Force categories. The Army Reserve is ready to take on 
additional missions as the Department of Defense and U.S. Army validate 
emerging requirements. Authorized growth in end strength will enable 
the Army Reserve to activate validated units to meet these emerging 
requirements and maintain the number of units we have in our ARFORGEN 
process. Plans reflect an increase of 1,000 to 206,000 spaces of 
Authorized End Strength (ESA) to provide the Army Reserve capability to 
meet emerging mission requirements within our ability to operate the 
force.
    Full-time support personnel comprise a select group of people who 
organize, administer, instruct, recruit, and train our people; and who 
maintain supplies, equipment, and aircraft. They also perform other 
functions required on a daily basis to maintain readiness in support of 
operational missions. Without these critical Soldiers and Civilians, 
the Army Reserve could not function as an operational force.
    Although resourced to the Department of the Army ``High Risk'' 
funding methodology (meets minimal acceptable risk in support of a 
strategic reserve force), it is imperative that future planning ensure 
full-time support is fully resourced as an operational reserve. 
Adequate resourcing is critical in meeting the readiness requirements 
of the Army Force Generation (ARFORGEN) model.
    The current full-time support model remains a strategic reserve 
legacy. Key legislative and policy modifications are required to change 
personnel support processes. Manpower models and programming processes 
require review and modifications to provide flexibility and rapid 
response adjusting resources amid changing priorities across the 
ARFORGEN process.
    Our Active Guard Reserve (AGR) and Military Technician (MT) 
programs provide the bulk of full-time support at the unit level. They 
provide the day-to-day operational support needed to ensure Army 
Reserve units are trained and ready to mobilize within the ARFORGEN 
process. The AGR and MT programs are vital to the successful transition 
to--and sustainment of--an operational reserve. The Army Reserve 
requires added flexibility in its hiring practices to sustain its 
commitments to ARFORGEN. We must take action to create a new category 
of Non-Dual Status Technician, which allows retention and direct hire 
of personnel from outside the Selected Reserve. This new capability 
will allow us to support non-mobilizing/deploying organizations while 
authorizing Dual Status Military Technicians to meet conditions of 
employment with a military assignment anywhere within the Selected 
Reserve. We are working with Army to relax legacy fulltime support 
policies in order to provide flexibility in the reallocation of 
resources within AFORGEN cycle.
    As an operational force, the Army Reserve must have the most 
effective and sustainable equipment for Soldiers and units at the right 
place and at the right time. The Army Reserve supports the Army 
Equipping Strategy of Cyclical Readiness, which means all units are 
equipped based on their position in the ARFORGEN process and their 
mission--regardless of Component. The Equipment Readiness levels 
increase as units move through the ARFORGEN process from the RESET to 
the Available Phase. Those units that are within the RESET phase start 
with zero readiness expectation. As the units move to the Train/Ready 
phase, they will be resourced from 80 percent growing to 90 percent; 
and once the units enter the Available Phase, they are resourced to 
ensure 90 percent plus equipment readiness. To maximize collective and 
individual training opportunities for our units in the ARFORGEN process 
on high demand/low density systems, the Army Reserve must address the 
challenge with small pools of current generation systems. Additionally, 
while the Army Reserve units in the Reset Phase should have minimal 
specific equipping expectations; the Army Reserve is identifying 
equipment requirements that a unit can properly maintain at a Reserve 
Unit Home Station while sustaining Soldiers and training readiness. We 
are thankful to Congress for helping us meet this goal with National 
Guard and Reserve Equipment Appropriation (NGREA) funding. These funds 
greatly add toward operationalizing the Army Reserve by supporting Army 
Modularity, Homeland Defense/Homeland Security, and the Army Force 
Generation cycle with a fully modern and interoperable force. With 
continued NGREA funding, we will be able to train our Soldiers on the 
latest combat equipment before they deploy into harm's way.

Enterprise Transformation
    Using an enterprise approach to managing our internal processes, we 
add value to the Army by applying a holistic approach to managing our 
resources and shape the force into what is beneficial for the Army 
Reserve and supports the needs of the Army. By ``shape the force,'' I 
mean taking a fresh approach to how we recruit and retain the best and 
brightest, and positioning them in the right place, in the right job, 
and at the right time.
    The Army Reserve Enterprise consists of four core management areas: 
Human Capital, Readiness, Materiel, and Services and Infrastructure. To 
optimize the enterprise we must: Attract and retain the very best 
Warrior Citizens to serve our nation (Human Capital), Prepare, train, 
and equip Soldiers (Readiness); provide our Soldiers with the latest 
mission ready modular force equipment, (Materiel); provide for the 
well-being of our Soldiers, Families, Army Civilians, and employers 
while providing training and unit facilities and secure, redundant 
communications (Services and Infrastructure). Working together, these 
core management areas enable the Army Reserve enterprise to realize its 
ultimate goal: predictable, trained, and ready units--the essential 
components that define CAPABILITY.

BRAC
    We have facility responsibilities at more than 1,100 Reserve 
Centers and the installations of Fort McCoy, Fort Buchanan, and Fort 
Hunter-Liggett installations. We also are responsible for significant 
training areas at Jolliet, Devens Reserve Forces Training Area, and 
Parks Reserve Forces Training Area. Moving toward completion of the 
current BRAC cycle of 2005, the Army Reserve military construction 
priority is to complete the remaining projects budgeted at $361 million 
for fiscal year 2010. Supporting the transformation of the Army Reserve 
from a Strategic Reserve to an Operational Force, we will implement 21 
construction projects at a cost of $381 million. Our construction 
effort supports the realignment of the field command organizations into 
Operational Supporting Commands. The resultant Supporting Commands 
invested $561 million in operating the facilities and some $244 million 
in repair of those facilities that allows mission accomplishment for 
the Operational Commands.

Sustaining the Force
    The Warrior-Citizens of the Army Reserve and their Families embody 
a lasting commitment to serve America. The Army Reserve recognizes the 
strain of this era of persistent conflict on Soldiers and Families. We 
know Family readiness is inextricably linked to mission readiness, 
recruitment, and retention. Operationalizing of the Army Reserve 
creates a requirement for an enduring level of support. As the Army 
Reserve transforms, so must Family Programs. Our way ahead includes 
realignment actions to: support the Army Reserve Enterprise management 
approach, sustain services to Soldiers and Families in the 
expeditionary force, standardize existing programs and services across 
the Army Reserve, and build partnerships with Army Families and 
communities. Our end state is to optimize programs and services to 
connect Soldiers and Families to the right service at the right time.
    The cornerstone of our planning effort is to ensure the integration 
of Family Support services with the ARFORGEN process. By doing so, we 
ensure that our Warrior-Citizens and their Families have solid programs 
that are ready for execution any time during the training and 
deployment cycle. Appropriate resourcing will allow us to assess 
structure requirements, staffing needs, and develop effective processes 
that ensure the consistent delivery of programs and services that meet 
the needs of ARFORGEN and especially for those of our geographically 
dispersed customers.
    The Army Reserve Family Programs Virtual Installation Program is an 
exciting new initiative that ensures the same services provided to 
active component Soldiers are available to all service members and 
their Families not living close to a military installation. Leveraging 
assets we have on hand is allowing us to test the program through a 
series of pilots located in selected communities. Funding for this 
priority will allow us to expand Virtual Installation within Army 
Strong Community Centers around the country and overseas.
    We must continue to increase the quantity and quality of support 
for Army Reserve children and youth. We can increase opportunities for 
youth to develop leadership skills and strategies for coping with 
separation. Teen panels provide forums for our youth to propose 
solutions for concerns that affect their lives during mobilization and 
deployment. Additional online teen deployment classes support youth 
living in the ``new normal'' of repetitive deployments. With additional 
resources, we will work with our community partners to expand childcare 
for geographically dispersed Families and respite care for mobilized 
Families.
    This year we provided new opportunities for children of Army 
Reserve Families to attend camps. While the Department of Defense (DOD) 
``Purple Camps'' were a great initiative, they distributed 
opportunities among all military communities in DOD. This resulted in 
fewer opportunities for Army Reserve children than needed. 
Additionally, Army Reserve children are usually unable to travel, and 
require activities located in areas near their homes. By operating our 
own camps, we increased these opportunities to Army Reserve Families in 
their communities and tailored them to our communities. The goal of the 
program is to prepare Army Reserve Soldiers and their Family members 
for mobilization, sustain Families during deployment, and reintegrate 
Soldiers with their Families, communities, and employers upon release 
from active duty. The Army Reserve Yellow Ribbon Reintegration Program 
(YRRP) provides information, services and support, referral, and 
proactive outreach to Army Reserve Soldiers and their Families through 
all phases of the deployment cycle. The program includes information on 
current benefits and resources available to help overcome the 
challenges encountered with Army Reserve mobilization and 
reintegration.
    The Army Reserve successfully launched its Yellow Ribbon 
Reintegration Program. We have coordinated with other military 
agencies, Federal/state/local government agencies, community 
organizations, and faith-based organizations to provide robust, 
preventive, proactive programs for Soldiers and their Families. 
Elements of the program include promoting preparedness through 
education, conducting effective Family outreach, leveraging available 
resources, and supporting the All-Volunteer Force. During fiscal year 
2009, the Army Reserve executed more than 250 Yellow Ribbon events, 
serving some 12,000 redeploying Soldiers and 12,000 Family members. In 
interviews conducted by the Office of the Secretary of Defense, 
Soldiers and Family members reported positive experiences with the Army 
Reserve Yellow Ribbon Reintegration Program.
    The challenge to the Army Reserve remains to develop, improve, and 
sustain the mental, spiritual, and emotional health that fosters 
resilient Soldiers and Families.
    We are moving out aggressively to mitigate the effects of 
persistent conflict and build a strong, resilient force. Multi-symptom 
conditions including those signature wounds not visibly apparent (for 
example: Post Traumatic Stress Disorder (PTSD) and Traumatic Brain 
Injury (TBI), exist for Soldiers with military service in Southwest 
Asia. We will work with Health Affairs and the other Services to 
continue to provide the care necessary for the wounds from the current 
conflicts.
    We appreciate the resources that Congress has provided to date to 
further programs such as the new GI Bill and TRICARE. The benefit of 
TRICARE Reserve Select provides our Soldiers and Families peace of mind 
knowing that if a Soldier decides to better him/herself career-wise 
with the skills gained while deployed, medical care will not be a worry 
if he or she decides to change careers.
    We are teaming with civilian industry to shape the Army Reserve 
into America's premier reservoir of shared military-civilian skills and 
capabilities through our Employer Partnerships programs. Through these 
mutually-beneficial alliances with businesses that share our valuable 
human capital, we can strengthen Soldier-employees, Families, 
employers, and communities.
    We seek to identify locations where our Soldiers can simultaneously 
add value to both the civilian workforce and the Army Reserve. This 
effort ties into our objective of achieving a continuum of service for 
Soldiers who want the option to transition from active and reserve 
components, and vice versa, to provide Soldiers flexibility with their 
career objectives, while allowing the Army Reserve to retain the best 
talent and critical skills capability.
    We are committed to minimizing turbulence to Soldiers and their 
Families while providing the most effective and efficient trained and 
ready units and forces to meet world-wide requirements. We must 
maintain current levels of predictability while making plans to 
increase it. The Army Force Generation process allows for a structured 
progression of increased unit readiness over time, and provides the 
Army recurring access to Army Reserve trained, ready, and cohesive 
units. While our commitment in Iraq may draw down, the requirement for 
forces to commit to other global missions will only increase. In 2010, 
we will work with Congress to ensure we obtain the necessary resources 
to sustain a viable Army Force Generation cycle that supports global 
commitments and new missions.
    Thank you.

    Chairman Inouye. And now, General Debbink--Vice Admiral 
Debbink.

STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the privilege of appearing before you today.
    My force master chief, Ronnie Wright, and myself want to 
begin by expressing our appreciation for your support for the 
approximate 65,851 sailors, and their families, of your Navy 
Reserve component.
    My written testimony does go into some length describing 
the programs that we utilize to ensure the Navy Reserve is a 
ready and capable force, responsive to both the needs of the 
Navy and Marine Corps team and joint forces for both strategic 
depth and operational capabilities, while at the same time 
providing the necessary support to our sailors and their 
families and, very importantly, showing our appreciation to the 
sailors' employers.
    As I testify this morning, Navy Reserve sailors are 
operating in every corner of the world, shoulder-to-shoulder 
with Active Duty sailors and alongside soldiers, airmen, 
marines, and coastguardsmen. On any given day, more than 30 
percent of the Navy Reserve is providing support to Department 
of Defense operations. The Navy Reserve is ready now, anytime, 
anywhere, as our motto and, most importantly, our sailors 
proudly claim.
    While fully engaged in overseas contingency operations 
around the world, your Navy Reserve was also, most recently, 
involved in Operation Unified Response in Haiti. During the 
last 2 months, more than 950 Reserve sailors were proud and 
humbled to be able to provide over 21,000 man-days of support 
for the humanitarian assistance and disaster relief efforts in 
Haiti.
    Success in these operations, of course, is no accident, 
but, rather, it's a result of your sailors' can-do spirit 
combined with the support of chain of command and the proactive 
support of this Congress. Together, we seek to provide our 
sailors with the proper training, equipment, and support, both 
abroad and back home, necessary to ensure their success. And 
Congress' engagement with these efforts is greatly appreciated.
    A central focus of our manpower strategy continues to be 
the establishment of a true continuum-of-service culture that 
provides a life/work balance, which accommodates individuals' 
circumstances while at the same time allowing us to sustain the 
necessary inventory of skilled and experienced professionals to 
meet the Navy's total force requirements.
    The Chief of Naval Operations, the Chief of Naval 
Personnel, and I recently signed the Navy's Total Force Vision 
for the 21st Century, which lays the foundation for the Navy to 
succeed in delivering the human component of our maritime joint 
warfighting capabilities. Recruiting, retaining, and properly 
employing the right sailors--Active, Reserve, and civilian--in 
the service of our country is both an operational and a fiscal 
imperative for the continued success of our Navy.
    Our 2011 budget request will enable the Navy Reserve to 
continue supporting current engagements and maximizes the 
strategic value of the Navy Reserve as a relevant force, now 
and in the future; a force valued for its readiness, its 
innovation, its agility, and its accessibility. We expect the 
future will call for even greater displays of all of these 
traits.
    It is a privilege to serve during this important and 
meaningful time in our Nation's defense, especially as a Navy 
reservist.

                           PREPARED STATEMENT

    I thank you for your continued support and your 
demonstrated commitment to our Navy Reserve and the sailors in 
that Navy Reserve. I look forward to your questions.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Admiral.
    [The statement follows:]

           Prepared Statement of Vice Admiral Dirk J. Debbink

                              INTRODUCTION

    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the Senate Defense Appropriations Subcommittee, thank you for the 
opportunity to speak with you today about the capabilities, capacity, 
and readiness of the dedicated men and women who serve in our Navy's 
Reserve Component (RC). I offer my heartfelt thanks for all of the 
support you have provided these great Sailors.
    I have now had the honor of serving as the Chief of Navy Reserve 
for 20 months. In that capacity, I am privileged to work for more than 
66,500 Sailors in our Navy's RC, an elite fighting force which just 
celebrated its 95th birthday. I am continuously amazed and humbled by 
the daily sacrifices our Reserve Sailors are making for our Nation and 
our Navy. Witnessing such great deeds helps me to focus on the services 
that I can provide to each of them: to ensure they are given real and 
meaningful work every day they are on duty; to ensure that they receive 
every practical material and organizational advantage to support them 
in their work; and to provide their families and employers with the 
proper support to honor and ease their sacrifices.
    Our Navy needs, and our Sailors deserve, the best Navy Reserve 
possible, and today's Navy Reserve is as strong and as relevant as it 
has ever been. Our success is a direct result of the dedication and 
professionalism of our Sailors, which is a reflection of the tremendous 
support those Sailors receive from their families and civilian 
employers.
    Last year, the Navy Reserve adopted an official Force Motto: 
``Ready Now. Anytime, Anywhere.'' This motto is our pledge to our 
shipmates, our Navy, and our Nation and serves as the guiding principle 
of the Navy Reserve Strategic Plan. In that Plan, the mission of the 
Navy Reserve is defined: ``to provide strategic depth and deliver 
operational capabilities to our Navy and Marine Corps team, and Joint 
forces, from peace to war.'' As Chief of Navy Reserve, I can report 
without reservation that our Navy Reserve Sailors accomplish this 
mission every day.
    The Navy Total Force is aligned with and supports the six core 
capabilities articulated in the Maritime Strategy and is managed by 
Navy leadership to enable the Chief of Naval Operation's priorities: 
(1) build tomorrow's Navy; (2) remain ready to fight today; and (3) 
develop and support our Sailors, Navy civilians, and their families. 
The Navy Reserve is integral to the Navy Total Force--we stand 
shoulder-to-shoulder with our active duty component executing full 
spectrum operations that represent every facet of our Navy's Global 
Maritime Strategy. Within this Total Force framework, I would like to 
take this opportunity to update you on the programs that support the 
Chief of Naval Operations' focus areas, while also highlighting some 
key contributions from Navy Reservists in 2009.

                       CARE FOR OUR WARRIOR FORCE

    This country owes a great debt to the men and women who have gone 
in harm's way in support of contingency operations around the globe and 
it is our obligation to provide them not just with every opportunity to 
succeed while deployed, but also with the means to reintegrate once 
they return from overseas.
    Secretary of Defense Robert Gates has stated, ``apart from the wars 
in Afghanistan and Iraq, my highest priority as Secretary of Defense is 
improving the outpatient care and transition experience for troops that 
have been wounded in combat.'' The Navy Reserve takes this commitment 
to heart and is setting a higher standard every day for the care and 
well-being of our Wounded Warriors. In 2009, we completed implementing 
programs recommended in the Naval Inspector General's Navy Reserve 
Wounded Warrior Care report, highlighted by the functional stand-up of 
the Reserve Policy and Integration organization (M-10) within the 
Bureau of Medicine and Surgery (BUMED). This organization provides 
BUMED with a Reserve perspective related to medical policies and issues 
impacting the Total Force. We continue to provide exceptional service 
to Sailors assigned to the Navy's Medical Hold (MEDHOLD) units. These 
units provide necessary medical and non-medical case management to the 
Navy's RC Wounded, Ill, and Injured (WII) population. For those Sailors 
and Coast Guardsmen who are seriously wounded, ill, or injured, the 
Navy Safe Harbor program is the Navy's lead organization for 
coordinating non-medical care for the warrior and their family members. 
Through proactive leadership, MEDHOLD helps RC WII members return to 
service and their communities, and Safe Harbor provides individually 
tailored assistance designed to optimize the successful recovery, 
rehabilitation, and reintegration of our Shipmates.
    Superior care is not reserved for injured Sailors alone. Medical 
research indicates that health concerns, particularly those involving 
psychological health, are frequently identified during the months 
leading up to and following return from an operational deployment. 
Current Navy programs, such as Operational Stress Control Training, the 
Psychological Health Outreach Program, and BUMED's Wounded, Ill, and 
Injured Warrior Support, are designed to align with critical stages of 
the deployment cycle.
    An integral component of Force Health Protection calls for ensuring 
all service members are fit to deploy, and Navy has improved the 
screening procedures for mobilizing Sailors to ensure they are 
medically able to meet theater requirements. For example, the Medical 
Readiness Reporting System (MRRS) has improved tracking of each 
Sailor's suitability for Area of Responsibility-specific expeditionary 
assignments. In addition, annual Physical Health Assessments (PHA), 
coupled with the new, standardized consolidated pre-deployment 
screening and local line support will streamline screening requirements 
while maintaining fidelity on issues which impact medical readiness. 
Early screening and associated fitness determinations help alleviate 
unnecessary stress on our Sailors and provides supported commands with 
a steady stream of well-prepared and able workforce. We are also 
actively engaged in implementing the new legislation that makes 
Reservists eligible for Tricare coverage up to 180 days before a 
mobilization event. We are thankful to Congress for their work in 
providing this benefit to our mobilizing service members.
    Sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), which is the Navy's 
``signature event'' within the Department of Defense (DOD) Yellow 
Ribbon Reintegration Program (YRRP). In the 8 years since 9/11, the 
overwhelming majority of Reserve Sailors mobilized to active duty have 
deployed as Individual Augmentees (IAs). Deployed apart from their 
parent unit and often assigned duties which differ greatly from their 
primary specialty, these combat zone deployments can be uniquely 
stressful. The RWW is a dedicated weekend for Sailors to reconnect with 
spouses, significant others, and each other following an IA deployment. 
Staged at a high-quality location at no cost to the participants, the 
RWW employs trained facilitators to lead Warriors and their families/
guests through a series of presentations and tailored break-out group 
discussions that address post-combat stress and the challenges of 
transitioning back to civilian life. Additionally, my goal is to have a 
Navy Flag Officer in attendance at every RWW to make a visible 
statement of Department of the Navy support for this valuable program. 
A total of 43 RWWs have been held as of March 1, 2010, attended by 
3,083 military personnel and 2,329 guests/family members. The fiscal 
year 2011 budget supports another 25 events. Pioneered by the Navy 
Reserve, these workshops are now available for all Navy IAs. RWWs are a 
true success story in honoring our Sailors and their families. It is 
one of my top priorities to ensure this program continues to have both 
the full support of Navy leadership and the widest possible 
participation by all returning Sailors.
    RWWs serve as a key component of the Navy Reserve Psychological 
Health Outreach Program. Outreach teams assigned to each Navy Region 
Reserve Component Command facilitate the RWWs and engage in other 
critical aspects of the Deployment Health Assessment (DHA) process. 
DHAs are regularly scheduled encounters used to screen service members 
prior to and after deployment and to facilitate appropriate 
psychological care. The DHA process supports the DOD health protection 
strategy to deploy healthy, fit, and medically-ready forces; to 
minimize illnesses and injuries during deployments; and to evaluate and 
treat physical, psychological, and deployment-related health concerns. 
The process is designed to identify stress injuries and other health 
concerns requiring further assessment or treatment as appropriate. The 
Navy Reserve now has dedicated mental health professionals and 
associated assets available to provide psychological health services 
for the Navy and Marine Corps Reserve communities. Providing 
psychological health assessment services for deploying reservists will 
assist in identifying potential stress disorders and facilitate early 
intervention before these disorders accelerate to a more critical 
``injured or ill'' stage, keeping Navy and Marine Corps Reservists 
psychologically healthy for continued retention in the Reserves and for 
future overseas and CONUS mobilizations. Also recently established as 
part of the YRRP, the Pre-Deployment Family Readiness Conference 
(PDFRC) utilizes Psychological Health outreach teams to provide 
education and information to ensure that Sailors and their families are 
ready for the rigors of deployment and the challenges of family 
separation.
    Additionally, Navy's formalization and emphasis of the Operational 
Stress Control (OSC) Program is working to de-stigmatize psychological 
health issues, which can improve Sailors' participation in valuable 
psychological health programs for those in need. The Navy Reserve team 
is a charter member of the OSC Governance Board. The Psychological 
Health Outreach teams provide the OSC Awareness brief during periodic 
visits to Navy Operational Support Centers (NOSCs) across the country. 
As of February 1, 2010, the psychological health outreach team members 
have made 196 visits to NOSCs, providing the Operational Stress Control 
Awareness brief to over 20,200 Reservists and staff personnel.
    Finally, and although not solely related to mobilized Sailors, the 
Navy Reserve has aligned closely with the Chief of Naval Personnel on 
programs that detect and help individuals who are at risk of suicide. 
Families, often the first people to notice a desperate change in a 
Sailor, are included in programs such as the PDFRC and the RWW. A 
Suicide Event Report (SER) is completed on all actual or attempted 
suicides, regardless of duty status, which has provided a more complete 
picture of the problems afflicting all Navy Sailors. In every instance 
where the chain of command knows of a Navy Reservist who has attempted 
suicide, either in a duty or non-duty status, the Reservist is referred 
to the Navy Reserve Psychological Health Coordinators for follow-up and 
referral to the appropriate mental healthcare services. The 
aforementioned OSC Awareness briefs provided by the Psychological 
Health Outreach teams also include Suicide Prevention briefs.

                  PROGRESS IN PROGRAMS FOR OUR PEOPLE

    The Navy Reserve Strategic Plan defines the vision for the Navy 
Reserve as follows: ``Our vision for the Navy Reserve is to be a 
provider of choice for essential naval warfighting capabilities and 
expertise, strategically aligned with mission requirements and valued 
for our readiness, innovation, and agility to respond to any 
situation.'' During the last 8 years, the Navy Reserve has demonstrated 
the ability to continue sustained and valuable contributions to the 
Total Force, in the full spectrum of missions, at home and abroad, and 
as both an operational and strategic force. We continue to forge ahead 
with ideas and programs that will allow us to continuously contribute 
to the strategic aims of the Navy and the Joint Force.
    As defined in the Strategic Plan, one of the three Focus Areas for 
the Navy Reserve is to enable the Continuum of Service (CoS). CoS 
reflects the reality of our Navy. As our Chief of Naval Operations, 
Admiral Gary Roughhead, states, ``we are one force today. One Navy, 
with an Active Component and a Reserve Component.'' CoS initiatives 
provide for seamless movement between the Active Component (AC), RC, 
and civilian service, while delivering operational flexibility and 
strategic depth at the best value for the Navy. Responding to the CoS 
philosophy, we recruit Sailors once and retain them for life through 
variable and flexible service options that provide a career continuum 
of meaningful and valued work.
    Not long ago, we spoke of creating active duty ``on ramps'' and 
``off ramps.'' Today, a better analogy is that we're all on the same 
career highway, and during our career we may wish to change lanes 
several times, moving from Active to Reserve and back. Our commitment 
to our Sailors is to make these lane changes easier and faster.
    CoS is forcing us to think differently and make big changes in the 
way we do business. Changing our culture might be the hardest part. Too 
often we think the only way to have a Navy career is by serving on 
active duty alone. Our Navy Reserve gives Navy Sailors many other 
possible ways to have a full Navy career.
    There were many important accomplishments associated with our CoS 
efforts in fiscal year 2009. Beginning last year, the Career Management 
System--Interactive Detailing (CMS/ID) allowed our AC career counselors 
to assist Sailors transitioning from active duty to consider Reserve 
units in the location where they planned to live. This is a good 
example of how an effective career development program can be a 
fantastic opportunity for Sailors to Stay Navy for Life. Additionally, 
Sailors in selected ratings and designators are informed about their 
eligibility for bonuses of up to $20,000 for affiliating with the Navy 
Reserve in the specialties we need most.
    Our Perform to Serve (PTS) program has given AC Sailors avenues for 
continued service in the AC Navy, primarily through transitions from 
overmanned rates into undermanned rates. Last fall, Navy expanded this 
program to allow AC Sailors the option to affiliate with the RC in 
their current rate to continue their Navy career. Integrating Reserve 
opportunities early into the Sailor's transition process demonstrates 
the AC's commitment to CoS initiatives.
    One of the most exciting developments supporting CoS is the new 
Career Transition Office (CTO) within Navy Personnel Command. The goal 
of the CTO is to counsel Sailors before they leave active duty and 
through the transition process in order to help them to take full 
advantage of the opportunities in the Navy Reserve. By engaging our 
fully qualified, world-wide assignable personnel before they leave 
active duty, we can turn a personnel loss into a retention transaction 
without the need to involve a Navy recruiter. We started with officers 
transitioning from AC to RC, and immediately reaped success by nearly 
doubling Navy Veteran officer affiliation rates from 28 percent to 55 
percent. We have recently expanded the program to include enlisted 
Sailors who elected the Selected Reserve (SELRES) option in PTS. In the 
future, the CTO will handle all officer and enlisted transitions from 
AC-to-RC and RC-to-AC, except mobilizations.
    Expanding our CoS efforts is one of my top priorities for fiscal 
year 2010. In the upcoming year, we will further our participation in 
the World Class Modeling initiative sponsored by the Chief of Naval 
Personnel to anticipate Navy warfighting needs, identify associated 
personnel capabilities, and recruit, develop, manage, and deploy those 
capabilities in an agile, cost-effective manner. Additionally, we will 
place Reserve information in the Navy Retention Monitoring System to 
provide enhanced reporting and analysis capabilities for retention 
metrics.
    With regard to educating a ready and accessible force, we thank 
Congress for its support of the post 9/11 GI Bill. The opportunity to 
transfer post-secondary education funds to a spouse or child is a 
significant benefit for our Sailors and their families. Since 
implementation on August 1, 2009, over 3,000 reserve members have been 
approved for transferability. We will continue to assess the impact of 
transferability on enlisted and officer retention.
    Another Focus Area for the Navy Reserve is to Deliver a Ready and 
Accessible Force. Reserve support for contingency operations in the 
Central Command Area of Responsibility (AOR) is one of the most 
critical elements in the success our forces have experienced throughout 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF). In 
fiscal year 2009, Navy Mobilization Processing Sites (NMPS) processed 
more than 7,400 Sailors for long-term active duty service. Of those 
Sailors, over 6,100 were mobilized to support Operation Iraqi Freedom 
and Operation Enduring Freedom in combat, combat support, and combat 
service support missions; the remaining 1,300 were on Active Duty for 
Special Work orders providing valued support throughout the Fleet.
    In fiscal year 2010, Navy will continue to improve advance 
notification of personnel for upcoming mobilizations, with a goal of 
consistently providing at least 180 days prior notification for all 
recurrent and rotational mobilization assignments. Further, the Navy 
Reserve will continue to leverage the already robust Total Force 
Command IA Coordinator (CIAC) program at all NOSCs in order to optimize 
the frequency, quality, and depth of communications with mobilized 
reservists and their families throughout the deployment cycle. The CIAC 
program, complemented by the extraordinary efforts of our command and 
unit leadership teams, is significantly increasing quality of life for 
our deployed warriors and their families. Also, full-time, long-term 
support of Navy and Joint Flag Officer requirements by Reservists will 
help expand the expertise and knowledge of the Navy, and I thank you 
for the increased ability for Reserve participation in those 
assignments due to the legislation passed as part of last year's 
National Defense Authorization Act (NDAA).
    The Navy Reserve executed the Navy Reserve Personnel (RPN) and 
Operations and Maintenance (OMNR) accounts, valued at $3.2 billion, at 
99.9 percent in fiscal year 2009. The force executed nearly $150 
million in discretionary Reserve Personnel funding in support of 
missions world-wide, including $98 million in Active Duty for Training 
(ADT) funding--a 32 percent increase over fiscal year 2008--
contributing 311,345 man-days of on-demand expertise to our Navy and 
Marine Corps team and Joint Forces. This operational support is a 
critical enabler to the Navy as Navy Reservists provide full-time 
excellence through part-time and full-time service. In fiscal year 
2011, the budget requests $1.94 billion in baseline RPN, to include 
$190 million in discretionary RPN, and $1.37 billion in baseline OMNR 
appropriations.
    In addition to personnel support, Navy Reserve units and hardware 
contribute to Navy's warfighting effort across multiple mediums, in 
missions ranging from combat operations or combat support operations, 
to logistics support around the globe, to training and readiness 
facilitation for soon-to-be-deploying units. The wide spectrum of 
missions that can be completed with Reserve units is in keeping with 
the third of our focus areas: Provide Valued Capabilities. Even when a 
Reserve unit itself is not mobilizing, our focus is centered on 
guaranteeing that Sailors are ready to provide necessary capabilities 
to the supported Combatant Commander.
    In fiscal year 2010, it is one of my top priorities to ensure the 
use of long-term budgeting processes to ensure sufficient Operational 
Support funding to meet Navy and Joint Force requirements. Demand for 
the services of our talented Sailors has never been greater, and we 
must solidify our access to the ADT dollars used to fund this on-demand 
expertise. Navy Reserve Sailors can be incredibly cost-effective, but 
there is a cost, and that cost must be incorporated in any long-term 
plan. This means planning and budgeting for the Navy Reserve to do the 
part-time work of the Navy.
    Some of the Navy's work is ideally suited for the RC. For example, 
billets that require specialized skill sets on a periodic and 
predictable basis are the billets where the Navy Reserve can deliver 
great value on an ongoing basis while at the same time providing 
critical strategic depth in case of emergency. By working closely with 
the Navy to identify and quantify the work for the Navy Reserve, we can 
ensure the Fleet receives the support it requires and our Sailors will 
have real and meaningful work, delivering full-time excellence through 
part-time and full-time service.
    The Office of the Secretary of Defense (OSD) designated the Navy 
Reserve as the lead agency for managing the RC Foreign Language/Culture 
Pilot Program. This exciting new program encourages our Reserve Sailors 
to take classes at institutions of higher learning to expand their 
awareness of critical foreign language and cultures. Incentivizing our 
Sailors' natural desire to learn will foster understanding across 
cultural lines which will shape our force for the better. Bonuses are 
awarded based on performance which can add up to $5,000 for strategic 
languages and cultural areas studied which are in high demand within 
DOD.
    The Navy continues to strive for ``Top 50 Employer'' recognition 
and the Navy Reserve is in lock-step with those efforts. Top 50 
organizations encourage innovation and focus on performance while 
taking care of their people through programs and policies that support 
a culture of trust, respect, communication, and collaboration. 
Maintaining a work environment that is conducive to quality work and 
leads to equal treatment of all personnel is paramount to the success 
of any organization. Sexual assault is a detractor from a healthy work 
environment, and it will not be tolerated in the Navy. The Navy Reserve 
participates in the Navy's Sexual Assault Prevention and Response 
(SAPR) Cross Functional Team to ensure compliance with the Navy's Total 
Force SAPR program instructions, policies, and procedures. Navy 
leadership continually communicates a ``Not in my Navy'' stance towards 
Sexual Assault through the ranks.
    The policies focused on enhancing the quality of life in the Navy 
have paid dividends for the Force. Fiscal year 2009 marked the second 
consecutive year Navy attained enlisted and officer recruiting goals in 
both Active and Reserve components. In the Reserve, enlisted recruiting 
was at 100.6 percent of goal; officer recruiting finished at 107.7 
percent of goal. Not only did Navy find the quantity of recruits 
necessary to meet requirements, but the measured educational 
achievement of our recruits was at the highest level in years. SELRES 
retention numbers were equally strong, with attrition rates 
approximately 20 percent improved from fiscal year 2008 totals. There 
is still room for improvement in SELRES Officer strength, and numerous 
initiatives are underway to get SELRES Officer communities ``healthy'' 
by 2014, including targeted Officer affiliation and future retention 
bonuses, the increase of accession goals, refinements in the CTO 
process, and development of retention measurements and benchmarks. The 
value of recruiting incentives and special pays has been critical to 
every success the Force has enjoyed in this arena, and I thank you for 
providing us with the tools necessary to populate the Navy Reserve in 
the right manner while working towards the fiscal year 2011 budgeted 
end-strength of 65,500. Bonuses have helped shape the ``Fit versus 
Fill'' successes of recent years; however, for certain enlisted wartime 
skills sets and in the officer inventory in general, the Navy Reserve 
requires the help bonuses provide to continue to meet recruiting and 
retention goals.

                               WAY AHEAD

    In addition to the continuing attention to the programs and 
policies listed above, there are several other topics that have 
priority status this fiscal year to enhance our force-wide 
effectiveness, make it easier for each of us to serve, and to fully 
support our deploying members and their families.
    Foremost among my list of priorities is to achieve resolution on a 
path to fielding a Total Force Future Pay and Personnel System (FPPS). 
The Navy and Navy Reserve currently have separate pay and personnel 
systems, designed and built in an era when Sailors rarely mobilized or 
transitioned between components. With the present system, it can take 
weeks to properly transition a Sailor from one pay and personnel system 
to another. This creates a barrier to realizing our CoS goals.
    FPPS would enable Sailors to transition quickly and seamlessly on 
and off active duty without the commensurate delays and confusion 
regarding pay and benefits. The Navy Total Force goal is to transition 
a Sailor from one component to another within 72 hours. Navy leadership 
understands the urgency of resolving this issue, which impacts every 
Sailor. I am confident that in fiscal year 2010, we will make 
considerable progress towards this goal.
    Another top priority this year is to ensure Navy has the funding 
allowing the RC to perform directed missions. In addition to working 
through the long-term budgeting process needed to pay for our Sailors, 
we are fully engaged in the development of Naval Aviation Plan 2030 to 
ensure that the valued capabilities delivered by the Navy Reserve are 
properly resourced.
    Navy Reserve aviation trains the Fleet, moves the Fleet, and when 
needed, surges to the fight. Twenty-eight squadrons, eight Fleet 
Replacement Squadron (FRS) Squadron Augment Units (SAUs), and 17 Chief 
of Naval Aviation and Training SAUs provided more than 70,000 flight 
hours in fiscal year 2009, including 80 percent of the Navy's direct 
and indirect Fleet operational support. Our four adversary squadrons 
provided 76 percent of Navy capacity, and the Fleet Logistics Support 
Wing provided 100 percent of the shore-based Navy Unique Fleet 
Essential Airlift (NUFEA) with an average weekly cost avoidance of 
$655,000. These assets provide strategic surge capacity and maintain 
warfighting readiness at a lower cost, both in terms of payroll and 
airframe life, than AC squadrons. Navy Reserve's lower Fatigue Life 
Expenditure (FLE) has provided Navy inventory managers increased 
options that have been a valuable part of Naval Aviation's 
recapitalization plan generally, and of P-3Cs and F/A-18s in 
particular.
    Historically, Reserve aircraft have been procured via a combination 
of routine procurement processes, the use of National Guard and Reserve 
Equipment Appropriations (NGREA), Congressional buys, and the transfer 
of aircraft from the AC to the RC as new production aircraft enter the 
Total Force inventory.
    Current aviation procurement trends will challenge RC aviation 
capabilities as the Navy Reserve continues to recapitalize assets. 
Priorities include completing the C-40A (airlift) procurement and 
recapitalizing the electronic attack capability that is fully 
integrated into the Airborne Electronic Attack (AEA) deployment plan 
that has provided 12 years of combat deployments in support of COCOM 
requirements. I am very appreciative of the Congress' support for the 
purchase of three C-40A aircraft in the last two budgets. The C-40A 
provides twice the range, twice the cargo load, and twice the Ready for 
Tasking (RFT) days of the C-9B it replaces. The overall burdened hourly 
operating cost of the C-9B is $8,147/flight hour versus the C-40A cost 
of $6,141/flight hour. As a result, a $42 million per year cost 
avoidance will be realized by completing C-40A procurement and retiring 
the 15 remaining C-9Bs.
    The fiscal year 2011 budget also supports the creation of a fourth 
Riverine Squadron for the Navy Expeditionary Combat Command (NECC). 
This additional unit was expressly addressed in the most recent 
Quadrennial Defense Review, and recognizes the unique skills and 
capabilities that the joint forces desire for current operations. NECC 
is manned equally by AC and RC personnel.
    We will continue to utilize NGREA as available to meet the needs of 
the Navy. NGREA has been a high impact capital infusion for the Navy 
Reserve since its inception in 1981, but has taken on added importance 
in recent years. While the Navy Reserve's NGREA service allocation has 
decreased from 11.3 percent in 2004 to 5 percent in 2009, the 
appropriation has been instrumental in resourcing the capability of 
NECC and has bolstered the recapitalization of critical RC equipment in 
both Naval Aviation and the Surface Navy. In fiscal year 2009, the Navy 
Reserve executed NGREA funding to equip the Maritime Expeditionary 
Support Force, Explosive Ordnance Disposal, Naval Construction Force, 
Naval Expeditionary Logistics Support Group, Naval Aviation and Surface 
Warfare units with: tactical and armored vehicles; Civil Engineering 
Support Equipment; communications equipment; Table of Allowance 
equipment; aviation modernization upgrades; and Rigid Hull Inflatable 
Boats. I am thankful for the $55 million NGREA allocated to the Navy 
Reserve for fiscal year 2010.
    Secretary of the Navy Ray Mabus has committed the Navy and Marine 
Corps to meet bold, ambitious goals to advance Navy's energy strategy. 
The Navy Reserve, in cooperation with the Naval Installations Command, 
is committed to providing the Secretary an innovative and agile RC that 
can and will be a significant force multiplier in the pursuit of these 
goals.
    Navy Reserve Military Construction and Facilities Sustainment, 
Restoration and Modernization (FSRM) projects will be stringently 
evaluated for efficient use of energy and water, use of new and 
emerging energy technologies, employment of innovative strategies and 
best practices, use of renewable energy sources, and energy-efficient 
mobility. Large-scale, comprehensive organizational efforts will be 
made in the use of energy efficiency and management tools. All Navy 
Reserve Military Construction and FSRM projects will incorporate 
conservation measures and environmental stewardship practices into 
their design and execution. The focus will be to reduce the cost and 
environmental impact of Navy Reserve construction projects by advancing 
energy efficiency and water conservation, promoting the use of 
distributed and renewable energy, and improving utility management 
decisions at all Reserve facilities.
    Additionally, these energy goals can be helpful in facilitating 
transformation of the force; for example, completion of C-40A fleet 
logistics squadron recapitalization will offer a 13.2 percent fuel 
consumption reduction over the aging C-9B. Fuel savings in excess of 
43,300 barrels per year will be realized when the C-9s are finally 
retired.
    The Navy Reserve is an agile, innovative force, and in no arena is 
that description more apt than in the realm of Information Dominance. 
Navy Reserve has engaged in a directed, efficient transition from 
legacy systems and has successfully piloted state of the art solutions 
that are currently in use and will be used by the Fleet of the future. 
Continued use of this responsive Force as the Navy's test platform is 
critical in successfully deploying the latest technology in the most 
timely and cost effective manner possible.
    The threat posed to the government from aggressive actors in the 
cyber arena grows every day, and the Navy is engaged in actions to keep 
our country's systems protected. Key to the Cyber Manpower Strategy is 
the development of an RC Surge capability. The vision is to transition 
current Cyber manpower into Reserve Cyber Units that would serve in 
this capacity. Also, an enhanced direct-commission program would allow 
for increased accession of Cyber specialists. Finally, the Navy is 
considering a Civilian Cyber Augment Force: an ``on call'' team of 
experts that can provide strategic relevance and depth to the Navy as 
the cyber environment changes and technical progress is made. Civilian 
experts and consultants can be rapidly hired under existing authorities 
to meet the emerging critical requirements of Fleet Cyber Command/
Commander Tenth Fleet. We feel this effort can open unexplored areas of 
expertise in support of Navy's Cyber vision and mission execution.

                               CONCLUSION

    Since 9/11, more than 62,000 mobilization requirements have been 
filled by SELRES personnel, along with an additional 4,500 deployments 
by FTS Sailors in support of the on-going conflicts in Iraq, 
Afghanistan, and the Horn of Africa. On any given day, more than 20,000 
Navy Reservists, or about 31 percent of the Force, are on some type of 
orders providing support to global operational requirements of Fleet 
Commanders and COCOM global operational requirements. Our Navy Reserve 
Force--more than 66,500 Sailors--are forward deployed in support of 
Coalition forces, at their supported commands around the world, or in 
strategic reserve and ready to surge 24/7 if and when additional Navy 
Total Force requirements arise.
    I am proud to be a Navy Reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's call to duty. I am honored to receive the 
support of Congress on key initiatives, such as providing TRICARE 
eligibility to ``gray area'' retirees. Although I readily admit my 
bias, there has never been a better time to be part of the Navy-Marine 
Corps team, and our Navy Reserve is clearly an integral part of the 
this hard-working, high-spirited and amazingly capable force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests globally. The Navy Reserve's flexibility, responsiveness, and 
ability to serve across a wide spectrum of operations clearly enhances 
the Navy Total Force, acts as a true force multiplier, and provides 
unique skill sets towards fulfilling Navy's requirements in an 
increasingly uncertain world.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Chairman Inouye. General Kelly.

STATEMENT OF LIEUTENANT GENERAL JOHN F. KELLY, 
            COMMANDER, MARINE FORCES RESERVE AND MARINE 
            FORCES NORTH
    General Kelly. Mr. Chairman, Senator Cochran, like everyone 
at the table, I want to first start off by saying thank you so 
very much for all of the support you've provided the Reserve 
component for as long as I can remember, sir; and I've had a 
fair amount of experience in this city working these issues.
    There are in the neighborhood of 90,000--if you consider 
all classes of marine reservists, we're about 90,000; almost 
40,000 of them are being what we would consider to be drilling 
reservists, spread out across the country, like we all are, 183 
different locations, 48 States, Puerto Rico. The strength of 
our Marine Corps Reserve has always been, perhaps, first and 
foremost, the very, very large percentage of marines in the 
Reserve component have considerable Active Duty time--4, 6, 8, 
10 years. Not all, but a considerable number. All of the 
requirements are the same. It's a total force organization, to 
say the least. Marine reservists don't consider themselves 
part-time marines or second-tier marines. It is one very large 
Marine Corps.
    Since 9/11, of course, one of the great strengths of the 
Marine Corps Reserve is that virtually all of us--all of them--
have been involved in the fight at least once, and in many 
cases, multiple times. All of our battalions and squadrons have 
been called up or have had substantial portions activated and 
served at least once in Afghanistan or Iraq; 7,000 are 
mobilized today.
    I'm an Active Duty officer. I have used and abused 
reservists many times over my nearly 35 years in the Marine 
Corps, and I only saw one part of the Reserves. And I just 
wanted to share with you, on this issue of operational versus 
Strategic Reserve. When I took this job, in October, my 
thinking was that the natural state of a reservist, or at least 
Marine Corps reservist, is weekend--a weekend a month and 2 
weeks during the year. And that could not be--and you've heard 
that many times here this morning--could not be further from 
the truth. They see themselves as gunfighters because they are 
gunfighters. The vast majority of them have served as an 
operational Reserve since 9/11.
    And their appeal to me--and this comes from families, as 
well--is, as long as this fight is on, they want to be in it. 
And even when this fight is over, they want to continue in this 
operational Reserve mode, they don't want to be put back on the 
shelf. And we ought not to lose their services as we go into 
the future.

                           PREPARED STATEMENT

    Recruiting is good. Retention is good. The marines are 
happy. The families are happy. I look forward to your 
questions.
    [The statement follows:]

         Prepared Statement of Lieutenant General John F. Kelly

    Mr. Chairman, Senator Cochran and distinguished Members of the 
Subcommittee, it is my honor to report to you on the state of the 
Nation's Marine Corps Reserve.
    I assumed command of Marine Forces Reserve (MFR) and Marine Forces 
North in October of last year; however, these past months have by no 
means been my first experience with the Reserve Component (RC). Over my 
many years as a Marine, but particularly over the course of three tours 
totaling nearly 3 years in Iraq, I have served with and fought 
alongside Marine Reservists and know first hand the mettle of these men 
and women. My appearance here today represents my first opportunity to 
share with you my assessment of these tremendous Marines, and to 
outline my priorities for the Force going forward.
    First and foremost Marine Forces Reserve continues to be an 
integral element of the Marine Corps' ``Total Force.'' We share the 
culture of deployment and expeditionary mindset that has dominated 
Marine Corps culture, ethos and thinking since our beginning more than 
two centuries ago. All Marines stand eternally ready to answer the 
Nation's 9-1-1 call and as our charter requires, is to ``be most ready 
when the Nation is least ready.'' The Reserve Component is trained, 
organized and equipped in the same way the active forces are, and 
consequently we are interchangeable and forever leaning forward to 
deploy as the Nation requires. The Commandant of the Marine Corps 
recently stated that Marine Forces Reserve can be ``whatever the Nation 
needs it to be,'' an operational or a strategic reserve. Sustained 
combat operations and worldwide theater security cooperation and 
training commitments over the last 9 years more than suggest the 
essential need for the Reserves to continue focusing at the operational 
vice strategic end of the continuum. Indeed, in the just-published 
United States Marine Corps Service Campaign Plan 2009-2015, Marine 
Forces Reserve is tasked no less than five times to train, organize and 
equip for participation as an ``operational reserve'' within the Corps' 
Total Force. The Marines themselves, most of whom came to the Nation's 
colors after 9/11 and have deployed deep into harms way, prefer this 
model and do not desire to assume lives as so called ``weekend 
warriors.'' This high level of flexibility, responsiveness and elan is 
only possible by the ever deepening bench of combat tested and uniquely 
qualified citizen ``Soldiers of the Sea.'' I am humbled daily by my 
interactions with these magnificent young Americans. Like their active 
duty brothers and sisters they sacrifice so much of their time, and so 
much of themselves, to protect and serve this Nation. The way they 
balance their family responsibilities, and civilian lives and 
occupations--and still stay Marine--amazes me. They do it with 
humility, without fanfare, and with a sense of pride and dedication 
that is consistent with the great sacrifices of Marines of every 
generation. They continue to affirm the Commandant's conviction that 
today's Marines are cut from the same cloth as those who fought 
conspicuously upon the battlefields of our Corps' long history.

                      TODAY'S MARINE CORPS RESERVE

    The Commandant has said the Marine Corps Reserve will be whatever 
the Nation needs it to be. In the last decade, the nation has needed 
its Marine Reserves to be continuously engaged in combat operations in 
Iraq and Afghanistan and in regional security cooperation and crisis 
prevention activities. This tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations. The Marine Corps Service Campaign Plan 
calls for the employment of an operational reserve no less than 5 
times. Understanding that we are fighting a transnational enemy and 
that partner nations will continue to seek our training and mentoring 
capabilities, I expect our Marine Reservists to be in great demand 
during the coming years in a sustained manner. We are prepared to 
provide that persistent capacity. Our Commandant has further stated 
that Marines, Active or Reserve Component, join the Marine Corps to do 
the things they are now doing--deploying and winning our nation's 
battles. The nature of the fight in Afghanistan for instance, is 
particularly suited to our Marine Reserves. It is a thinking man's 
fight that requires solutions at the grassroots level, where our 
Marines operate best, among the population, as evidenced by our combat 
prowess in Iraq and humanitarian assistance today in Haiti. Our 
successes in Iraq were hastened by the types of individuals we have in 
our ranks, who were utilizing civilian skills in ways not necessarily 
anticipated, but ultimately pivotal to the success in Al Anbar. That 
maturity, creativity and confidence is what an Operational Reserve 
brings to the fight. Your Marine Corps Reserve is more highly trained, 
capable, and battle-tested than at any time since the Korean War. As an 
integral part of the Total Force Marine Corps, it blends seamlessly 
into the gaining force regardless of whether Marines come as individual 
augments, detachments, or as operational units.
    As of January 31, 2010, more than 54,000 Reserve Marines have 
executed over 70,000 mobilizations in support of Overseas Contingency 
Operations (OCO) since September 11, 2001. The vast majority of these 
Marines deployed to the U.S. Central Command area of responsibility. 
One hundred percent of Marine Corps Reserve units at the battalion and 
squadron level have either been activated in their entirety or 
activated task-organized detachments. Again, the vast majority deployed 
to the U.S. Central Command area of responsibility. Without going into 
too many specifics, 4,000 Marines and sailors--citizens from Texas, 
California, Missouri, Nevada, Utah, Maryland and Virginia--from the 4th 
Marine Division deployed to both war zones and went a long way to 
achieving success in al Anbar Province, Iraq and training security 
forces in Afghanistan. Thousands of other Division Marines also 
deployed in support of Combatant Commander Theater Security Cooperation 
initiatives to South America, Eastern Europe, Asia, Africa, Australia, 
and various Pacific island nations. This year will be no different with 
exercises planned for Norway, Peru, Belize, Uganda, Estonia and 
Morocco, and again in various nations in Asia and the Pacific islands.
    Our Reserve aviators of the 4th Marine Aircraft Wing are no less 
busy supporting Marine and joint training requirements here in the 
United States, as well as deploying fighter and helicopter squadrons to 
the war zones and Horn of Africa, and supporting Combatant Commander 
initiatives across the globe as well. Of particular note the Total 
Force Marine Corps has had to rely heavily on the 4th Marine Aircraft 
Wing in support of the Marine Corps Aviation Transition Strategy. 
Modernizing from, in some cases, 40 plus year-old legacy aviation 
systems, to the leap ahead capabilities inherent in the V-22 ``Osprey'' 
and the Joint Strike Fighter, we have had to temporarily transfer 
manpower, airframe, and support structure to the active component. 
Beginning in 2014, Marine Forces Reserve will commence the process of 
transitioning to the new systems and capabilities, but in the mean time 
is in total support of the overall Total Force modernization efforts.
    The third Major Subordinate Command of the Reserve Component is 4th 
Marine Logistics Group. Anyone who understands the Marine Air Ground 
Task Force (MAGTF) concept knows full well the ground fighters of the 
Division, and aviators of the Wing, go nowhere without the logistics 
professionals in the Group. In addition to service in both wars, and 
every one of the 57 events--large and small--that have contributed so 
mightily to all the Combatant Commanders' efforts across the globe, 
there were two special endeavors I want to highlight. The first was the 
command element's service as operational logistic providers in the 
Korean Theater last April during exercise KEY RESOLVE, made necessary 
by a dearth of joint logistics capability due to the demands of Iraq 
and Afghanistan, and particularly the additional expeditionary demands 
of transitioning Marine forces in large numbers out of Iraq and into 
Afghanistan. The second is the increased support provided to various 
Maritime Prepositioning Exercises, again made necessary by wartime 
demands experienced by the Total Force.
    Unique inside the Marine Corps is the Mobilization Command 
(MOBCOM), of Marine Forces Reserve. As the increased use of the 
Individual Ready Reserve (IRR) has grown over the last several years, 
so too has the workload of Mobilization Command. During the last fiscal 
year, more than 900 sets of mobilization orders were issued with a 
total of 653 IRR Marines reporting for activation. MOBCOM also 
processed more than 9,400 sets of shorter duration orders. Mobilization 
Command developed and participated in family readiness programs that 
are particularly difficult within the IRR construct. Initiatives like 
the Congressionally-mandated ``Yellow Ribbon Programs'' seek to provide 
support to families from initial call up through return and 
demobilization. Additionally, Mobilization Command conducted regional 
IRR musters, often partnering with other government agencies like the 
Department of Veterans Affairs, to maintain required annual contact 
with Marines once they have left active service but still ``owe'' the 
Nation reserve time.
    Let me touch again on one of the important planning mechanisms for 
an Operational Reserve. Our Force Generation Model, developed and 
implemented in October 2006, continues to provide long-term and 
essential predictability of future activations and deployments. The 
Model provides my Marines, their families, and just as importantly 
their employers, the capability to plan their lives five or more years 
out. It enables them to strike the critical balance between family, 
civilian career, and service to the Nation, while allowing employers 
time to manage the loss of valued employees. The Force Generation Model 
also assists service and joint force planners in maintaining a 
consistent and predictable flow of fully capable Marine Corps Reserve 
units. Internal to the Marine Corps this flow of fully trained and 
capable Reserve units has proven essential in reaching the Secretary of 
Defense established target of a 1:2 dwell for our Active Component. The 
Model is a relatively simple management tool based on 1-year 
activations, to 4-plus years in a non-activated status. This makes 
continued programmed utilization of the Reserve Component sustainable 
at 1:5 over the long term and supports the momentum about which I spoke 
in my introduction.
    Predictable activation dates, mission assignments and geographical 
destination years out now permits me to orient training on core mission 
requirements early in the dwell period, then transitioning training 
focus to specific mission tasks once the unit is 12-18 months from 
activation.
    In each of the past 3 years, between the wars in the Middle East 
and South Asia, and theater security cooperation activities to include 
mobile training teams conducting ``Phase Zero'' operations, nearly one-
third of our 39,600 Marines have deployed outside the continental 
United States both in an activated and non-activated status. In fiscal 
year 2009 alone, 7,500 Marines were activated and deployed in support 
of the war in Iraq and Afghanistan, and an additional 5,800 were sent 
overseas to many locations on several continents in support of joint 
and combined theater security cooperation exercises.
    For the second year in a row Marine Forces Reserve stateside will 
sponsor exercise ``Javelin Thrust'' in June focusing on Marine Air-
Ground Task Force (MAGTF) core competency training. The scenario of 
this year's event is tailored to the current operating environment, and 
participating units have been identified consistent with their future 
deployment schedule as defined by the Force Generation Model. The end 
state of the exercise (Javelin Thrust) is that the headquarters staffs 
of the participating organizations (regiments, aircraft groups, 
battalions, and squadrons) are prepared for activation and are provided 
an in-depth roadmap to guide future pre-activation training. 
Additionally, individuals serving on those staffs will receive training 
allowing them to take their place as individual augments on a MAGTF or 
joint staff overseas, while other individuals in those units will be 
prepared for activation and the conduct of pre-deployment training. 
Last year's Javelin Thrust was the first large scale MAGTF exercise 
involving all three Major Subordinate Commands (Division, Wing and 
Marine Logistics Group) in 6 years. The 2009 distributed operations 
Afghan scenario also allowed other Department of Defense agencies to 
participate and to test advanced technologies and transformational 
concepts. This year's exercise will also be conducted aboard 
installations throughout the Western United States with both virtual 
and real world aspects to the exercise.

                               PERSONNEL

    The Selected Marine Corps Reserve is comprised of Marines in 
reserve units, those in Active Reserve status, Individual Mobilization 
Augmentees, and those in initial training. When taken together, these 
various categories of Marines form the inventory of the 39,600 
authorized end strength in the Selected Marine Corps Reserve.
    Although we continue to enjoy strong volunteerism there has 
recently been some slight degradation in our ability to maintain 
authorized end strength. We were above 100 percent of our authorized 
end strength during fiscal years 2002-2005. There was a very slight 
drop to 99.71 percent in fiscal year 2006. In fiscal years 2007 and 
2008 percentages of authorized end strength dropped to 97.36 and 94.76 
percent--shortfalls of 1,044 and 2,077 individuals--respectively. This 
past fiscal year (2009), end strength improved to 97.25 percent. This 
is within the mandated 3 percent of authorization. When the 138 Marines 
who had served on active duty for more than 3 of the last 4 years were 
taken into account, our shortfall increased to 3.1 percent (1,228). The 
dip below authorized strength experienced in 2007 and 2008 was 
predicted at the time due in large measure to the pressure put on the 
recruiting and retention of individuals to serve in the active force as 
the Marine Corps built to 202,000 active duty Marines. Now that the 
202,000 goal has been met and surpassed well ahead of schedule, we are 
now institutionally focusing on Reserve recruiting and retention 
efforts to maintain required Reserve Component end strength. The bonus 
and incentive programs that you provide for recruiting and retention 
will remain essential tools to continue achieving this goal.
    The Total Force Marine Corps will undoubtedly continue to rely 
heavily upon augmentation and reinforcement provided by Marine Forces 
Reserve. I believe our authorized end strength of 39,600 is still an 
appropriate number and will consequently drive recruiting and 
retention. This number provides us with the Marines we require to 
support the Force, and achieve the Commandant's goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    The Marine Corps-Navy Reserve Team is as strong as ever. In the 
past year the Navy ensured Marine Reserve units were fully manned and 
supported with Program 9 (U.S. Navy personnel in support of Marine 
Forces) and HSAP (Health Service Augmentation Program) personnel during 
all phases of the deployment (pre, operational, post). More than 500 
Navy personnel were sourced to staff Marine Forces Reserve units 
deploying to Iraq and Afghanistan, as well as numerous joint/combined 
exercises. These individuals focused almost entirely on providing 
medical, dental and religious services. The Navy Mobilization Office 
works with my headquarters, as well as with the four major subordinate 
commands, sourcing 100 percent of all requirements. As the demand 
increases throughout the forces, Program 9/HSAP support commands a high 
level of attention to fulfill not only Marine Corps missions, but Army 
and Navy missions as well. I am confident this process will continue 
ensuring Marine Forces Reserve units are supported with qualified 
Program 9 and HSAP personnel to accomplish the mission.
    The Marine Corps is unique in that all recruiting efforts--officer, 
enlisted, Active and Reserve Component, and prior-service--fall under 
the direction of the Commanding General, Marine Corps Recruiting 
Command. This approach provides tremendous flexibility and unity of 
command in annually achieving Total Force recruiting objectives. Like 
the Active Component, Marine Corps Reserve units rely primarily upon a 
first-term enlisted force. Recruiting Command achieved 100 percent of 
its recruiting goal for non-prior service recruiting (4,235) and prior 
service recruiting (4,501) in fiscal year 2008. It also exceeded its 
recruiting goal for non-prior service recruiting (5,296) and exceeded 
100 percent of its goal for enlisted prior service recruiting (3,862) 
during fiscal year 2009. As of January 31, 2010, 2,359 non-prior 
service and 1,397 enlisted prior service Marines have been accessed, 
reflecting 46 percent of the annual enlisted recruiting mission for the 
Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    The Selected Marine Corps Reserve Affiliation Involuntary 
Activation Deferment Policy was implemented during June 2006. The 
policy allows a Marine who has recently completed a deployment with an 
active unit an option for a 2-year deferment from involuntary 
activation if they join a Selected Marine Corps Reserve once they leave 
active duty. The intent of the 2-year involuntary deferment is to allow 
transitioning Marines the opportunity to participate in the Selected 
Marine Corps Reserve, while at the same time giving them a break and an 
opportunity to start the process of building their new civilian career.
    Officer recruiting remains our most challenging area. Historically, 
the Active Component has been the exclusive source of lieutenants and 
captains for the Reserves. This arrangement has paid tremendous 
dividends. Responding to the critical challenge of manning the Reserves 
with quality company grade officers, we have implemented three 
commissioning initiatives that focus exclusively on officer accessions 
for the Reserve Component: Reserve Enlisted Commissioning Program 
(expanded to qualified active duty enlisted Marines as well); 
Meritorious Commissioning Program--Reserve (open to individuals of 
either component holding an Associates Degree or equivalent in semester 
hours); Officer Candidate Course--Reserve (OCC-R). Since 2004 these 
three programs have produced a total of 190 lieutenants for the 
Reserves with OCC-R being the most successful of the three, producing 
161 officers. The program focuses on ground billets with an emphasis on 
ground combat and combat service support and within specific Reserve 
units that are scheduled for mobilization. The priority to man units 
with these officers is once again tied to the Force Generation Model.
    All commanders and senior enlisted leaders across the force are 
tasked to retain quality Marines through example, information and 
retention programs, and mentoring. This takes place across the Marine 
experience and not just in the final days of a Marine's contract. For 
those approaching the end of their current contracts--Active or Reserve 
Component--they receive more focused counseling on the tangible and 
intangible aspects of remaining associated with, or joining, the 
Selected Marine Corps Reserve.
    With the Congress' help, affiliation bonuses, officer loan 
repayment and other initiatives have effectively supported our efforts 
to gain and retain the very best. The Commandant and certainly all of 
us in Marine Forces Reserve, greatly appreciate the continuance of all 
of the many programs that help us recruit and retain the best young men 
and women this nation produces.

                               EQUIPMENT

    As mentioned previously we are as good today as we have been since 
at least the Korean War, if not World War II. This level of proficiency 
as warfighters is due, in large part, to the amount and frequency of 
combat the reserve forces have accumulated over the past 9 years while 
serving as an operational reserve. In addition, the quality of our 
equipment is on par with that of the active duty. Therefore, it is 
imperative we spend the relatively small amount required to maintain 
our operational reserve and provide a reasonable return on that 
investment. The end result is a better trained and more capable force 
than ever operating alongside our active duty brethren on the ground, 
in the air, and at sea. To achieve and maintain this high level of 
readiness and proficiency we have like all of DOD relied heavily on 
supplemental funding in the Overseas Contingency Operational account. 
As we move forward it is in the best interests of the nation to not 
lose these historically high levels of proficiency. The current strong 
and operationally competent Reserve Component has cost us much in lives 
and budgetary treasure to achieve over the last 9 years.
    As part of the Total Force, Marine Forces Reserve has two primary 
equipping priorities. The priority is to equip units and individuals 
set to deploy, and the second is to ensure units that are accomplishing 
normal training within the first 2-3 years of their dwell cycle have 
what they need in training allowance. We will always continue to 
provide those next into the fight all that they need in the latest 
generation of individual combat and protective equipment, and unit 
suites, to fight, accomplish the mission, and come home with the fewest 
number of casualties possible. Those not as close to deploying overseas 
to combat will also continue to be equipped with the best of everything 
and tailored specifically to whatever is next in their lives as defined 
by the Force Generation Model.
    The Marine Corps approaches equipment procurement and fielding from 
a Total Force perspective with the Reserve Component treated in exactly 
the way as the three active operational Marine Forces organizations. In 
many cases we have achieved lateral fielding when Active and Reserve 
Component organizations are receiving equipment sets simultaneously. 
Again, fielding is prioritized by who is next to the fight. If they 
need it to train with post-deployment, they have it, otherwise in some 
cases they will pick it up in theater in the normal transfer of 
equipment that has marked the way the Marine Corps has done business 
since 2003.
    The National Guard and Reserve Equipment Appropriation (NGREA) 
allows me to mitigate any equipment deficiencies here in CONUS. For 
fiscal year 2009, Marine Forces Reserve received two sources of NGREA 
funding totaling $62.4 million. By providing the flexibility to 
purchase or accelerate the fielding of mission essential equipment, our 
units are better trained during pre-deployment and integrate 
effectively once they get in theater.
    As the Commandant consistently states, our number one focus will be 
the individual Marine and Sailor in combat. Ongoing efforts to equip 
and train this most valued resource have resulted in obtaining the 
latest generation individual combat and protective equipment: M16A4 
service rifles, M4 carbines, Rifle Combat Optic scopes, Lightweight 
Helmets, enhanced Small Arms Protective Insert plates, Modular Tactical 
Vests, and the latest generation Flame Resistant Organizational Gear 
(FROG.) Every member of Marine Forces Reserve has deployed fully 
equipped with the most current authorized Individual Combat Clothing 
and Equipment to include Personal Protective Equipment. The decisions 
regarding what they deploy with are made by commanders with a great 
deal of combat experience, and nothing is left to chance. However, as 
personal protective equipment has evolved over the years of this 
conflict there is now so much equipment and it is so heavy that the way 
we fight is adversely impacted. In particular the infantrymen are so 
heavy, in some cases carrying more than 100 pounds of equipment; they 
are more beasts of burden than they are agile hunters. It is not simply 
a matter of reducing the weight of individual items as these only add 
up to marginal weight savings, but hard decisions about what they carry 
and how much they carry are essential.
    The Commandant's unit equipping priority for Marine Corps Reserve 
units inside their dwell periods is to provide sufficient equipment to 
train with, but not burden the organizations with so much gear that 
they use all of their training time or unit funds maintaining it. We 
call this a reserve unit's Training Allowance (TA.) This TA is the 
amount of equipment required by each unit to conduct home station 
training. Our goal is to ensure that the Reserve TA contains the same 
equipment utilized by the active component. It is imperative that our 
units train with the same equipment they will utilize while deployed. 
The Marine Corps Reserve maintains a training allowance at each of its 
reserve centers. As a whole, we are adequately equipped to effectively 
conduct training.
    NGREA funding from 2009 continues to be used to purchase much 
needed Light Armored Vehicles, ruggedized command and control laptops, 
aircraft systems and survivability upgrades and continued procurement 
of the Logistics Vehicle Replacement System Cargo variant.
    Marines are exceptionally good stewards of American taxpayer 
dollars, and the public property procured by those monies. In order to 
sustain an inventory of current equipment necessary to conduct home 
station training several resources and programs are utilized. The first 
is the routine preventive and corrective maintenance performed locally 
by user and organic maintenance personnel. Second, we have expanded 
ground equipment maintenance efforts, which rely largely on contracted 
services and depot-level capabilities. Third is our reliance on Marine 
Corps Logistics Command mobile maintenance teams providing preventive 
and corrective maintenance support to all 183 Marine Reserve sites 
across the nation. This partnership provides a uniquely tailored Repair 
and Return Program. Fourth, we are intimately involved in the Marine 
Corps Enterprise Lifecycle Maintenance Program rebuilding and modifying 
an array of principal end items as required. Finally, we field the 
Corrosion Prevention and Control Program. Cumulatively all of these 
initiatives have resulted in a Marine Forces Reserve ground equipment 
readiness rate of 97 percent. Our 4th Marine Aircraft Wing ``mission 
capable'' rate in 2009 was 73 percent which is consistent with recent 
year rates and with the Active Component rate of 71 through November 
2009.

                                TRAINING

    The reality today is that the Reserve Component has transitioned 
from what was considered a strategic reserve, to what is today the 
``operational reserve.'' Forever gone are the days when Reserve Marines 
were considered mere ``weekend warriors'' and held in reserve to 
reinforce the active force when it experienced catastrophic casualties 
from a World War III scenario against the former Soviet Union. For the 
last 9 years our Reserves have been a fully integrated force, routinely 
deployed to fight in Iraq and Afghanistan, and to execute theater 
cooperation engagement operations around the world at the behest of the 
combatant commanders. From all of these experiences we have captured 
important lessons that we have put to immediate use in improving every 
facet of our training. In this regard, one of the most exciting areas 
where we are continuing to transform the depth and scope of our 
training remains the cutting-edge arena of Modeling and Simulations 
Technology.
    Marine Forces Reserve is fielding several immersive complex digital 
video-based training systems, complete with the sights, sounds and 
chaos of today's battlefield environments. These systems are 
particularly important considering the limited training time and 
facilities available to our commanders. Last year we completed the 
fielding and upgrading of the Indoor Simulated Marksmanship Trainer-XP 
(ISMT). These simulators make it possible for the Marines to ``employ'' 
a variety of infantry weapons (pistols through heavy machineguns) in 
rifle squad scenarios. These simulators now serve as regional training 
centers and more are planned. The Virtual Combat Convoy Trainer-
Reconfigurable Vehicle System provides invaluable pre-deployment 
training for the drivers or all makes and models of tactical vehicles. 
The conditions of terrain, road, weather, visibility and vehicle 
condition can all be varied, as can the combat scenario (routine 
movement, ambush, IED, etc.) The simulator is a mobile, trailer-
configured platform that utilizes a HMMWV mock-up, small arms, crew-
served weapons, 360-degree visual display with after-action review/
instant replay capability. We are now preparing to accept the fourth 
generation of this system, with student throughput doubling.
    Another simulation technology being fielded is the Deployable 
Virtual Training Environment (DVTE.) The DVTE also provides small-unit 
echelons with the opportunity to continuously review and rehearse 
command and control procedures and battlefield concepts in a virtual 
environment. All of this provides individual, fire team, squad and 
platoon-level training associated with patrolling, ambushes and convoy 
operations. Additional features include supporting arms upgrades (for 
virtual combined arms indirect fire and forward air control training), 
combat engineer training, small-unit tactics training, tactical foreign 
language training and event-driven, ethics-based, decisionmaking 
training. It is important to recognize the key role Congress has played 
in the fielding these advanced training systems, all of which have been 
rapidly acquired and fielded with supplemental and NGREA funding.

                               FACILITIES

    Marine Forces Reserve is comprised of 183 sites in 48 states, the 
District of Columbia, and Puerto Rico. These facilities consist of 32 
owned sites, 151 tenant locations, 3 family housing sites, and a Marine 
barracks. In contrast to Active Duty installations that are normally 
closed to the general public, our reserve sites are openly located 
within civilian communities. This arrangement requires close partnering 
with state and local entities nationwide. Thus, the condition and 
appearance of our facilities may directly influence the American 
people's perception of the Marine Corps and the Armed Forces.
    Department of Defense policy and the use of standardized models for 
Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) dollars have greatly improved funding profiles for 
our Reserve Facilities over the last several years. We are experiencing 
some of the best levels of facility readiness due to increased funding 
in the last 3 years, complemented by the addition of $39.9 million in 
stimulus dollars from the American Recovery and Reinvestment Act of 
2009.
    We have repaired and upgraded sites across the country with 
projects continuing to completion in 2011. Between the BRAC 2005 and 
our normal Military Construction of Naval Reserve (MCNR) Program, we 
will have replaced over 35 of our 183 Reserve Centers in the next 2 
years. This represents the largest movement and upgrade in memory for 
the Marine Corps Reserve.
    MARFORRES research and investment for the last 2 years in energy 
efficiency, sustainability, and renewable energy is coming to fruition 
this fiscal year. Every new FSRM renovation project or MILCON is 
targeted for energy efficiency and sustainability aspects in accordance 
with policy and Leadership in Energy and Environmental Design (LEED) 
guidelines. We recently commissioned our first LEED Silver building at 
Camp Lejeune (the first in the Marine Corps) and are anticipating 
completion this year of our first LEED Silver rehabilitation project 
for 4th Combat Engineer Battalion in Baltimore, Maryland (a potential 
first for the Marine Corps as well). All of our MILCON projects from 
fiscal year 2009 on will comply with directives to achieve LEED silver 
or higher as funding profiles allow. We will be conducting energy 
assessments of all our 32 owned sites this fiscal year along with 
preparation of smart metering technology for each to enhance 
conservation and management. The MARFORRES approach combines 
efficiency, conservation, and renewable aspects to achieve optimal 
return on investment. We have six active solar projects underway this 
year with all coming on line within the next 12 months. Our six wind 
turbine projects are under suitability and environmental evaluations. 
If findings support, they will start coming on line within 18 months at 
an anticipated payback of as little as 8 years. Marine Forces Reserve 
is working with the National Renewable Energy Lab to produce a sound 
renewable energy plan for all Marine Forces Reserve locations. Our 
investment and implementation of these technologies provides energy 
security, efficiency, and cost avoidance for our dispersed sites. The 
visibility of our projects in heartland of America and cities across 
the nation provides tangible evidence of our commitment to the future.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the MCNR program and a 
strong FSRM program are essential to addressing the aging 
infrastructure of the Marine Corps Reserve. The MCNR program for 
exclusive Marine Corps construction must effectively target limited 
funding to address at least $132 million in deferred construction 
projects of our aging infrastructure. Increases in our baseline funding 
over the last 6 years have helped to address these deferred projects 
substantially. Over 27 percent of the reserve centers our Marines train 
in are more than 30 years old and of these, 55 percent are more than 50 
years old. Past authorizations have improved the status of facilities 
in the 30 to 50 year range and continued investment will allow for 
further modernization. The $35 million in additional MCNR funding this 
fiscal year has allowed MARFORRES to commence several additional 
projects.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will relocate 12 units to 
consolidated Reserve centers this fiscal year. Marine Forces Reserve is 
executing 25 of the Marines Corps' 47 BRAC directed projects to include 
the only closure; Mobilization Command in Kansas City Missouri, is 
moving to New Orleans, Louisiana. Of these 25 BRAC actions, 21 are 
linked to Army and Navy military construction projects. Our BRAC plans 
are tightly linked to those of other services and government agencies 
as we develop cooperative plans to share reserve centers and coexist in 
emergent joint bases such as Joint Base Maguire-Dix-Lakehurst. All 
remaining Marine Corps Reserve BRAC projects are on track for 
successful completion with the directed timelines for closure.
    Of special note is the movement of Headquarters, Marine Forces 
Reserve and consolidation of its major subordinate commands in New 
Orleans. This unique BRAC project, integrating state, local and Federal 
efforts, is now well underway for the new headquarters compound and 
tracking for on time completion. The state of Louisiana is providing 
construction dollars for the new headquarters facility and saving the 
Federal government more than $130 million. The Department of the Navy 
is providing the interior finishings and security infrastructure in 
accordance with the lease agreement. This building will incorporate 
multiple energy and environmentally friendly processes to meet LEED 
certifiable standards. Marine Forces Reserve is working with the 
Department of Energy's Federal Energy Management Program to maximize 
the sustainability and energy efficiencies of the buildings and 
compound. Upon completion and certification, this building and its 
surrounding acreage will become the newest Marine Corps Installation: 
Marine Corps Support Facility, New Orleans.
    Our Marine Forces Reserve Environmental Program employs the 
Environmental Management System (EMS), which uses a systematic approach 
to ensure that environmental activities are well managed and 
continuously improving. Additionally, Marine Forces Reserve has 
initiated a nationwide program to reduce hazardous waste production and 
ensure proper disposal at our centers. Our Green Box Battery Program 
was responsible in fiscal year 2009 for recycling over 2 tons of 
various types of batteries alone. MARFORRES Environmental undertook 
steps to replace the recycling equipment with completely operable, 
fully recycling systems. Through fiscal year 2009, wash rack recycling 
systems at 16 reserve center sites have been replaced. This project has 
saved over 650,000 gallons of water and cost savings of $500,000, not 
to mention the enhanced risk avoidance to our national water 
infrastructure. Marine Forces Reserve is updating all environment 
baseline surveys of our owned sites to ensure we are current in all 
aspects of caring for our nation's resources.

                            HEALTH SERVICES

    The most important part of any Marine organization is of course the 
Marines, Sailors, Civilian Marines and families who shoulder the burden 
of defending our country every day. Taking care of them is a sacred 
trust. This begins with arduous training for combat, and equipping them 
with the best equipment in the world to do the job once deployed to the 
fight. It then extends to providing the best healthcare possible to 
them and their loved ones. Our routine health services priority is to 
attain and maintain Individual Medical and Dental Readiness goals as 
set by the Department of Defense. In 2009, individual medical and 
dental readiness for our Marines and sailors was 68 percent and 77 
percent respectively. This represents a 5 percent improvement over the 
previous year.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical readiness. This program funds contracted medical and 
dental specialists to provide healthcare services to units specifically 
to increase individual medical and dental readiness. In the near term 
Navy medicine supports through various independent contracted programs 
such as the Post Deployment Health Reassessment (PDHRA), and the 
Psychological Health Outreach Program. The first identifies health 
issues with specific emphasis on mental health concerns which may have 
emerged since returning from deployment, while the Psychological Health 
Outreach Program addresses post deployment behavioral health concerns 
through a referral and tracking process. Worthy of mention in the area 
of mental health is our full participation in a very recent initiative 
designed and ruthlessly monitored by our Commandant and Assistant 
Commandant, in an effort to get at the tragedy of suicide. Our Warrior 
Preservation Program, run by senior staff officers and non-commissioned 
officers has trained 239 instructors who will return to their home 
units and reinforce the important lessons they received. We conducted 
training for all of our personnel at each of our units and I have as 
the Commander, filmed my own message on this topic and prominently 
displayed it on our public website.
    TRICARE remains a key piece of our medical support programs, 
providing medical, dental and behavioral health services. Members of 
the Selected Reserve qualify for and may enroll in TRICARE Reserve 
Select, which provides TRICARE Standard coverage until the member is 
activated. While on military duty for 30 days or less a Reservist who 
does not choose TRICARE Reserve Select coverage is covered under Line 
of Duty care. Upon activation, and during any applicable early 
identification period, the Reservist is covered by TRICARE Prime and 
may choose to enroll eligible family members in TRICARE Prime, Prime 
Remote or Standard. When deactivated, a Reservist who mobilized in 
support of overseas contingency operations is eligible for 180 days of 
TRICARE transitional health plan options. With your support these DOD 
programs will continue to provide Reservists and their family members' 
important medical benefits as they transition on and off active duty 
status.

                            QUALITY OF LIFE

    Our Commandant has affirmed that our Corps' commitment to Marines 
and Sailors in harm's way extends to their families at home. As part of 
Marine Corps reforms to enhance family support, we are placing full-
time Family Readiness Officers (FROs), staffed by either civilians or 
Active Duty Marines, at the battalion/squadron level and above to 
support the Commandant's family readiness mission. As you might imagine 
an organization spread across the nation and overseas has unique 
challenges, but communication technologies, improved procedures and 
processes have worked to more effectively inform and empower family 
members including spouses, children and parents who often have little 
routine contact with the Marine Corps and live far from large military 
support facilities. The installation of full-time Family Readiness 
Officers at the battalions and squadrons bridges many gaps and 
overcomes many challenges unique to the reserve component. It is a low 
cost solution with a significant return on investment and I urge the 
continued support of this critical program.
    We fully recognize the strategic role our families have in mission 
readiness, particularly with mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle by 
providing education at unit family days, pre-deployment briefs, return 
and reunion briefs, and post-deployment briefs. To better prepare our 
Marines and their families for activation, Marine Forces Reserve is 
fully engaged with OSD to implement the Yellow Ribbon Reintegration 
Program, much of which we have had in place for quite some time. We are 
particularly supportive of Military OneSource, which provides our 
reservists and their families with an around-the-clock information and 
referral service via toll-free telephone and Internet access on 
subjects such as parenting, childcare, education, finances, legal 
issues, deployment, crisis support, and relocation.
    Through the DOD contract with the Armed Services YMCA, the families 
of our deployed Reserve Marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty Marines and their families located at 
Independent Duty Stations have access to these services as well.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,100 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $3 million that funded more than 3,900 courses 
during fiscal year 2009. The Marine Corps' partnership with the Boys 
and Girls Clubs of America (BGCA) and the National Association for 
Child Care Resources and Referral Agencies (NACCRRA) continues to 
provide a great resource for service members and their families in 
accessing affordable child care, before, during, and after a deployment 
in support of overseas contingency operations. We also partnered with 
the Early Head Start National Resource Center Zero to Three to expand 
services for family members of our Reservists who reside in isolated 
and geographically-separated areas.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. The Peacetime/Wartime Support Team and the 
support structure within the Inspector-Instructor staffs at our reserve 
sites provide families of activated and deployed Marines with 
assistance in a number of support areas. Family readiness directly 
impacts mission readiness and your continued support of these 
initiatives is deeply appreciated.

            CASUALTY ASSISTANCE AND MILITARY FUNERAL HONORS

    Casualty assistance remains a significant responsibility of active 
component Marines assigned to our Inspector-Instructor and Site Support 
staffs. Continued operational efforts in Afghanistan and Iraq have 
required that these Marines remain ready at all times to support the 
families of our Marines fallen in combat abroad or in unforeseen 
circumstances at home. By virtue of our geographic dispersion, Marine 
Forces Reserve personnel are best positioned to accomplish the vast 
majority of all Marine Corps casualty assistance calls and are trained 
to provide assistance to the family. Historically, Marine Forces 
Reserve personnel have been involved in approximately 90 percent of all 
Marine Corps casualty notifications and follow-on assistance calls to 
the next of kin. There is no duty to our families that we treat with 
more importance, and the responsibilities of our Casualty Assistance 
Calls Officers (CACOs) continue well beyond notification. We ensure 
that our CACOs are adequately trained, equipped, and supported by all 
levels of command. Once a CACO is designated, he or she assists the 
family members in every possible way, from planning the return of 
remains and the final rest of their Marine to advice and counsel 
regarding benefits and entitlements. In many cases, our CACOs provide a 
permanent bridge between the Marine Corps and the family, and assist 
greatly in the process of grieving. The CACO is the family's central 
point of contact and support, and is charged to serve as a 
representative or liaison to the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
Marines, performed more than 12,700 military funeral honors in 2009 (91 
percent of the Marine Corps total). We anticipate providing funeral 
honors to more than 13,000 Marine veterans in 2010, even as projected 
veteran deaths slowly decline. Specific authorizations to fund Reserve 
Marines in the performance of military funeral honors have greatly 
assisted us at sites such as Bridgeton, Missouri, Chicago, Illinois, 
and Fort Devens, Massachusetts, where more than 10 funerals are 
consistently supported each week. As with Casualty Assistance, we place 
enormous emphasis on providing timely and professionally executed 
military funeral honor support.

                               CONCLUSION

    Your Marine Corps Reserve is operational and fully committed to 
train and execute the Commandant's vision for the Total Force. The 
momentum gained over the past 9 years, in Iraq, Afghanistan and in 
support of theater engagements around the globe remains sustainable 
through coordinated focus, processes and planning. In everything we do, 
we remain focused on the individual Marine and Sailor in combat. 
Supporting that individual requires realistic training, proper 
equipment, the full range of support services and professional 
opportunities for education, advancement and retention. That is our 
charge. You should know that the patriots who fill our ranks do so for 
the myriad reasons familiar to those who wear this uniform and those 
who sustain us. Yet reservists serve while balancing civilian careers 
and outside responsibilities, often at significant personal cost. Your 
continued unwavering support of the Marine Corps Reserve and associated 
programs is greatly appreciated. Semper Fidelis.

    Chairman Inouye. General Stenner.

STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Chairman Inouye and Vice Chairman Cochran, 
thank you very much for the opportunity to be here today.
    And as I start, I'd like to introduce my Air Force Reserve 
Command Command Chief, Chief Master Sergeant Dwight Badgett, 
who joins me here today in representing the 71,000 Air Force 
Reserve members, the large majority of whom are our enlisted 
force and are the backbone of what we do out there every day.
    And I would like to also state, as I start, that, most 
recently, I had an opportunity to take a trip through the area 
of operations and stop at some places in both Afghanistan and 
Iraq. One of the stops I made was at Kandahar. And at Kandahar, 
we had an opportunity to talk to some of our engineers, our 
explosive ordnance disposal folks, and go through what kinds of 
things they were doing just coming back from missions, just 
going to missions.
    And, of course, along the way, we always have the 
photographers, and we take the pictures. And as I returned 
home, 3 days later I received a picture of one of the 
individuals on explosive ordnance detail (EOD) who I had just 
chatted with, along with the notice that he had been killed on 
a route patrol in clearing some of the IEDs that had been along 
the way. I will tell you, sir, that as I met his family on my 
return, that it really hits home that we have a sacred pact 
with this Nation to sustain and maintain these valuable 
resources that we have that we call citizen warriors in each 
and every one of our services.
    So, that brought home to me that I need to continue with 
all effort, along with you and your subcommittee, in making 
sure that we are ready and we are capable in the jobs that we 
have. And in the Air Force Reserve, we are part of every 
mission set in the Air Force. We share those missions with our 
Active Duty and our Guard partners.
    And in two perspectives I'd like to talk real quick about 
readiness and readiness that goes to training and equipping. 
The training piece of this readiness--and since I last talked 
to you and introduced what we called a ``Seasoning Training 
Program''--has been extremely successful. We have used some of 
the dollars that you have allocated to take our brand new folks 
who we have been recruiting, putting through tech school. After 
tech school, we take them into a continued training program, as 
opposed to a monthly program, and have, in fact, been able to, 
in most cases, reduce by 18 to 24 months the time at which they 
become combat ready and combat capable, thereby getting them to 
the fight earlier. We're going to continue in that vein with 
that Seasoning Training Program, accelerate that. And if those 
folks have the availability, I want to get them to the war, and 
they want to be there, and our retention is much higher on the 
folks who have been able to go do the things that they have 
signed up to do as those volunteer warriors.
    The other part of this readiness piece is, of course, 
equipping. And we've talked a lot about that. The National 
Guard and equipment (NGREA) dollars are extremely important to 
all of us. In our case, we've looked at the precision 
engagement equipment, we've finished our buys on some of the 
pods. Our gear gets to the fight, it's able to be used. We've 
accelerated those buys of our defensive systems on our large 
aircraft, and thereby get that equipment U.S. Central Command 
equipment to the area of responsibility (AOR), as well, much 
earlier.
    And then, along the way, we've got the irregular warfare 
fight that we are all fighting. And we're looking at the 
personal protective gear--the body armors, the helmets, and the 
goggles that go along with those. We're accelerating those and 
making sure that, as we partner with our Active Duty and Guard 
partners, that we have the same equipment, so we have it at the 
same time, so we train with the same equipment and then can 
deploy, seamlessly integrated, as you have noted, throughout 
the area of operations.
    Let me finish with what I see--again, back to my sacred 
bond with this Nation is to make sure that we sustain and 
maintain that Strategic Reserve, which I believe we are, first 
and foremost. I leverage that Strategic Reserve on a daily 
basis to provide that operational force around this world in 
every single mission set that the Air Force has. I want to be 
at every location that the Active force is. So, when somebody 
makes a life-changing decision, I can capture that talent; I 
put them to work in the Air Force Reserve. I will offer them to 
the Army Guard and the Army Reserve and our other partners up 
here, as well.
    We just need not to lose that talent when they have a 
change in their life. At that point, I want to make sure I know 
where all of our folks are. I want to make sure I know where 
all that talent is. And I need to manage that such that we can 
be sustainable and predictable. And I'm working very hard with 
our Air Force to change the way we mobilize, to streamline that 
process, to make it much more efficient and effective across 
all of the expeditionary combat support and the operational 
arms that we have, to make sure that we get to the warfighter 
that package of capability they need to continue the fight 
we've got in every combatant command in the world today.
    I am committed to doing that. I'm committed to the 
readiness of this particular Air Force Reserve. I'm committed 
to sustaining these folks at the highest state so we can 
seamlessly integrate and holistically look across our entire 
enterprise to ensure that we do sustain that force in a 
predictable fashion, taking care of the family, the member, and 
their employer at the same time.

                           PREPARED STATEMENT

    I look forward to your questions, sirs, and thank you for 
your support.
    [The statement follows:]

    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.

    Mr. Chairman and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The 21st century security environment requires military services 
that are flexible--capable of surging, refocusing, and continuously 
engaging without exhausting their resources and people. Moreover, the 
21st century fiscal environment is becoming ever-more constrained as 
threats by rising nations and pressing national interests compete for 
limited resources.
    In this challenging environment, the Air Force Reserve has never 
been more relevant. Reserve Airmen continue to support our Nation's 
needs, providing superb operational capability around the globe. We 
have sustained this operational capability for nearly 20 years--at high 
operations tempo for the past 9 years. The Air Force Reserve is 
accomplishing this while still providing a cost-effective Tier 1 ready 
force to the Nation available for strategic surge or ongoing 
operations.
    Speaking of ongoing operations, U.S. Air Force C-130 aircrews were 
among the first U.S. military to respond to the earthquake disaster in 
Haiti, on the ground in Port Au Prince within 24 hours of the 
earthquake. This quick response was not simply fortuitous, but the 
result of planning, preparedness, and readiness. This rapid-response 
capability is available 24/7, 365 days a year through Operation Coronet 
Oak.\1\
---------------------------------------------------------------------------
    \1\ In addition to Haitian relief support through Operation Coronet 
Oak, Air Force Reserve ISR personnel provided exploitation support to 
assess the damage and focus relief while Air Force Reserve airlift crew 
saved lives with much needed medical, water and food supplies flown 
into Haiti. Air Force Reserve members in fact planned, commanded and 
exploited Global Hawk derived exploitation missions in order to provide 
situational awareness on infrastructure status and guide relief efforts 
during one of the worst earthquakes to hit Haiti on over 200 years. The 
professional expertise and capabilities of these seasoned Citizen 
Airmen demonstrates the flexibility and service inherit in the men and 
women of the Air Force Reserve as they shifted from supporting combat 
operations to humanitarian relief.
---------------------------------------------------------------------------
    Since 1977, the Operation Coronet Oak mission has been manned 
primarily by Air Force Reserve and Air National Guard crews who rotate 
every 2 weeks, year-round. Crews from the Regular Air Force now perform 
about one-third of the mission. These Operation Coronet Oak crews are 
postured to respond within 3 hours of notification to any crises 
requiring airlift support within the U.S. Southern Command Area of 
Responsibility (AOR).
    This predictable-rotational mission allows Reservists to perform 
real-world operational missions and still meet their obligations to 
their full-time civilian employers. And, like Air Expeditionary Force 
(AEF) rotations, this operation leverages the Tier 1 readiness of Air 
Force Reserve Airmen in a way that works for the Combatant Commander, 
and the Reservist. Equally important, when Air Force Reserve Airmen are 
not training or performing an operational mission--they are not being 
paid; yet they remain ready to respond to any crisis within 72 hours 
should they be called upon. In this resource-constrained environment in 
which manpower costs are placing downward pressure on our budgets, I 
believe this full-time readiness/part-time cost is a great use of 
taxpayer dollars.
    This next year brings new challenges and opportunities. Air Force 
Reserve Airmen are being integrated into a wider variety of missions 
across the full spectrum of Air Force operations. Indeed, the 
Department of Defense (DOD) is considering using Reservists from all 
services to perform missions utilizing their unique civilian skill 
sets.
    The challenges we face are not unique to the Air Force Reserve or 
the Air Force as a whole. Each of the military services is being asked 
to shift capability and capacity across the spectrum of conflict--
including irregular warfare--and to resource accordingly. Each has been 
asked to shift focus away from major weapon systems acquisitions and to 
the current fight.\2\
---------------------------------------------------------------------------
    \2\ In Operations Enduring and Iraqi Freedom, Reserve C-130 crews 
flew over 9,800 hours in fiscal year 2009; Reserve F-16 and A-10 crews 
flew over 5,400 hours. The Air Force Reserve provides 24 crews and 12 
fighter aircraft to USCENTCOM in their regularly scheduled rotations 
for the close air support mission.
---------------------------------------------------------------------------
    To do so, all three components of the Air Force must continually 
strive to improve the capability provided to the warfighter. Each 
service component must examine its existing business practices and 
explore new processes to make optimal use of personnel, platforms, and 
monetary resources. The Air Force Reserve is helping lead the way in 
improving Air Force capability as we approach fiscal year 2011 and 
beyond.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st century, we submit that a model by which 
ordinary people, dedicated to serving their country in ways that meet 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force every day--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve alongside these great Airmen and as Chief and 
Commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian careers, their families and their employers. I will 
work to eliminate barriers to service, so that they can more easily 
serve in the status that meets their needs and those of the Air Force. 
And, I will work to efficiently and effectively manage our Air Force 
Reserve to meet the requirements of the Joint warfighter and the 
Nation.

                        RECRUITING AND RETENTION

    Over the last 9 years, the Air Force Reserve has exceeded its 
recruiting goals and is on track to meet fiscal year 2010 recruiting 
and end-strength goals. Our success in great part has been due to the 
accessions of experienced Active Component members upon completion of 
their active duty commitments. Indeed, recruiting highly trained 
individuals is essential to lowering the training costs for the Air 
Force Reserve. For some of our most critical specialties, affiliation 
and retention bonuses have provided a greater return on investment 
versus recruiting non-prior service Airmen. However, due to lower 
Regular Air Force attrition rates, we no longer have the luxury of 
large numbers of experienced Airmen leaving Active service.
    As the Air Force Reserve builds end strength to meet the needs of 
new and emerging missions, we are facing significant recruiting 
challenges. Not only will the Air Force Reserve have access to fewer 
prior-service Airmen; but, we will be competing with all other services 
for non-prior service (NPS) recruits. In fact, our non-prior service 
recruiting requirement has nearly doubled since the end of fiscal year 
2007. To improve our chances of success, we have increased the number 
of recruiters over the next 2 years.
    Air Force Reserve retention is solid with positive gains in all 
categories in fiscal year 2009, after rebounding from a slight annual 
drop from fiscal year 2006-fiscal year 2008. Both officer and enlisted 
retention are up; enlisted retention has returned to the fiscal year 
2006 rate. Career Airman retention is at its highest level in the last 
five years.
    Some of this success can be attributed to implementing several 
retention-focused initiatives such as developing a wing retention 
report card tool and General Officer emphasis on retention during base 
visits. With Air Force Reserve retention at its best for the last 3 
years, this renewed focus on retention is expected to ensure that rates 
continue on a positive trend.
    We can't take all the credit for this success. Congress has 
generously responded to our requests for assistance with improved 
benefits such as the post-9/11 GI Bill, inactive duty training (IDT) 
travel pay, and affordable TRICARE for members of the Selected Reserve.
    To date, under the conditions of the post-9/11 GI Bill benefit, the 
Air Force Reserve has processed over 4,400 transferability requests 
impacting nearly 7,000 dependents. Under the Individual Duty Training 
travel pay benefit, more than 5,100 Air Force Reservists have received 
this benefit. This has helped us address those critical duty areas 
where we have staffing shortages.
    Since October 2007 when the three-tier TRICARE plan was eliminated, 
the Air Force Reserve has seen an increase in covered lives from 4,541 
to 14,982 through January 31, 2010, equaling a 330 percent increase in 
program usage. The current coverage plan has made TRICARE more 
accessible and affordable for members of the Selected Reserve at a 
critical time when healthcare costs are rising. In addition to these 
new benefits, the Air Force Reserve has taken advantage of the many 
tools that you have provided us including the bonus program, the Yellow 
Ribbon Program, and our Seasoning Training program.
    The Bonus program has been pivotal to recruiting and retaining the 
right people with the right skills to meet Combatant Commander 
warfighting requirements. The Air Force Reserve uses the Bonus Program 
to fill requirements on our ``Critical Skills List.'' Those skills are 
deemed vital to Air Force Reserve mission capability. Development of 
these skills usually requires long training courses and members who 
have these skills are in high demand within the private sector. We are 
able to offer a wide menu of bonuses for enlistment, reenlistment, 
affiliation, and health professionals.
    Our Yellow Ribbon Reintegration Office is up and running and fully 
implementing Department of Defense directives. Our program strives to 
provide guidance and support to the military members and their families 
at a time when they need it the most, to ease the stress and strain of 
deployments and reintegration back to family life. Since the standup of 
our program from August 2008 to December 2009, we have hosted 113 total 
events across 39 Wings and Groups. 4,515 Reservists and 3,735 family 
members attended these events reflecting a 67 percent program usage 
rate for members deployed during this timeframe. From event exit 
surveys and through both formal and informal feedback, attendees 
indicated positive impressions, expressing comments about feeling 
``better prepared, (and) confident following events.''
    Designed to build a ``ready force,'' our Seasoning Training Program 
allows recent graduates of initial and intermediate level specialty 
training to voluntarily remain on active duty to complete upgrade 
training. The results have been a larger pool of deployable Reservists 
at an accelerated rate through this program. As a force multiplier, 
seasoning training is ensuring the Air Force Reserve maintains its 
reputation for providing combat-ready Airmen for today's joint fight. 
The Seasoning Training Program is also proving beneficial for 
recruiting, training, and retaining members in the Air Force Reserve. 
This program is a success story and one that we will build on in the 
next year.
    The Air Force Reserve is working hard to increase Reservists' 
awareness of benefits and incentives associated with their service. 
Reservists are taking advantage of these programs because they are 
having their intended effect. These programs are helping to create the 
sustainable and predictable lifestyle that our members need to continue 
to serve in the Air Force Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but also on those of the Air Force and the Department of 
Defense with the continued support of this Committee and Congress, we 
will be able to continue to meet the needs of Combatant Commanders and 
the Nation with a viable operational and strategic Air Force Reserve.

 MAINTAIN A STRATEGIC RESERVE WHILE PROVIDING AN OPERATIONAL, MISSION 
                              READY FORCE

    The Air Force Reserve is first and foremost a strategic reserve 
leveraged to provide an operational, mission ready force in all mission 
areas.\3\ Air Force Reserve Airmen accomplish this by training to the 
same standards and currencies as their Regular Air Force counterparts. 
As indicated at the outset, Air Force Reserve Airmen continue to 
volunteer at high levels and provide superb operational capability 
around the globe, serving side by side with the joint team. These 
Airmen provide the insurance policy the Air Force and the Nation need: 
a surge capability in times of national crises. In fact, the Air Force 
Reserve is currently mobilizing our strategic airlift resources and 
expeditionary support to assist surge requirements in Afghanistan.\4\
---------------------------------------------------------------------------
    \3\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. Between 1991 and 
2003, Reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on September 11, 2001, 54,000 
Reservists have been mobilized to participate in Operations Enduring 
Freedom, Noble Eagle, and Operation Iraqi Freedom--6,000 remain on 
active duty status today. It is a fact that the Air Force now, more 
than any other time, relies on members of the Reserve and Guard to meet 
its operational requirements around the globe.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 43 percent of each AEF rotation and 
augment existing USEUCOM and USPACOM AE forces in conducting 12 Tanker 
Airlift Control Center tasked AE channel missions each quarter--all on 
a volunteer basis.
    In 2009, the men and women of our Combat Search and Rescue (CSAR) 
forces have been heavily engaged in life saving operations at home and 
abroad. Since February, Airmen of the 920th Rescue Wing at Patrick Air 
Force Base, Florida, and their sister units in Arizona and Oregon, flew 
over 500 hours and saved more than 200 U.S. troops on HH-60 helicopter 
missions in support of U.S. Army medical evacuation operations in Iraq 
and Afghanistan. While mobilized for 14 months in support of combat 
missions abroad, the 920th continued to provide humanitarian relief in 
response to natural disasters at home, as well as provide search and 
rescue support for NASA shuttle and rocket launches. In addition, the 
39th Rescue Squadron (HC-130s), also at Patrick AFB, flew rescue 
missions in Africa and provided airborne CSAR support during the rescue 
of the Maersk Alabama's Captain from Somalian pirates.
    The Air Force Reserve provides 100 percent of the airborne weather 
reconnaissance (hurricane hunting) capability for the Department of 
Defense. Throughout the year, the Citizen Airmen of the Air Force 
Reserve's 53rd Weather Reconnaissance Squadron ``Hurricane Hunters'', a 
component of the 403rd Wing located at Keesler Air Force Base in 
Biloxi, Mississippi fly over 1,500 operational storm hours. The 
Hurricane Hunters have 10 WC-130J Super Hercules aircraft that are 
equipped with palletized meteorological data-gathering instruments. 
They fly surveillance missions of tropical storms and hurricanes in the 
Atlantic Ocean, the Caribbean Sea, the Gulf of Mexico and the central 
Pacific Ocean for the National Hurricane Center in Miami. The unit also 
flies winter storm missions off both coasts of the United States and is 
also used to perform advanced weather research missions for the DOD and 
the National Oceanic and Atmospheric Administration (NOAA). The life-
saving data collected makes possible advance warning of hurricanes and 
increases the accuracy of hurricane predictions warnings by as much as 
30 percent.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and state public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, Ohio, 
sprayed more than a million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our intelligence, surveillance and reconnaissance professionals are 
providing critical information as they answer the nation's call to 
service. Since September 11, 2001, 1,079 intelligence personnel have 
deployed in support of world-wide contingency missions to include 
Afghanistan and Iraq. For the foreseeable future, Reserve intelligence 
professionals will continue to be deployed throughout the Combatant 
Command theaters, engaged in operations ranging from intelligence 
support to fighter, airlift, and tanker missions to ISR operations in 
Combined Air Operations Centers and Combined/Joint Task Forces as well 
as support to the National Command Authority, such as, Defense 
Intelligence Agency, National Security Agency and National Geospatial-
Intelligence Agency.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve Airmen have made and will continue to make around 
the clock, around the world, each and every day.
    \4\ Our Reserve community continues to answer our nation's call to 
duty with large numbers of volunteer Reservists providing essential 
support to Combatant Commanders. 46 percent of the Air Force's 
strategic airlift mission and 23 percent of its tanker mission 
capability are provided by Reserve Airmen. We currently have over 450 
C-17, C-5, KC-135, and KC-10 personnel on active duty orders supporting 
the air refueling and airlift requirements.
---------------------------------------------------------------------------
    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve Airmen are among the most 
experienced Airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for Regular Air Force 
officers and enlisted, respectively. In fact, roughly 64 percent of Air 
Force Reserve Airmen have prior military experience.
    Reserve Airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end-strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve Airmen cost per capita is 27.7 percent of that of Regular 
Air Force Airmen, or roughly 3.5 Reserve Airmen to one Regular 
Airman.\5\
---------------------------------------------------------------------------
    \5\ Fiscal year 2008 budget, figures derived from ABIDES (Automated 
Budget Interactive Data Environment System), the budget system 
currently in use by the Air Force and recognized as the official Air 
Force position with respect to the Planning, Programming and Budget 
Execution (PPBE) system. Inflation data used for any constant dollar 
calculations were based on average Consumer Price Index for All Urban 
Consumers (CPI-U) rates for the past 10 years: roughly 2.6 percent 
average annual rate of inflation. Medicare Eligible Retirement Health 
Care (MERHC) is an accrual account used to pay for health care of 
Medicare-eligible retirees (age 65 and beyond). Cost per capita figures 
were derived dividing cost of Selected Reserve program by Selected 
Reserve end-strength. When MERHC figures are included, the cost of Air 
Force Reserve Airmen to Regular Air Force Airmen increases to 30.4 
percent.
---------------------------------------------------------------------------
    However, we cannot take for granted the high level of commitment 
our Reservists have thus far demonstrated. We must do our best to 
ensure their continued service. Accordingly, we are undertaking 
enterprise-wide actions to make Air Force Reserve service more 
predictable.
    In the Air Force Reserve, we are revising our management structures 
and practices to eliminate redundancies associated with mobilizing and 
deploying Reservists to meet Combatant Commanders' requirements. The 
intent is to create an integrated process that will be more responsive 
to the needs of Reservists, provide them greater predictability, make 
participation levels more certain, and ultimately provide Combatant 
Commanders with a more sustainable operational capability. This is 
still a work in progress.
    At the Pentagon, the Air Force Reserve is examining its processes 
to improve Reserve interaction among the Air Force Headquarters staff 
to better support the Chief of Air Force Reserve, the Chief of Staff of 
the Air Force, and the Secretary of the Air Force in discharging their 
service responsibilities. Through the Air Reserve Personnel Center, the 
Air Force Reserve is also taking action to improve Reserve and Air 
National Guard personnel administrative and management capabilities. 
Collectively, these actions will contribute to the overall health of 
the strategic reserve and improve the sustainability of the Air Force 
Reserve and the Air Force operational capability required by the 
warfighters in this new century.

          PRESERVE THE CARE AND VIABILITY OF THE RESERVE TRIAD

    Reservists have relationships with three basic entities: family, 
civilian employer, and military employer--what I like to call ``The 
Reserve Triad.'' Helping our Airmen preserve these relationships is 
critical to our sustainability. In this Year of the Air Force Family, 
our policies and our actions must support the viability of these 
relationships--especially the one Reservists have with their families. 
Open communication about expectations, requirements, and opportunities 
will provide needed predictability and balance among all three 
commitments.
    To that end, we are now consistently and actively surveying Reserve 
and Regular Airmen to better understand why they come to serve and why 
they stay. We are continually learning and gaining a better 
understanding of attitudes toward service and issues associated with 
employers and family. From their feedback, I can better advocate for 
benefits that help us recruit and retain Airmen for the Air Force 
Reserve.
    Military services must be flexible: capable of surging, refocusing, 
and continuously engaging without exhausting resources and people. That 
is sustainability. Approaching fiscal year 2011 and beyond, it is 
imperative that we preserve the health of our strategic Reserve and 
improve our ability to sustain our operational capability. Going 
forward, we need to continuously balance capabilities and capacity 
against both near-term and long-term requirements.
    Clearly, in a time of constricted budgets and higher costs, in-
depth analysis is required to effectively prioritize our needs. We must 
understand the role we play in supporting the warfighter and 
concentrate our limited resources in areas that will give us the most 
return on our investment. Optimizing the capability we present to the 
warfighter is a top priority, but we must simultaneously support our 
Airmen, giving them the opportunity to have a predictable service 
schedule and not serve more than they can sustain.

              BROADEN TOTAL FORCE INITIATIVE OPPORTUNITIES

    As weapons systems become increasingly expensive and more capable, 
their numbers necessarily go down. Aging platforms are being retired 
and not replaced on a one-for-one basis. The Air Force is required to 
make the most of its smaller inventory. To this end, the Air Force 
Reserve, Air National Guard, and Regular Air Force are integrating 
across the force, exploring associations wherever practical. The Air 
Force is aggressively examining all Air Force core functions for 
integration opportunities.\6\
---------------------------------------------------------------------------
    \6\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association,'' ``Active Association,'' and ``Air Reserve 
Component Association.''
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces (CAF): our first fighter aircraft ``Classic'' 
association at Hill Air Force Base, Utah, attained Initial Operational 
Capability in June of 2008. This association combined the Regular Air 
Force's 388th Fighter Wing, the Air Force's largest F-16 fleet, with 
the Air Force Reserve's 419th Fighter Wing, becoming the benchmark and 
lens through which the Air Force will look at every new mission. The 
477th Fighter Group, an F-22 unit in Elmendorf, Alaska, continues to 
mature as the first AFR F-22A associate unit. This unit also achieved 
Initial Operating Capability in 2008 and will eventually grow into a 
two-squadron association with the Regular Air Force.
    The Air Force Reserve Command is establishing its first 
Intelligence, Surveillance and Reconnaissance Group Association at 
Langley AFB, Virginia, this year. This Group and assigned Intelligence 
Squadrons of Reserve Airmen will partner with the Regular Air Force to 
provide operational command and control of units delivering real-time, 
tailored intelligence to combat forces engaged in missions in Iraq and 
Afghanistan, with data derived from theater Predator/Reapers, Global 
Hawks and U-2s, in partnership with the Total Force team. The Air Force 
has also programmed additional associate intelligence squadrons for 
Beale and Langley Air Force Bases for distributed support to global ISR 
operations to include USEUCOM, and USPACOM theaters. Once these units 
have reached full operational capability, Air Force Reserve 
exploitation and analysis surge capacity of Remove Piloted Aircraft 
(RPAs) will be approximately 10 percent of the Air Force's capability 
based on 65 orbits. Additional Command and Control Intelligence, 
Surveillance, and Reconnaissance capability is being stood up with an 
AFRC associate Air Forces Forces Command (AFFOR) unit at Beale AFB, 
California, to support USPACOM and one at Hurlburt AFB, Florida to 
support USSOCOM global Special Operations Forces. These new 
capabilities create a strategic reserve force ready to respond to the 
call of our nation, capable of being leveraged as operational crews 
ready and willing to support the Regular Air Force in everyday missions 
around the world. This model has proven itself and is the basis for the 
growth of associations over the last 5 years.
---------------------------------------------------------------------------
    Over the past 40 years, we have established a wide variety of 
associate units throughout the Air Force, combining the assets and 
manpower of all three components to establish units that capitalize on 
the strengths each component brings to the mix. We recently partnered 
with Air Mobility Command to create three more active associate flying 
squadrons in 2010 and beyond. About 500 Regular Airmen will associate 
with Air Force Reserve flying units at Keesler AFB, Mississippi (C-
130J); March Air Reserve Base, California (KC-135); and Peterson AFB, 
Colorado (C-130H) by 2012.\7\
---------------------------------------------------------------------------
    \7\ Under the ``Active'' model, the Air Force Reserve or Guard unit 
is host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. Additionally, the Air Force 
Reserve will take delivery of an additional C-40 in fiscal year 2011, 
appropriated in the fiscal year 2009 Consolidated Security, Disaster 
Assistance and Continuing Appropriations Act. This additional C-40 will 
help to replace the 3 C-9Cs, which are costly to maintain and fly. To 
better utilize the current fleet of C-40s at the 932nd, the Air Force 
created an Active Association. We also are benefitting from our first 
C-130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS) in New York, the Air Force 
Reserve has primary responsibility for the equipment while the Guard 
shares in the operation of the equipment and works side by side with 
the Reserve to maintain the equipment. The Air National Guard has 
transitioned from the KC-135 air refueling tanker to the C-130, 
associating with the 914th Reserve Airlift Wing. The 914th added four 
additional C-130s, resulting in 12 C-130s at Niagara ARS. This ARC 
Association model provides a strategic and operational force for the 
Regular Air Force while capitalizing on the strengths of the Air 
National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
state emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve Components.
---------------------------------------------------------------------------
    But associations are not simply about sharing equipment. The goal 
is to enhance combat capability and increase force-wide efficiency by 
leveraging the resources and strengths of the Regular Air Force, Air 
National Guard, and Air Force Reserve while respecting unique component 
cultures in the process. To better accommodate the Air Force-wide 
integration effort, the Air Force Reserve has been examining its four 
decades of association experience. With Regular Air Force and Air 
National Guard assessment teams, we have developed analytical tools to 
determine the optimal mix of Reserve, Guard, and Regular forces in any 
given mission. These tools will give the Air Force a solid business 
case for associating as we go forward.

                       AIR FORCE RESERVE MANPOWER

    The Air Force is balancing Reserve forces across the full spectrum 
of conflict. We are leveraging the experience of Reservists to 
alleviate stressed career fields. And we are improving our ability to 
retain experienced Airmen by providing them a means to stay in the 
service following any life-changing decisions they make regarding full-
time participation. Over the next decade, the Air Force Reserve will 
grow into many new mission areas, including nuclear enterprise, 
intelligence, surveillance, reconnaissance, unmanned aerial systems, 
space, and cyberspace.
    However, rebalancing a force can take time, and the fight is now. 
To meet the more pressing needs of the Air Force, such as easing strain 
on stressed career fields and taking on new mission sets, the Air Force 
Reserve is growing by 2,100 Airmen in fiscal year 2010. This will bring 
Air Force Reserve authorized end-strength to 69,500. By fiscal year 
2013, Air Force Reserve end-strength is planned to grow to 72,100. As 
mentioned earlier, the Air Force Reserve is truly a cost-effective 
operational force; making up nearly 14 percent of total Air Force end 
strength at a cost of just over 5 percent of the Military Personnel 
budget.
    These manpower increases are placing a premium on recruiting highly 
qualified and motivated Airmen and providing them the necessary 
training. The Air Force Reserve recruiting goal for fiscal year 2010 is 
10,500. While we met our goal of 8,800 new Airmen for fiscal year 2009 
in August, nearly 2 months before the end of the fiscal year, our 
forecast models indicate we will continue to face challenges in both 
recruiting and retention.
    Each of these measures--Total Force Integration (TFI), expanding 
into new mission areas, rebalancing of forces, and, where needed, 
increasing manpower--will help the Air Force more closely align force 
structure to current and future DOD requirements, as well as provide 
increased capability to the combatant commanders.

                    AIR FORCE RESERVE MODERNIZATION

    The Air Force Reserve is an organization of extraordinary working 
people, wedded to the fabric of our great Nation. Our Citizen Airmen 
support all Air Force mission areas in air, space, and cyberspace. They 
are trained to the same standards and readiness as their Regular 
Component peers and are among the most highly-experienced members of 
the United States Air Force.
    A number of trends continue to influence dependence on Air Force 
Reserve forces to meet the strategic and operational demands of our 
nation's defense: sustaining operations on five continents plus surge 
efforts in Iraq and Afghanistan and the resulting wear and tear on our 
aging equipment; increasing competition for defense budget resources; 
and increasing integration of the three Air Force components.
    The Air Force leverages the value of its Reserve Components through 
association constructs in which units of the three components share 
equipment and facilities around a common mission. Increasing 
integration of all three Air Force components requires a holistic 
approach be taken when modernizing. To ensure our integrated units 
achieve maximum capability, the precision attack and defensive 
equipment the Air Force Reserve employs must be interoperable not only 
with the Guard and Regular Component, but the Joint force as well.
    As Chief of the Air Force Reserve, I am dedicated to ensuring that 
Air Force Reservists have the training and equipment available to them 
required to provide for our Nation's defense. I appreciate the 
attention and resources provided to the Reserve thus far, and I ask for 
your continued support.
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For fiscal year 2010, the Air Force Reserve 
Command received $55 million in NGREA appropriations. This resulted in 
the ability to purchase critical warfighting requirements for Reserve-
owned equipment including critical upgrades to targeting pods, aircraft 
defense systems for C-5s and C-130s, and personnel protective equipment 
like security forces tactical weapons. These new capabilities are 
directly tied to better air support for our Soldiers and Marines in 
Iraq and Afghanistan. NGREA funding has helped the Air Force Reserve to 
remain relevant in today's fight as well as the ability to remain ready 
and capable in future conflicts. We truly appreciate and thank you for 
your support with this critical program.

    MILITARY CONSTRUCTION (MILCON) AND INFRASTRUCTURE MODERNIZATION

    Along with challenges in modernizing our equipment, we face 
challenges modernizing our infrastructure. During the fiscal year 2011 
budget formulation, both the Regular Air Force and the Air Force 
Reserve took risk in military construction appropriation in order to 
fund higher priorities. Over time, this assumption of additional risk 
has resulted in a continuing backlog exceeding $1 billion for the Air 
Force Reserve. I would be remiss if I didn't take this opportunity to 
sincerely thank you for the $112 million that we received in last 
fiscal year's military construction appropriation. This allowed us to 
address some of the most dire needs that exist in our backlog.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our facilities are modernized to provide 
a safe and adequate working environment for all of our Airmen.

                               CONCLUSION

    Mr. Chairman and members of this Committee, I am excited to have 
these roles as Chief of the Air Force Reserve and Commander of the Air 
Force Reserve Command. I take pride in the fact that when our Nation 
calls on the Air Force Reserve, we are trained and ready to go to the 
fight. As a strategic reserve, over 68,500 strong, we are a mission-
ready reserve force serving operationally throughout the world every 
day with little or no notice.
    As we approach fiscal year 2011 and beyond, it is clear the Air 
Force Reserve will play an increasingly vital role in meeting national 
security needs. The actions we initiated in 2009 and those we advance 
in 2010 will preserve the health of the Air Force Reserve but also help 
Congress address the more pressing issues we will face as a Nation in 
the years to come.
    I sincerely appreciate the support of this Committee for the 
appropriation and legislation it provides to our readiness and combat 
capability. I desire to continue working with each of you on the 
challenges facing the Air Force Reserve, the Air Force, and Our Nation. 
Thank you.

                        RECRUITING AND RETENTION

    Chairman Inouye. I thank you very much.
    The subcommittee is very pleased, looking over the record 
of recruiting and retention. A few years ago, it was pretty 
bad. Now all of you have improved it. Retention is good. For 
example, in the Air Force, you have 20 percent retention along 
the first-termers. And the Marines, 20 percent of your forces 
are now on deployment, and yet, they're coming in. What's your 
secret?
    General Stultz. Sir, I'll lead off. As I mentioned earlier, 
today I command almost 208,000 soldiers. I'm authorized 
205,000. That means I've got 3,000 more than I actually need in 
my ranks at this point. And the reason I have that is because 
of what you just said, the success of our recruiting and the 
success of our retention. And as people wondered about, ``Are 
we asking too much of our Reserve components?'' this 
operational tempo that we're under, with multiple deployments 
of many of our soldiers, I remind them that everyone that's in 
my ranks either enlisted or reenlisted since 9/11. They knew 
what they were getting into. They know what they're staying 
for.
    And I think, sir, that the soldiers and sailors and airmen 
and marines that we have joining our forces today are joining 
because, one, they feel a duty to their country; number two, 
they're seeking to make something of themselves that they're 
proud of; and three, they just feel good about what they're 
doing. And if we just provide them the support for them and 
their families, we provide them the support for their 
employers, as we've discussed before, so that they know they 
have a job to come back home to, and then we give 'em 
predictability, they'll stick with us.
    Chairman Inouye. Admiral.
    Admiral Debbink. Chairman Inouye, I would definitely echo 
everything that General Stultz has said, and I would just offer 
some numbers for perspective.
    In our officer ranks, our attrition has dropped from 
approximately 18 percent to less than 12 percent; in our 
enlisted ranks, from the mid-20s down to the mid-teens. And I 
do believe that the primary cause for all of this is the real 
and meaningful work that we're giving our sailors on a daily 
basis. And to the extent that we can continue doing that, which 
is not a problem in today's very operational tempo, but as we 
look past the overseas contingency operations into the future, 
and working hard to identify what we call the ``periodic and 
predictable part-time work of the Navy'' so we give these 
sailors continued access to real and meaningful work, I would 
predict that we'll continue to see this strong retention.
    Chairman Inouye. General Kelly.
    General Kelly. Sir, if I could just add, I think it's the 
product we offer, and the product we offer, regardless of what 
uniform they wear, is service to the Nation. There was a time 
when there were vastly larger numbers of young men and women 
that were willing to step forward. We don't have as many 
anymore, but we have just enough out there that come in with a 
smile on their face and want to serve. As long as, I think--and 
I'm new at this business--but, it seems to me, as long as we 
strike the right balance between deployments, family, benefits, 
predictability, and the Nation keeps faith--which, to date, 
certainly the Nation has kept faith with all of these 
warriors--as long as the Nation continues to keep faith with 
us, I don't think we'll have much in the way of problems.
    Chairman Inouye. General Stenner.
    General Stenner. Mr. Chairman, I'll just take off from that 
very last statement. If the Nation continues to keep faith, we 
will continue to be able to provide the capabilities in each of 
our services.
    I have statistics that show that we've asked the questions, 
``Why do you join?'' and then, ``Why do you stay?'' The number 
one answer on every single one of those is: patriotism. They 
want to serve their Nation, as has been said up here.
    I will add to what has been said--and I agree with 
everything that my partners have articulated--is that I think 
that we have kept faith, as a Nation, with some of the work 
that has been done to ensure we had parity of benefits. And a 
lot of that work over the last several years to ensure that the 
healthcare systems for folks who are fighting side by side, are 
equal and right and just. The GI bill, sir, has been an 
absolute huge retention-and-recruiting tool, especially when 
you can pass those benefits to families.
    Everything that has been done to make sure that all three 
components--Active, Guard, Reserve--have this kind of equality 
and fight side by side, doing the meaningful work that has been 
mentioned, they want to go. The benefits are equal. The 
patriotism piece is felt. The Nation keeps faith. And our folks 
are amazing people and will continue to serve.
    Chairman Inouye. All of you have problems with equipment 
shortfalls. But, with the Army, I note that it's about $6 
billion. And why is the Army always underfunding the Reserves? 
Is there a reason for that?
    General Stultz. Senator, I don't think it's because they 
don't like us.
    I think we face the challenge of transformation, 
modularity, and a changing enemy. And just as was given 
testimony by the previous panel about the amount of equipment 
that has been flowing in our force, you can look at it from a 
variety of numbers. You can look at it today and say, ``The 
Army Reserve is somewhere between 75 and 80 percent equipped, 
the best we've ever been.'' We've gone from somewhere in the 
range of about 61 to 62 percent, when I first got here, now to 
almost 80 percent.
    But, I can tell you, we're still short $6.7 billion in 
equipment if we're looking to the future of what the Army 
Reserve looks like by fiscal year 2016. And we're short 
somewhere to the tune of about $11 billion if you look at what 
we're short, in terms of the actual modernized equipment that 
we need by that time.
    And so, one would say, ``Well, you're getting 
shortchanged.'' And that's not exactly the case, because what's 
happening is, we're transforming.
    When I took over this position and looked at the force of 
the Army Reserve, I said, ``We don't have the operational force 
that we need for the future. We've got to transform.'' And 
within the 205,000 end strength that we had, we went in and 
converted somewhere to the tune of about 25,000 spaces into new 
capabilities. And that is, we took down the legacy structure 
that we had--a lot of administrative overhead--and we stood up 
transportation, military police, civil affairs, medical, all 
that structure, which now is coming onto the books as new 
structure within the existing 205,000, but it also comes with a 
bill for new equipment that wasn't planned in the past, because 
that structure wasn't being recognized.
    And so, I think one of the challenges we've got today is, 
we've got to continue to press for the equipment. And Congress 
and the American people have to understand it's not because 
we're wasting the money we're getting--and we appreciate 
everything we're getting--we're continuing to transform the 
Reserve into an operational force, with new capabilities, as 
the Army modernizes and modularizes. And so, that bill just 
continues to--I won't say ``grow,'' but it continues to be out 
there, because we're always trying to play catchup to the 
newest capabilities we need, and the equipment that goes with 
them.
    That being said, we have partnered very closely with the 
Army and the Army Guard to make sure that any soldier or any 
unit that goes into combat is best equipped, is best trained. 
Where we're lagging behind is, we don't have the right 
equipment back here, in all instances, to train on, for those 
soldiers back here that are getting ready to go.
    And that's our next step, and we've got to do a better job 
of getting that equipment. We've got equipment back here, in 
that 80 percent on-hand that is allowable substitute, but it's 
not that piece of equipment he's going to operate when he gets 
to Iraq or Afghanistan; it's a substitute item. What I need is 
to get the modernized item back here so that he's training on 
the same piece of equipment he's going to operate when he gets 
into theater.
    Chairman Inouye. I realize that, in the bureaucratic 
discipline, all of you are called upon to tell us that 
everything is fine, that we have all the equipment we need and 
the budget is fine. But, I, too, served in the military at one 
time, and I know what shortfalls can do. So, I'm asking all of 
you to submit to the subcommittee what you feel are shortfalls 
in equipment and what you feel is necessary for you to carry 
out your mission and improve your performance. So, I would hope 
that you could respond to that.
    [The information follows:]

    As we transition into a fully modernized operational force we 
continue to encounter and successfully tackle many challenges, among 
them equipping a modernized Army Reserve (AR). The AR's force structure 
is predominantly composed of Combat Support and Combat Service Support 
units, as such to effectively complete our mission, now and into the 
future we must not only ensure we fully equip our formations with the 
required quantities of equipment but we must also strive to equip them 
with the most modern and capable version available.
    The AR supports the Army's fiscal year 2011 President's budget 
which reflects the Army's highest priorities. In addition to the Army's 
fiscal year 2011 President's budget, the Army submitted a list of war-
related items where additional resources would enhance existing 
programs. The list, totaling $358.7 million, includes programs that 
support the AR.
  --Civil Affairs/Psychological Operations (CA/PsyOps) equipment for 
        Tactical Local Area Network (TACLAN) and peripheral systems for 
        Information operations and Irregular Warfare. 80 percent of the 
        CA units and 84 percent of the PsyOps units reside in the AR. 
        $55 million for TACLAN equipment will greatly enhance the AR 
        CA/PsyOps units' ability to perform their wartime mission.
  --NAVSTAR GPS: Defense Advanced GPS Receiver (DAGR). Of the $51.2 
        million request, $10.8 million will go toward filling 4,000 of 
        6,000 AR DAGR shortfall.
    The budget as submitted by the President will allow the Navy 
Reserve to carry out its mission as part of Navy's Total Force.

       AIR FORCE RESERVE UNFUNDED REQUIREMENTS LIST (PROCUREMENT)
------------------------------------------------------------------------
                                   Qty       Item Cost      Total Cost
------------------------------------------------------------------------
C-130 Large Aircraft Infra-Red        21      $3,000,000     $63,000,000
 Countermeasure System (LAIRCM)
A-10/F-16 Helmet Mounted              39         155,000       6,045,000
 Integrated Targeting (HMIT)...
C-130 Secure Line of Sight/           63         350,000      22,050,000
 Beynold Line of Sight (SLOS/
 BLOS).........................
C-5 Aircraft Structural Issues.        6      11,000,000      66,000,000
C-5 Large Aircraft Infra-Red           9      10,000,000      90,000,000
 Countermeasure System (LAIRCM)
F-16 Center Display Unit.......       24         208,333       5,000,000
AFRC ATP Procurement & Spiral         54       1,000,000      54,000,000
 Upgrade.......................
C-130 Aircraft Armor...........       79         200,000      15,800,000
C-130 Modular Aerial Spray       ( \2\ )         ( \2\ )      20,000,000
 System (MASS) (Request is for
 3600 Appropriation--
 Developmental) \1\............
C-130 Modular Aerial Spray             6       2,670,000      16,020,000
 System (MASS) (Follow-on
 Procurement Appropriation--
 Prior 3600 Funds Required)....
C-130 Crash Resistant                 76         250,000      19,000,000
 Loadmaster Seats..............
KC-135 Large Aircraft Infra-Red       15       1,000,000      15,000,000
 Countermeasure System (LAIRCM)
 Light.........................
C-130 NVIS Windows (Installs)..       64          15,625       1,000,000
C-17 Armor Refurbishment and          17         117,647       2,000,000
 Replacement...................
Security Forces Weapons &        ( \3\ )         ( \4\ )       5,500,000
 Tactical Equipment............
Trunked Land Mobile Radio        ( \3\ )         ( \4\ )       3,900,000
 (Carswell)....................
F-16 Simulation Training Device        2       1,100,000       2,200,000
 Upgrade.......................
F-16 Combined AIFF with Mode 5/       16         380,000       6,080,000
 S for RVSM & Autonomous ID
 capability....................
F-16 All WX A-G Precision Self-       54       2,222,222     120,000,000
 Targeting Capability..........
A-10 On Board Oxygen Generating       54         204,703      11,053,962
 System (OBOGS)................
                                ----------------------------------------
      Total....................  .......  ..............     543,648,962
------------------------------------------------------------------------
\1\ One Item Developmental Appropriation.
\2\ Not available.
\3\ Various.
\4\ Various items.

                     INTEGRATION WITH ACTIVE FORCES

    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I want to be on the record 
as seconding the motion and the suggestion that you've just 
made. And looking over the notes in preparation for the 
hearing, that was one thing that stood out. In looking at the 
management responsibilities that you gentlemen have, and the 
responsibilities that you have of transition to becoming more 
and more of an Active component of our military force 
structure, rather than a traditional Reserve component that's 
just called upon from time to time to join the force; you're in 
the force every day, in terms of training and mobilization 
plans, equipment, upgrades, on and on. And I can appreciate the 
fact that that's a tough, tough job, particularly since most 
folks think they are part-timers, in the Reserves.
    I was a Reserve officer, and, you know, I would put on the 
uniform from time to time, and go on Active Duty for a short 
period of time. One of the most enjoyable experiences was being 
an instructor at Officer Candidate School in Newport, Rhode 
Island. I thoroughly enjoyed that. I worked a good deal with 
the Navy that, during--when law school wasn't meeting, I'd get 
to go back on Active Duty and be an instructor, because it was 
building up for the Vietnam challenges and the things that were 
going on right then. That was a new program, they were trying 
to supplement their teaching complement with Reserve officers. 
Well, that was terrific for me. I didn't have to go work in a 
law firm as a clerk or something for a summer job.
    But, I wonder, are we making the adjustments? Do we need to 
do something, like provide funding specifically dedicated for 
these purposes of reorganizational changes that have to be 
made, and resetting the force, so that you can operate 
seamlessly as an Active Duty force, at a moment's notice?
    General Kelly. Well, sir, from the Marine Corps 
perspective, just talking about these reset issues and the 
equipment issues and all, I think we're unique, in that our 
Reserve units, as they're spread around the country, have a 
training allowance to work with, and that is sufficient for 
them to keep up with their training. And then, of course, as 
they get closer and closer to deploying to Afghanistan or Iraq, 
once mobilized, they get all their equipment and move to 
training sites and get ready to go. So, from my perspective, if 
the Marine Corps has got a problem, then I have the same 
problem. And, of course, the reset--Commandant, I think, has 
testified in this subcommittee, and others, that our reset and 
reconstitute bill, Marine Corps-wide, is something in the 
neighborhood of $13 billion. If you address that, you address 
my issues. But, again, I think I'm a little bit unique than the 
other services are, I believe.
    Senator Cochran. General.
    General Stenner. Senator Cochran, I will tag onto that, 
saying that we are probably also, as an Air Force, more closely 
aligned, and the equipment that we have, we share, in the 
association models. So, when the Air Force recapitalizes, all 
three components recapitalize. But, I will tell you that 
there's an awful lot of changing of mission sets right now. And 
some of the things that are going on with intelligence, 
surveillance, reconnaissance, cyberspace, space missions, the 
things that happen when you are deployed in place, so to speak, 
at home station, require a good bit of infrastructure 
modification. And in a lot of cases, with those new missions, 
and the high tech that comes with them, there comes a bill. So, 
the old facilities don't marry up. The infrastructure, the 
facilities, sustainment, restoration (FSRM) dollars that we 
need on a continuing basis to keep those facilities going, and, 
in some cases, the Milcon necessary to transition to new 
mission, are both as important to us, as an Air Force, as the 
recapitalization piece that goes into that.
    And the NGREA dollars we leverage to facilitate an 
expeditious recapitalization is also, of course, very, very 
important to us, as well.
    Senator Cochran. Admiral.
    Admiral Debbink. Senator, I would offer that, as our CNO 
has stated, we are one Navy today, with an Active component and 
a Reserve component. And that type of integration has driven us 
to the point that we work very closely with all of our 
procurement. Couple of examples might be, for example, anytime 
the Navy needs to fly logistics anywhere, it flies on Navy 
Reserve aircraft. Now, it just says ``Navy'' on the side, but 
they're actually Navy Reserve aircraft. Anytime our special 
operations forces over in Afghanistan get on a helicopter at 
night, it's a blended squadron of Active and Reserve getting 
onto those HH-60s. And so, that's a fully supported mission. We 
stood up our fourth riverine force. We're in process of doing 
so right now. And that'll be also a blended mission, Active and 
Reserve.
    I think the real key to all of these procurement accounts 
is what we list as our second strategic focus area, and that is 
to provide valued capabilities. And if we are doing that as a 
Reserve component, the resourcing will follow, to the extent 
that it can, with the overall constraints on the budget.
    Senator Cochran. General.
    General Stultz. I guess I get to be the naysayer.
    I think the challenge we face today is, we have 
operationalized the Army Reserve. We are using the Army Reserve 
as part of the total force on a repeated basis, and we have 
developed a cyclical model, called our Army Force Generation 
Model, that says--the Army is on this same model, where--1 year 
forward, 2 years back home; the Reserve is 1 year forward, 4 
years back home. And that means that you go through a cycle of 
progressive readiness, where you're building capability so 
that, when you come into that available window, you're trained, 
ready, and equipped. That means that each year in that cycle, 
you are required increased support for equipment, increased 
support for training dollars, because there's more expected of 
you to get ready.
    The problem is, our budget and our funding is based on the 
Army Reserve you came into; one weekend a month, 2 weeks in the 
summertime. It's not based on this operational model. And so, 
everything that we're funding today, in most cases, to put the 
units through that model--and we do, and we get 'em out, best 
trained, best qualified, ready to go--is based on overseas 
contingency operation dollars or supplemental dollars that 
we've gotten.
    What we have to do is, we've got to get those dollars 
identified and put them into the base budget of the Army and 
the Army Reserve as requirements for the future, because we're 
going to be in an extended period of conflict. And when we have 
put so much capability in our Reserve components today--the 
Army Reserve that I have today accounts for 60 percent of the 
Army's medical capability. Over 80 percent of its civil affairs 
capability. At least one-third or more of the engineer, 
logistics, and transportation capability. And if you combine us 
with the National Guard, 75 percent of the engineer capability 
of the Army is in the Reserve components. You cannot fight an 
extended conflict without reliance on the Reserve as part of 
that operational force. Yet, we haven't built the budget model 
to allow it to do that.
    And I think that's the challenge, as we're looking forward 
into the 2012-17 years, is that we've got to put that into the 
budget. And the Army has to figure out how to accommodate that, 
because we know we're going to be in a period of, you know, 
limited budget increases. But, we're going to have to--if we 
operationalize the Reserve--and, in my opinion, we don't have a 
choice--then we've got to put those dollars required for 
training, for equipping, all that, into the base budget. And 
that training has to be, not just at a training center 
somewhere, where you send 'em for that 2 week, 3 week, or 
whatever, period of training, it's also got to be the training 
capability when they're in their home station, that they're 
getting meaningful training.
    You know, soldiers tell me today, ``Don't waste my time. 
You know, if you're going to have me come to a weekend drill, 
make it meaningful.'' And we've got soldiers now that are 
coming back from their second and third deployment, and the 
last thing they're going to accept is for us to send 'em to a 
Reserve unit on a Saturday and sit 'em in a classroom. They 
want something meaningful. They've been there, they've done 
that. They want that piece of equipment that they've just been, 
in theater, operating; not coming back home and looking at that 
30-year-old truck that they're saying, ``We don't use that 
anymore.''
    So, that's the challenge. Yes, sir, we've got to get more 
resourcing into our budgets for the Reserve component if we're 
expected to use it as an operational force, which I think we 
don't have an option; it is part of that force.
    Senator Cochran. Thank you very much. Thank you for your 
leadership and your service.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. And we thank you very much, gentlemen, for 
your testimony this morning. And we thank you for your service 
to our Nation. And we thank the men and women of your command 
for their service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Chairman Daniel K. Inouye

                   TRANSITION TO OPERATIONAL RESERVE

    Question. General Stultz, the Army Reserve continues to transition 
from a strategic to an operational reserve. Do you believe the Army is 
adequately resourcing the Reserve to make this transition?
    Answer. The Army is committed to maintaining a trained and ready 
Reserve Component force as full participants in the ARFORGEN process. 
Steady state funding to achieve this goal is a topic for our fiscal 
year 2012 budget deliberations. The Army National Guard and the Army 
Reserve, like the Active Army, currently rely on Overseas Contingency 
Operations funding to resource readiness for the current fight 
including pre-mobilization training and reintegration activities. We 
anticipate working with the Army National Guard and the Army Reserve to 
come to a consensus position on this issue.
    Question. What are the biggest challenges still remaining?
    Answer. The Army and Army Reserve is currently evaluating the 
resource requirements to achieve an ``operational reserve'' in the 
fiscal year 2012-17 POM. Decisions on fill level for full time staff, 
funded training days, and type of training will all drive the cost of 
operationalizing the reserve component. The Army has not yet validated 
the $1.5 billion training cost estimate and anticipates there are cost 
impacts beyond training that must be evaluated.
    Question. General Stultz, the transition to the operational reserve 
has increased the need for full time support personnel. The Army was 
supposed to conduct an analysis 2 years ago to reevaluate the Reserve's 
full time support requirements but, so far, these studies have failed 
to produce actionable results. What is delaying this decision?
    Answer. Creating a sustainable operational Reserve Component 
requires competition for scarce resources. The Army has validated the 
requirements reflected in the 2005 report and the optimal solution is 
100 percent manning of the validated requirement. However, given 
funding constraints and the past 8 years experience, the Army Reserve 
has proven we can provide trained and ready units, within the current 
required timeframes, with our current level of Full-Time manning 
augmented by a substantial level of Full-Time Equivalents using ADOS to 
build readiness in ARFORGEN and support RTC/CSTC requirements. That is 
why we have supported FORSCOM's operational model as the minimum 
critical requirement for the 2012-17 POM.
                                 ______
                                 
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye

                          CONTINUUM OF SERVICE

    Question. Admiral Debbink, the Navy Reserve has initiated a program 
called the Continuum of Service which would allow sailors to easily 
transition between active and reserve service. This is a novel approach 
to the idea of military service. What is the status of this program and 
has it been successful so far?
    Answer. Continuum of Service (CoS) is a Total Force imperative and 
one of my three Strategic Focus Areas for the Navy Reserve. CoS 
reflects the reality of our Navy--as our Chief of Naval Operations, 
Admiral Gary Roughhead, states, ``we are one force today. One Navy, 
with an Active Component and a Reserve Component.'' This is what CoS is 
about--bringing together our active component (AC) and reserve 
component (RC) to provide an integrated and balanced Force to meet 
current and emerging challenges in the most cost-effective way 
possible, while concurrently honoring all our Sailors who desire to 
serve our country to the best of their ability.
    We have been very successful with the implementation of our CoS 
strategy since we launched it in fiscal year 2009. As barriers to 
seamless movement between the AC, the RC and civilian service are 
removed, our ability to deliver operational flexibility and strategic 
depth at the best value to the Navy increases dramatically. The CoS 
philosophy of recruiting Sailors once and retaining for life through 
variable and flexible service options is providing Sailors a career 
continuum of meaningful and valued work.
    CoS is forcing us to think differently and make major changes in 
the way we do business, including changes to regulations, policy and 
law. We now have systems and business processes in place to ease the 
transition between components. For example, AC Sailors can now choose 
to affiliate with the Selected Reserve while still on active duty, 
eliminating the requirement to be re-recruited into the RC upon leaving 
active service. At the Naval Personnel Command, a Career Transition 
Office (CTO) was established to support optimized assignment of 
personnel into available Navy active and reserve billets, decreasing 
transition processing times and error rates while increasing reserve 
Sailor transition and affiliation rates. We started with officers 
transitioning from AC to RC, and immediately realized positive results 
by nearly doubling Navy Veteran officer affiliation rates from 28 
percent to 53 percent. We have recently expanded the program to include 
enlisted Sailors transitioning from AC to RC. In the future, the CTO 
will handle all officer and enlisted transitions from AC to RC and RC 
to AC, except mobilizations.
    Foremost among my list of priorities is to field a Total Force 
Future Pay and Personnel System (FPPS). The Navy and Navy Reserve 
currently have separate pay and personnel systems, designed and built 
in an era when Sailors rarely mobilized or transitioned between 
components. FPPS would support the timely and seamless transition on 
and off active duty without the existing delays and confusion regarding 
pay and benefits. The development of FPPS is the Navy Reserve's top 
priority for 2010.

                   CAREER INTERMISSION PILOT PROGRAM

    Question. Currently reservists have numerous opportunities to 
transition to active service but only a small number of active duty 
sailors, who are part of a pilot program, have opportunity to make a 
short term transition to the reserve. Do you see this pilot program 
expanding for active duty sailors?
    Answer. Our Continuum of Service (CoS) initiatives provide several 
ways for Sailors to transition back and forth between components over 
the course of a career. Navy Personnel Command's Career Transition 
Office engages Sailors nearing the end of their active service 
obligation, aiding and incentivizing them toward affiliation with the 
Reserve Component.
    Navy's Career Intermission Pilot Program, authorized by Congress in 
the fiscal year 2009 NDAA, is just one of the ways to transition 
between components. It provides a one-time temporary transition from 
active duty to the Individual Ready Reserve for up to 160 service 
members during the timeframe from 2009-2012, to pursue personal or 
professional growth outside the service while providing a mechanism for 
their seamless return to active duty. At the end of the program 
participation, the member returns to active duty service with an 
adjusted Pay Entry Base Date, or lineal number, to reflect service time 
commensurate with their peers and to ensure continued promotion 
opportunity. Based on the Congressional authorization, similar programs 
are currently being developed by the U.S. Army and the U.S. Air Force 
for summer 2010 and the Department intends to request permanent 
authority for this program in the fiscal year 2013 NDAA.
    The limited number of active duty sailors who are participating in 
the pilot program to date may reflect the current economic environment, 
as well as other factors which we are assessing. We feel it is 
important to offer our Sailors multiple avenues to transition between 
components to accommodate individual circumstances. Though any one 
program may not seem to be significant, the opportunities represented 
by the aggregate of our CoS programs are one of the main tenets of our 
``Top 50 Organization'' emphasis.

            NAVY AND MARINE CORPS RESERVE OFFICER RECRUITING

    Question. Admiral Debbink and General Kelly, over the last several 
years both the Navy and Marine Reserves have struggled with officer 
recruiting. The Marine Reserve is now back to its authorized end 
strength but the Navy Reserve is still facing a serious officer 
shortage, due to years of low recruiting. Have you shared strategies 
for attracting and retaining reserve officers? What measures are being 
considered by the Navy Reserve to address remaining shortages?
    Answer. Due to the different target populations for Navy Reserve 
and Marine Corps Reserve Officer Recruiting, General Kelly and I have 
not engaged in detailed strategy discussions for attracting and 
retaining reserve officers. However, the Chief of Naval Personnel and I 
have a shared vision of implementing initiatives and programs to have 
all Reserve communities ``healthy by 2014.''
    Navy Reserve Recruiting difficulties are mostly concentrated in 
recruiting personnel with highly sought-after skills--both in the 
military and in the private sector--and capturing our warfare qualified 
Navy veterans. High retention within the active component has limited 
the pool of veteran officers and has increased our reliance on Direct 
Commission Officers to meet annual recruiting goals. Over the last 
couple of years, our primary challenge has been in recruiting Reserve 
Medical Officers, where our goal increased 43 percent in fiscal year 
2010 alone. Another challenging officer community is Special Warfare/
Special Operations, a community that is in high demand supporting 
overseas contingency operations.
    Our primary recruiting challenge for fiscal years 2010 and 2011 
will be in the Navy Veteran (NAVET) market. As more Navy Officers opt 
to remain on active duty, which is truly good news for Navy, the NAVET 
goal is becoming increasingly difficult to achieve. Despite historical 
lows in RC officer attrition, increasing Reserve Component (RC) 
retention will help alleviate the some of the shortfalls in specific 
communities and pay-grades. Navy has several measures and initiatives 
in varying stages of implementation to improve RC officer manning 
including: (1) expansion of lateral transfer opportunities, (2) 
flexible mobilization policy for medical professionals, and (3) 
implementation of a RC officer retention bonus. Improving RC officer 
retention, increasing and expanding our DCO program, and capturing a 
larger percentage of the NAVET market, are all elements of our strategy 
to attract and retain officers to meet our goal of getting healthy by 
2014.
    Question. Admiral Debbink, how is the shortage of officers, 
particularly in critical specialties, affecting the readiness of the 
Naval Reserve?
    Answer. Overall, the shortage of officers in the Navy Reserve has a 
limited affect on the readiness of our Force. However, we do have 
significant shortages of officers in two major categories: Healthcare 
Professionals in Critical Wartime Specialties (to include Medical 
Corps, Dental Corps, Nurse Corps, and Medical Service Corps); and 
critical undermanned non-healthcare designators (to include SEALs, 
Civil Engineer Corps, Supply Corps and Explosive Ordinance Disposal 
(EOD) officers). Each of these communities is undermanned and faces 
possible shortfalls in meeting dwell time targets, placing those 
communities under continuous stress.
    During fiscal years 2007-2009, high mobilization demand had a 
direct (though not necessarily causal) relationship to high officer 
attrition, particularly for junior officers. The Navy is considering 
options for better managing demand for critical Reserve Component (RC) 
specialties, including adjusting Total Force deployment schedules to 
improve Reserve mobilization dwell times, and deleting or not filling 
some Overseas Contingency Operations requirements that would require 
unacceptable dwell times, resulting in additional stress on the Active 
Component as well as the Joint Force. Additionally, the use of 
incentive programs has increased Navy's ability to assess officers and 
increase retention in these stressed communities, but there are still 
projected shortfalls in some communities for several years.
                                 ______
                                 
        Questions Submitted to Lieutenant General John F. Kelly
            Questions Submitted by Chairman Daniel K. Inouye

               MARINE CORPS RESERVE--STRAIN ON THE FORCE

    Question. General Kelley, the Marine Corps Reserve is maintaining a 
high operational tempo with nearly one-fifth of the force mobilized 
this year. Over 20,000 Marine reservists have been deployed more than 
once since 2001. This must put a huge strain on your reservists, their 
families, and employers. How is this high operational tempo affecting 
morale?
    Answer. In my travels across the numerous sites and facilities that 
comprise MARFORRES, I routinely encounter Marines from all walks of 
life and military job specialties. For the most part, they are a well 
seasoned force of combat veterans whose pride in their accomplishments 
serving this nation may be exceeded only by the level of their morale. 
They have a strong desire to stay in the fight, to be part of the Total 
Force Marine Corps even as hostilities in the current conflicts start 
to wane. That they still are willing to stand strong while having to 
balance civilian employment in addition to family concerns is a 
testament to their patriotism and esprit de corps. We certainly 
recognize the costs associated with the current operations but have 
mitigated them to a large degree with the use of our Force Generation 
Model, which provides needed predictability for the Marines, their 
families, and their employers.
    Question. General Kelley, the active duty Marine Corps has now 
completed its end strength growth. Will this reduce the operational 
tempo for the Marine Reserve?
    Answer. The Marine Corps Total Force--Reserve and Active 
Components--are now in balance and both are approaching the 
Commandant's desired dwell time. So long as we are involved in a major 
overseas contingency operation this balance will be maintained. To the 
specific question, Yes, I expect the tempo will be reduced to the 
benefit of the Operational Reserve. This should stabilize our dwell 
time to meet or exceed the desired one to five ratio, and add to our 
already established unit deployment predictability for our Reserve 
Marines, their families, and their employers. It will allow us to 
continue to use the MARFORRES Force Generation Model to ensure our 
Reserve units are ready to answer the nations call in the face of any 
future contingency or requirement. We have achieved a very favorable 
balance with the Active Force at 202,000 and the Reserve Force at 
39,600, allowing the Operational Reserve to maintain its place as an 
integral and enduring part of the Total Force.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye

                      AIR FORCE RESERVE--RETENTION

    Question. General Stenner, after several years of low retention, 
the Air Force Reserve has completely turned around its retention 
levels, improving retention by over 20 percent for First-Term Airmen. 
What is driving the improved retention and what are you doing to ensure 
that high retention continues?
    Answer. The Air Force Reserve's continued recruiting and retention 
success is due to a variety of factors, but one of the most concrete is 
the support we have received in recent years from the President and 
Congress. By enhancing incentives for service, they have recognized the 
critical contributions of Reservists and rewarded Reservists for that 
service. As a highly trained, experienced, and cost effective strategic 
reserve force, our members serve proudly, providing operational 
capability on a daily basis. In return, Congress (at the urging of the 
Reserve Officer Association and other support organizations) has 
provided numerous improvements in benefits our Reservists receive. 
These include flexibility in terms of service requirements, competitive 
pay, improved retirement benefits, inactive duty training (IDT) travel 
pay, Post 9/11 GI Bill education benefit, affordable TRICARE for 
members of the Selected Reserve, targeted pay for critical career 
fields, and reducing the age a retired Reservist may begin receiving 
retirement benefits based on their service participation.
    To ensure our continued retention, I frequently seek feedback on 
the issues important to Reservists and then I act to address their 
concerns. One of the methods I use to solicit feedback from our 
Reservists is a process known as the Reserve Internal Communication 
Assessment Group (RICAG). In fact, one incentive initiated based on 
information from a RICAG, the TRICARE Retired Reserve program, is 
expected to begin this fall.
    Another factor important to Reservists, their families, and 
employers is predictability. We continue to improve the predictability 
and sustainability of deployments and participation in contingency 
operations, making it easier for members to volunteer, mobilize, and 
deploy. These enhancements are important steps in maintaining the Air 
Force Reserve's high retention rates which are critical to sustaining 
our professional Reserve force.
    Question. General Stenner, the Combat Air Force restructure is just 
starting, are you concerned about its affect on retention levels?
    Answer. The Combat Air Force restructuring plan enables the Air 
Force to move manpower authorizations to emerging and priority missions 
such as manned and unmanned surveillance operations and F-35 training 
or operational missions. Within this realignment, the Air Force Reserve 
will continue to offer citizen Airmen the opportunity to serve and 
support all mission sets across the spectrum of air, space and cyber. 
In part, through normal attrition (due to separations, retirements, 
etc.) and with Air Force Reserve end-strength increasing to 
approximately 72,100 Airmen, the Air Force Reserve is putting the right 
Airmen in the right jobs to meet mission requirements. This realignment 
will not affect the overall retention for the Air Force Reserve.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Appropriations Subcommittee 
will reconvene on Wednesday, April 14, at 10:30 a.m., at which 
time we will meet in closed session to receive testimony on 
fiscal year 2011 budget request for intelligence activities.
    The subcommittee stands in recess.
    [Whereupon, at 11:54 a.m., Wednesday, March 24, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 14.]

</pre></body></html>
